y
No.

IN THE
SUPREME COURT OF THE UNITED STATES

ROY L. RAMBO, JR.,
Petitioner,
v.
ADMIN. EAST JERSEY STATE PRISON, ETAL
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
PETITIONER'S APPENDIX IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

Respectfully submitted by,
Roy L. Rambo, Jr., Pro Se
INM#521696 / SBI#205593-B
South Woods State Prison
215 Burlington Road South
Bridgeton, New Jersey 08302
(No telephone number available)

PETITIONER IS INCARCERATED

>
*"

INDEX TO APPENDIX
APPENDIX A:
Opinion of the Court of Appeals - Roy L. Rambo v. Administrator East Jersey
State Prison, et al., No. 20-2196 (3d Cir. Oct. 19, 2020) (unpublished opinion).
APPENDIX B:
Opinion of the District Court - Roy L. Rambo, Jr. v. Patrick A. Nogan, et al.
No. 14-0874 (MAS) (D.N.J. Feb. 29, 2020) (unpublished opinion).
APPENDIX C:
Opinion of the Court of Appeals - Roy L. Rambo v. Administrator East Jersey
State Prison, et al., 762 Fed. Appx. 105 (3d Cir. Jan. 30, 2019).
APPENDIX D:
Opinion of the District Court - Roy L. Rambo, Jr. v. Patrick A. Nogan, et al.,
No. 14-0874 (MAS) (D.N.J. Oct. 2, 2017) (unpublished opinion).
APPENDIX E:
Opinion of the District Court - Roy L. Rambo, Jr. v. Patrick A. Nogan, et al.,
No. 14-0874 (MAS) (D.N.J. Sept. 1, 2017) (unpublished opinion).
APPENDIX F:
Opinion of the Appellate Division - PCR Appeal - State of New Jersey v. Roy
L. Rambo, Jr., No. A-0382-10T2 (N.J. App. Div. 2013) (unpublished opinion).
APPENDIX G:
Opinion of the Appellate Division — Criminal Appeal - State of New Jersey v.
Roy L. Rambo, Jr., 401 N.J. Super. 506 (App. Div. 2008).
APPENDIX H:
Opinion of the Appellate Division - Chancery Appeal - In re Estate of Rambo,
No. 5308-09 (N.J. App. Div. 2012) (unpublished opinion).
APPENDIX I:
Opinion/Transcript of the Chancery Division - Oct. 15, 2003.
APPENDIX J:
Excerpts From Other State and Federal Decisions That Conflict With The
Holdings In This Mater.

l

%

APPENDIX A

'V
i

October 15, 2020
DLD-012
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2196
ROY L. RAMBO, JR., Appellant
VS.
ADMINISTRATOR EAST JERSEY STATE PRISON, ET AL.
(D.N.J. Civ. No. 14-cv-00874)
Present: JORDAN, KRAUSE and PHIPPS, Circuit Judges
Submitted are:

0)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1);

(2)

Appellees’ response; and

(3)

Appellant’s reply
in the above-captioned case.
Respectfully,

Clerk
________________________________ ORDER_________ ■
________________
The foregoing request for a certificate of appealability is denied. We may issue a
certificate of appealability “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The District Court denied
Rambo’s claims as meritless. Jurists of reason would not debate the correctness of this
decision. See Strickland v. Washington, 466 U.S. 668, 687-96 (1984) (describing
standard for ineffective assistance of counsel); United States v. Lore. 430 F.3d 190, 208
(3d Cir. 2005) (court may place reasonable limits on cross-examination); Bishop v.
Mazurkiewicz, 634 F.2d 724, 725 (3d Cir. 1980) (proposed jury instruction is only
required by due process if it has rational support in the evidence); see also United States

V

v. Wrensford, 866 F.3d 76, 91 (3d Cir. 2017) (applying rational support standard to
passion or provocation element of voluntary manslaughter instruction).
By the Court,
s/ Kent A. Jordan
Circuit Judge
Dated: October 19, 2020
Lmr/cc: Roy L. Rambo, Jr.
Dit Mosco
A True Copy^0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

%

APPENDIX B

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 1 of 25 PagelD: 6333

f

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
ROY L. RAMBO, JR.,
Civil Action No. 14-0874 (MAS)
Petitioner,
v.

OPINION

PATRICK A. NOGAN, et al..
Respondents.
SHIPP, District Judge
Before the Court is the Petition for a writ of habeas corpus of Petitioner Roy L. Rambo.
("Petitioner") brought pursuant to 28 U.S.C. § 2254. (Pet., ECF No. 1.) This Court previously

C

granted the Petition. (Order, Sept. 1, 2017, ECF No. 45.) The Third Circuit Court of Appeals
reversed and remanded for consideration of Petitioner's other arguments raised in his Petition.
(USCA J.. Jan. 30,2019, ECF No. 72.) For the reasons stated below, the Petition is now denied.
I.

i

BACKGROUND
For the purposes of this Opinion, the Court relies substantially on the facts and legal

standard recited in its Opinion granting habeas relief. (See Op. 2-13. Sept. 1,2017. ECF No. 44.)
The Court provides only a brief summary of the facts relevant to this Opinion.

1 Also pending before the Court are Petitioner’s Motion to Compel the Production of Transcripts
(ECF No. 96), Motion for the Production of Documents, (ECF No. 97). and Motion to Appoint
Pro Bono Counsel. (ECF No. 98). Because the Court will deny the Petition, the pending motions
are denied as moot. The additional discovery sought by Petitioner would not alter the Court's
conclusion.

3

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 2 of 25 PagelD: 6334

Petitioner was indicted for murdering his wife. After his indictment. Petitioners marital
assets were frozen by the Superior Court of New Jersey, Chancer)' Division. (Ra. Ex. 114, Nov.
7, 2003, Order, ECF No. 24.) The Chancer)' Division, relying on the New Jersey Slayer Statute,
N.J. Stat. Ann. § 3B:7-1, et seq.1 ("Slayer Statute”), denied Petitioner access to his assets for the
purpose of hiring counsel in his criminal proceedings. (Id.)
Petitioner chose to represent himself at trial and was convicted.

(Ra. Ex. 2, J. of

Conviction, Apr. 22, 2005, ECF No. 14.) Petitioner appealed his criminal conviction. The
Superior Court of New Jersey, Appellate Division, affirmed on July 22, 2008. State v. Rambo,
951 A.2d 1075 (N.Jl Super. Ct. App. Div. 2008). The New Jersey Supreme Court denied
certification, and the United States Supreme Court denied certiorari. State v. Rambo, 962 A.2d
529 (N.J. 2008), cert, denied, Rambo v. Mew Jersey, 556 U.S. 1225 (2009).

r

In or around February 2009, Petitioner filed a motion to reinstate his civil appeal—-which
was previously dismissed for Petitioner's failure to prosecute—from the Chancery Division’s
orders that froze his assets. (Ra. Exs. 132, 133, Pet’r’s Mot. to Reinstate Appeal, ECF No. 24.)
The Appellate Division denied Petitioner's appeal without prejudice and permitted Petitioner to
file a subsequent appeal after securing a final judgment from the Chancery Division. (Ra. Ex. 134,
Mar. 6, 2009 Order, ECF No. 24.) After securing a final judgment, Petitioner appealed. (App.
Div. Ex. 69. Jan. 4,2011. ECF No. 87-8.) The Appellate Division affirmed. In re Estate ofRambo.
No. 5308-09, 2012 WL 1969954 (N.J. Super. Ct. App. Div. June 4, 2012). The New Jersey
Supreme Court denied certification, and the United States Supreme Court denied certiorari. In re

2 At the time, the relevant provisions of the New Jersey Slayer Statute were codified at N.J. Stat.
Ann. 3B:7-1 (1982) (repealed 2004) (current version at N.J. Stat. Ann. 3B:7-1.1). N.J. Stat. Ann.
3B:7-2 (1982) (repealed 2004) (current version at N.J. Stat. Ann. 3B:7-1.1). and N.J. Stat. Ann.
3B:7-6 (1982) (amended 2004).
2

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 3 of 25 PagelD: 6335

Estate o/Ramba, 54 A.3d 810 (NJ. 2012). cert, deniedRcimbo v. Estate oj'Rambo, 571 U.S. 1237
(2014).
Following exhaustion of his direct appeals. Petitioner filed an application for
post-conviction relief U'PCR"). The PCR court denied the application. (Ra. Ex. 40, Aug. 10,2010
Order, ECF No. 18-1.) The Superior Court of New Jersey, Appellate Division, affirmed. State v.
Rambo, No. A-0382-10T2, 2013 WL 512116 (N.J. Super. Ct. App. Div. Feb. 13,2013). The New
Jersey Supreme Court denied Petitioners appeal. State v. Rambo, 75 A.3d 1160 (N.J. 2013). On
or about February 11, 2014, Petitioner filed the instant Petition raising sixteen ground for habeas
relief:

r

1)

Ground One: The pre-trial restraint of Petitioner's assets by the chancery' court
wrongfully interfered with Petitioner's right to retain criminal defense counsel of
his choice.

2)

Ground Two: The New Jersey "Slayer. Statute” is invalid because it conflicts with
two other New Jersey state statutes. The Petitioner's conviction must be reversed
because it was obtained following a state court’s application of an invalid statute,
where the application interfered with the Petitioner's property, counsel of choice,
due process, fundamental fairness, fair trial, and equal protection rights.

3)

Ground Three: The New Jersey "Slayer Statute" is unconstitutional because it
is in conflict with federal law and Supreme Court precedent. The Petitioner's
conviction must be reversed because it was obtained following a state court's
application of an unconstitutional state statute, where the application interfered
with the Petitioner's property', counsel of choice, due process, fundamental
fairness, fair trial, and equal protection rights.

4J

Ground Four: The Chancery' Court misconstrued the scope of the New Jersey
"Slayer Statute” to include assets that the Petitioner legitimately owned prior to
the alleged criminal act. The court's erroneous expansion of the statute
deprived the Petitioner of property rights guaranteed under the United States
Constitution. Amendments V and XIV. The Petitioner's conviction must be
reversed because the flawed application impermissibly interfered with his
rights to counsel of choice, due process, fundamental fairness, a fair trial, and
equal protection under the lasv. thereby infecting the entire criminal trial
process.

5)

Ground Five: The New Jersey courts erred when they failed to distinguish the

\

3

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 4 of 25 PagelD: 6336

(

Petitioner's qualified Sixth Amendment right to counsel of his own choosing
from the more familiar Sixth Amendment right to assigned counsel for an
impoverished defendant.
6)

Ground Six: The lower courts unreasonably applied federal law in a manner
that was contrary to decisions by other New Jersey courts of equal or higher
jurisdictions deciding similar matters. These divergent holdings, including the
appellate decisions of February 13, 2013 and June 4, 2012, failed to protect the
Petitioner's federal rights to property, counsel of choice, due process,
fundamental fairness, a fair trial, and equal protection under the law. The
violations constitute "structural errors” that require the reversal of Petitioner's
conviction.

7)

Ground Seven: The lower courts unreasonably applied federal law in a manner that
was contrary to decisions by other states and federal courts of equal or higher
jurisdictions deciding similar matters. These divergent holdings, including the
appellate decisions of February 13, 2013 and June 4, 2012, failed to protect the
Petitioner’s federal rights to property, counsel of choice, due process, fundamental
fairness, a fair trial, and equal protection under the law. The violations constitute
‘'structural errors" that require the reversal of Petitioner’s conviction.

8)

Ground Eight: The New Jersey "Slayer Statute” was arbitrarily applied in a
radically different manner for this Petitioner than it has been applied to similarly
situated defendants, in violation of the Equal Protection Clause guaranteed by the
United States Constitution, Amendment XIV.

9)

Ground Nine: The Petitioner's waiver of counsel (predicated upon the erroneous
deprivation of his assets) was not a valid "knowing, intelligent and voluntary
waiver” of his Sixth Amendment right to counsel,

10)

Ground Ten: Total forfeiture of Petitioner’s assets pursuant to [N.J. Stat. Ann.]
3b:7-l, et seq. constitutes punishment and infringement on the United States
Constitution, Amendment VIII and the New Jersey Constitution, Art. 1, 1j 12
prohibitions against excessive fines; and intimates that further criminal prosecution
violated the United States Constitution, Amends. V, XIV and the New Jersey
Constitution. Art. 1. f*] 1 and 11 (double jeopardy and due process of law clauses).

11)

Ground Eleven: The trial court erred by restricting the scope of cross-examination
of a material state's witness where the defense intended to impeach the credibility
of her testimony by revealing her bias and the significant financial interest expected
to be gained as a result of the Petitioner’s conviction, in violation of the United
States Constitution, Amendments VI and XIV.

12)

Ground Twelve: The trial and appellate courts applied an improper evidence
standard in determining whether to deliver a passion/provocation manslaughter jury
instruction. Therefore, the trial court's refusal to charge passion/provocation

(

4

\

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 5 of 25 PagelD: 6337

c

r
<s.

manslaughter as a lesser-included offense of murder reduced the state’s burden of
proof and impermissibly infringed upon the Petitioner's rights to due process and a
fair trial, in violation of the United States Constitution, Amendments VI and XIV;
and the New Jersey Constitution, Article 1, paragraphs 1,9. 10.
13)

Ground Thirteen: The trial court’s failure to refus[e] to grant the Petitioner’s request
for a jury instruction on the affirmative defense of premises denied the Petitioner
of his constitutional rights to due process and a fair trial, in violation of the United
States Constitution, Amendments VI and XIV; and the New Jersey Constitution,
Article 1. Paragraphs 1,9, 10.

14)

Ground Fourteen: The court-appointed attorneys failed to research the "Slayer
Statute” case law and failed to pursue resolution or an interlocutory appeal of
Petitioner’s assets claims in the criminal, civil, or appellate courts prior to the
criminal trial. Therefore, counsels’ deficient performance prejudicially deprived
the Petitioner of the effective assistance of pre-trial counsel, counsel of his own
choosing, due process and a fair trial, in violation of the United States Constitution.
Amendments V, VI and XIV.

15)

Ground Fifteen: The decisions reached by the Appellate and Chancery Divisions
were against the interest of the public where the defense costs were improperly
shifted from the Petitioner to the office of the public defender.

16)

Ground Sixteen: In the interests of justice, fundamental fairness, and to preserve
judicial and taxpayer resources, this court should craft the appropriate remedy as a
matter of first impression with respect to the "Slayer Statute” and the counsel of
choice claims. The court should then order the trial court to immediately implement
those remedies, including dismissal of the indictment with prejudice, and
immediate release of the Petitioner from custody.

(Pet. 20-33) (capitalized in original).)
This Court granted Petitioner relief. Finding that Petitioner was denied his right to counsel
ofchoice under the Sixth Amendment. (Order. Sept. 1.2017.) The Third Circuit reversed, finding
that the particular issue presented “whether the state court's freezing of an individual's assets under
the slayer statute could violate the Sixth Amendment right to choice of counsel-had not been
addressed by the Supreme Court when the District Court granted relief.” Rambo v. Adm r E. Jersey
State Prison, No. 17-3156, 2019 WL 386888, at *3 (3d Cir. Jan. 30. 2019). The Third Circuit
remanded to consider Petitioner’s other arguments raised in the Petition. Id.

5

5

i

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 6 of 25 PagelD: 6338

II.

DISCUSSION
A.

Grounds One through Eight: Slaver Statute

Petitioner raises arguments under the Fifth, Sixth and Fourteenth Amendments of the
United States Constitution regarding the Slayer Statute and the Chancery Division’s refusal to
release funds to Petitioner for his criminal trial. Petitioner initially raised these arguments in his
direct appeal of his criminal conviction. See Rombo. 951 A.2d at 1080, 1085—86. The Appellate
Division declined to address any argument relating to the freezing of Petitioner’s assets, finding
that Petitioner failed to prosecute his appeal from the Chancery Division’s order freezing his assets.
Id. at 1083-84: The Appellate Division also noted that Petitioner had not made any attempt to
"include in his Notice of Appeal the orders entered in the Chancery Division[.]” Id. at 1083.
As a result. Petitioner filed a motion to reinstate his appeal from the Chancery' Division’s
C

order that froze his assets. (Mot. to Reinstate Appeal, June 15, 2010, ECF No. 85-9.) The
Appellate Division ultimately reinstated the appeal. (Order, Aug. 23, 2010, ECF No. 85-7 at 6.)
Petitioner then filed a lengthy appeal of the Chancery Division decision, arguing, among other
things, that his constitutional rights were violated by the Chancery Division’s decision to freeze
his assets. (Rambo Pro Se Br., Jan. 4, 2011, ECF No. 87-8.) Specifically, Petitioner argued that
his rights under the Fifth, Sixth, and Fourteenth Amendments were violated, that he was divested
of his property rights, that he was denied a fair trial, that the Slayer Statute is unconstitutional, and
that the Chancery Court’s application of the Slayer Statute to Petitioner was unconstitutional. (Id.)
The Appellate Division affirmed the Chancery Division. In re Estate of Rambo. 2012 WL
1969954 *4. In that decision, the Appellate Division reviewed the Chancery Division’s application
of the New Jersey Slayer Statute. As to all other claims raised by Petitioner, the court merely

6

i

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 7 of 25 PagelD: 6339

r

stated that the arguments "lack[ed] sufficient merit to warrant a discussion in a written opinion."3
Id. Based on the foregoing, it appears that Petitioner's constitutional claims relating to the freezing
of his assets under the Slayer Statute were exhausted in Petitioner's civil matter.-4
Petitioner raised these constitutional arguments for a third time on PCR. The Appellate
Division on PCR refused to review in detail any claims relating to the freezing of Petitioner’s
assets, finding that all the claims had already been ruled on by the Appellate Division, in
Petitioner’s appeal of the probate matter. See Rambo, 2013 WL 512116. The PCR appellate court
did, however, repeat its decision in In re Estate of Rambo, 2012 WL 1969954, incorporating that
holding into the PCR appellate court’s holding. Thus, it appears that nearly all of Petitioner’s
constitutional claims relating to the freezing of his assets under the Slayer Statute were raised and
exhausted before the New Jersey state courts and are entitled to AEDPA*1 deference.6

3 Petitioner raised these same constitutional arguments in his petition for certification before the
New Jersey Supreme Court. (Rambo Pet. for Cert. June 25, 2012, ECF No. 90-1 at 2-21.) The
New Jersey Supreme Court denied certification. See In re Estate of Rambo, 54 A.3d 810, cert,
denied Rambo, 571 U.S. 1237.
4 The Court also notes that in Petitioner’s memorandum in support of the instant Petition, he refers
to the constitutional arguments he raised when appealing the decision of the Chancery-- Division:
"Petitioner appealed the chancery matter, in its entirety. He maintained . . . [that] the 'Slayer
Statute' deprived him of his Federal and State constitutional rights to property, counsel of his
choice, due process, fundamental fairness, a fair trial, and equal protection under the law." (Pet'r's
Mem. in Support of Petition Part 1 at 12, ECF No. 1-1.)
5

AEDPA refers to the Antiterrorism and Effective Death Penalty Act of 1996 which "provides
that a federal court may grant habeas relief to a state prisoner based on a claim adjudicated by a
state court on the merits if the resulting decision is 'contrary' to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the United
States.”' Kernan v. Cnero, 138 S. Ct. 4. 5 (2017). reh’g denied. 138 S. Ct. 724 (2018) (citing 28
U.S.C. § 2254(d)(1)).
6 Only ground Ten of the instant Petition does not appear to have been raised before, the New
Jersey state courts. In Ground Ten, Petitioner argues that the total forfeiture of his assets violated
the Eighth Amendment prohibition against excessive fines and the Fifth Amendment Double
Jeopardy Clause. The Court addresses these arguments separately.
7

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 8 of 25 PagelD: 6340

r

In this circumstance, because Petitioner’s constitutional claims relating to the freezing of
his assets were raised in state court and summarily rejected, Petitioner can only establish that the
state court's ruling was unreasonable within the meaning of 28 U.S.C. § 2254(d)(1) "by showing
that ‘there was no reasonable basis’ for the [state court’s] decision.” Cullen v. Pinholster, 563
U.S. 170,187-88 (2011) (quoting Harrington v. Richter, 562 U.S. 86, 98 (2011)). Petitioner fails
to meet his burden.
This Court is constrained by the Third Circuit's narrow view of this issue under the Sixth
Amendment. Petitioner fails to cite, nor has this Court found, any clearly established Supreme
Court precedent, at the time the state courts rendered their decisions, addressing whether a slayer
statute used to freeze an individual’s assets violates a petitioner’s Fifth, Sixth, or Fourteenth
Amendment rights. Whether this argument is raised in the context of equal protection, right to a

r

fair trial, fundamental fairness, the denial of property richts. due process, or any other
14*

V

'

I

'

*

constitutional right, without Supreme Court case law directly on point, this Court is unable to grant
reiiefon these claims.
Petitioner also raises claims under state law, i.e., that the Slayer Statute violates various
provisions of the New Jersey State Constitution, and other state statutes. Because a district court.
on federal habeas review, is required to determine whether a person is in custody ”in violation of
the Constitution or laws or treaties of the United

these arguments are not cognizable to

grant habeas relief. See 28 U.S.C. § 2254(a) (emphasis added).
Finally, in Ground Five, Petitioner argues that the state courts failed to distinguish between
the Sixth Amendment right to counsel of choice, and the Sixth Amendment right to assigned
counsel for an impoverished defendant. In raising this argument. Petitioner cites the same case
law he used to argue that he was denied his right to counsel of choice under the Sixth Amendment.

8

1
i

i

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 9 of 25 PagelD: 6341

(

{See Pet. 23; Pet Vs Mem. in Supp. of Pet. Part 2. at 50-54, ECF No. 1-2.) Petitioner primarily
relies on United States v. Gonzalez-Lopez, 548 U.S. 140 (2006) to support this argument, which
specifically addressed the right to counsel of choice. Without presenting any new law' or fact, the
Court cannot conceive of how defining the issue within the context of a separate Sixth Amendment
right was unreasonable within the meaning of 28 U.S.C. § 2254(d)(l)-(2). Petitioners argument
fails for the same reasons expressed above. Grounds One through Eight are denied.
B.

Ground Nine: Waiver of Counsel

Petitioner asserts that his waiver of counsel was not knowing, intelligent and voluntary.
(Pet. 24.) The Appellate Division, in affirming the Chancery Division, declined to address this
claim on the merits. In re Estate of Rambo, 2012 WL 1969954, at *4. Nor did the Appellate
Division, in affirming the denial of PCR, address this particular argument. Rambo. 2013 WL

rK

512116. As noted supra. Petitioner must therefore show that there was no reasonable basis for the
state court's decision. See Pinholsier, 563 U.S. at 187-88. Once again. Petitioner fails to meet
his burden.
Criminal defendants have a right under the Sixth Amendment to self-representation.
Faretta v. California, 422 U.S. 806, 832 (1975). "When an accused manages his own defense, he
relinquishes, as a purely factual matter, many of the traditional benefits associated with the right
to counsel. For this reason, in order to represent himself the accused must ‘knowingly and
intelligently" forgo those relinquished benefits.'5 Id. at 835. After a defendant asserts his desire to
represent himself, "he should be made aware of the dangers and disadvantages of
self-representation, so that the record will establish that he knows what he is doing and his choice
is made with eyes open.55 Id, (internal quotation marks and citation omitted).

9
!

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 10 of 25 PagelD: 6342

r '

i

In clarifying his argument. Petitioner explains that by freezing his assets he was deprived
of his choice of counsel, and was thereby forced to proceed pro se. (See Pet Vs Mem. in Supp. of
Pet. Part 2, at 65-66.) He explains, “[t]he validity of forcing a defendant to exercise one
constitutional right because of a previous deprivation of another, cannot be justified.” {Id. at 67.)
At a hearing on March 15, 2004, Petitioner moved to represent himself at trial. (Ra. Ex. 76, Mar.
15, 2004, Hr’g Tr. 3:18-23, ECF No. 20-2.) Petitioner stated, on the record, that he made the
motion "both knowingly and voluntarily, but... out of necessity.” {Id. at 3:18-4:11.) He explained
that he made the decision to proceed prose because the Chancery' Division refused to release his
assets for the purpose of retaining private counsel, a private investigator, or expert witnesses. {Id.
at 3:18-4:11.)
Petitioner presents a novel argument which fails to overcome AEDPA deference. Faretta

(\

and its progeny establish that to assert the right of self-representation, a defendant "must
voluntarily and intelligently elect to conduct his own defense[.]” Martinez v. Court of Appeal of
California, 528 U.S. 152, 161 (2000) (internal quotation marks and citations omitted). Courts
\

must then conduct a ''[Faretta] inquiry ... directed towards determining whether the defendant's
waiver is knowing and voluntary[.J” Alongi v. Ricci, 367 F. App’x 341, 348 (3d Cir. Feb. 26.
2010). In this instance, the trial court conducted an inquiry and permitted Petitioner to represent
himself. While the record indicates that Petitioner chose to proceed pro se out of “necessity."' that
is a far cry' from establishing that his waiver of counsel was involuntary. The fact remains that the
state courts were prepared to provide Petitioner with a public defender, and he decided to forego
that right. There is no Supreme Court case law which establishes that a defendant’s choice to
proceed pro se as a result of frozen assets constitutes a violation of the Sixth Amendment.

ID

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 11 of 25 PagelD: 6343

r

Petitioner also argues that his waiver was involuntary because it resulted from
dissatisfaction with assigned counsel. (See Pet’r’s Mem. in Supp. of Pet. Part 2, at 69.) This
argument similarly fails. As the Third Circuit has explained:
[T]he fact that [the defendant] was motivated to proceed pro se
because he was dissatisfied with retained counsel is of only passing
consequence, at most, under Faretta. In Buhl v. Cooksey, 233 F.3d
783 (3d Cir. 2000), we explained that almost all requests for pro se
representation will arise from dissatisfaction with trial counsel. "It
is the rare defendant who will ask to proceed pro se even though
he/she is thoroughly delighted with counsel's representation, ability,
and preparation.” Id. at 794. Thus, that a defendant wishes to
proceed without representation because s/he is dissatisfied with that
representation is not usually relevant to whether that defendant’s
request is clear and unequivocal. In fact, Faretta was also motivated
by his concerns about the quality of his representation. Faretta
stated that "he did not want to be represented by the public defender
because he believed that that office was very loaded down with a
heavy case load.” Faretta, 422 U.S. at 807, 95 S. Ct. 2525 (internal
quotation marks and punctuation omitted).

(

Alongi, 367 F. App’x at 346-47 (3d Cir. 2010). For these reasons, Petitioner is denied relief on
Ground Nine.
C.

Ground Ten: Total Forfeiture of Assets

In Ground Ten, Petitioner argues that the forced forfeiture of his assets violates the Eighth
Amendment prohibition against excessive fines, and the Fifth Amendment Double Jeopardy
Clause. Unlike Petitioner’s previous grounds for relief—which were raised before the New Jersey
state courts and entitled to AEDPA deference—these arguments do not appear to have been fully
raised before the New Jersey courts. Whether or not that is the case, because AEDPA deference
is more deferential than de novo review, the Court finds these claims fail under either standard.
The Court first notes that claims related to the excessiveness of fines are generally not
cognizable on habeas review. See Ohado v. New Jersey. 328 F.3d 716.717 (3d Cir. 2003) (holding
that imposition of a fine ”is not enough of a restraint on liberty to constitute ’custody’ within the
11

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 12 of 25 PagelD: 6344

(

meaning of the habeas corpus statutes'’). To the extent this claim can be raised, however, it is
entirely without merit. The Eighth Amendment prohibits the imposition of "excessive fines.” U.S.
Const, amend. VIII. To comport with the Eighth Amendment, a fine "must bear some relationship
to the gravity of the offense that it is designed to punish.” United Stales v. Bajakajian, 524 U.S.
321, 334 (1998) (citing Austin v. United States, 509 U.S. 602, 622-23 (1993)). A fine is
unconstitutional if it is "grossly disproportional to the gravity” of the offense. Id. at 337. The
Supreme Court has observed that "judgments about the appropriate punishment for an offense
belong in the first instance to the legislature.” Id. at 336; Core v. United States, 357 U.S. 386, 393
(1958) ("Whatever views may be entertained regarding severity of punishment, . . . these are
peculiarly questions of legislative policy”).
Here, even assuming the New Jersey Slayer statute could be construed as a "fine” within
the meaning of the Eighth Amendment, the New Jersey legislature determined that total forfeiture

(

of an individual’s assets under the Slayer Statute to be appropriate. That decision is properly left
to the New Jersey legislature. See Bajakajian, 524 U.S. at 336. The Court also observes that the
statute in place at the time Petitioner’s assets were frozen, was specifically designed to prohibit a
surviving spouse, heir, or devisee, who "criminally and intentionally kills the decedent” from
receiving any benefits.7 See N.J. Stat. Ann. 3B:7-1 (1982) (repealed 2004). The Court finds no
compelling reason to deem this statute "grossly disproportional to the gravity” of the offense, when

7 At the time, the relevant provision of the New Jersey Slayer Statute provided:
N.J.S.A. 3B:7-1: A surviving spouse, heir or devisee who criminally
and intentionally kills the decedent is not entitled to any benefits
under a testate or intestate estate and the estate of decedent passes
as if the killer had predeceased the decedent. Property appointed by
the will of the decedent to or for the benefit of the killer passes as if
the killer had predeceased the decedent.
12

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 13 of 25 PagelD: 6345

the offense is one of intentional killing. While the total forfeiture of Petitioner's assets in this
instance may have affected his criminal trial, the statute on its face is not unconstitutional under
the excessive fines clause of the Eighth Amendment.
Nor is Petitioner entitled to relief under the Double Jeopardy Clause of the Fifth
Amendment. The Double Jeopardy Clause of the United States Constitution "provides that no
person shall ‘be subject for the same offence to be twice put in jeopardy of life or limb.'5' United
States v. Dixon, 509 U.S. 688.695-96 (1993) (quoting U.S. Const, amend. V). The clause protects
individuals both from successive punishments and from successive prosecutions for the same
criminal offense. Id. at 696. In this context. Petitioner has not been subjected to successive
punishments. The Supreme Court has explained that the Double Jeopardy Clause does not apply
to civil forfeitures because it does not constitute punishment. See United States v. Ursery, 518
(
\

U.S. 267, 274 (1996) 0"[!]n a long line of cases, this Court has considered the application of the
Double Jeopardy Clause to civil forfeitures, consistently concluding that the Clause does not apply
to such actions because they do not impose punishment.*’); see also One Lot Emerald Cut Stones
v. United States, 409 U.S. 232, 235 (1972) (per curiam) ("[T]he forfeiture is not barred by the
Double Jeopardy Clause of the Fifth Amendment because it involves neither two criminal trials
nor two criminal punishments.’’)
In determining whether a legislative measure constitutes punishment, a court must
"inquirfe] into ‘the legislature's stated intent.”' E.B. v. Vemiero, 119 F.3d 1077, 1095 (3d Cir.
1997) (citing Kansas v. Hendricks, 521 U.S. 346, 361 (1997)). In this instance, the New Jersey
legislature placed the Slayer Statute in the laws governing the administration of estates, not as part
of the criminal code. See id. (citing Hendricks, 521 U.S. at 368) (explaining that in Hendricks the
Supreme Court found that "Kansas' placement of the challenged provision in the probate code

13

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 14 of 25 PagelD: 6346

r

instead of the criminal code, and the legislature's description of its creation as a 'civil commitment
procedure.’ to be evidence of the legislature’s ’disavow [ing] any punitive intent”'). The Supreme
Court has further explained that while a ‘’civil label is not always dispositive ... we will reject the
legislature’s manifest intent only where a party challenging the statute provides the clearest proof
that the statutory scheme [is] so punitive either in purpose or effect as to negate [the State's]
intention to deem it civilf.]” Hendricks, 521 U.S. 361 (citations and quotation marks omitted)
(alterations in original). This is a ‘"heavy burden" and applies only in "limited circumstances." Id.
The Court finds that Petitioner has not met his burden in this instance. The forfeiture
imposed by the Slayer Statute is civil in nature as intended by the New Jersey legislature. The
Court finds the imposition of the Slayer Statute, accompanied by Petitioner’s subsequent criminal
punishment, not violative of the Double Jeopardy Clause. Ground Ten is denied.

C

D.

Ground Eleven: Scope of Cross-Examination

Petitioner next alleges a claim of trial court error. He argues that the trial court erred by
restricting the scope of cross-examination of a State's witness to impeach her credibility. (Pet’r's
Mem. in Supp. of Pet. Part 2, at 75-80.)
The Appellate Division, on direct appeal, addressed this claim as follows:
The State called to the stand Jessica Lukachek, the girlfriend of
Bruce Rambo, only son of defendant and his deceased wife.
Defendant sought to cross-examine Ms. Lukachek to establish that
she would benefit financially from the estate of his deceased wife.
Defendant contends that the trial court's refusal to permit such
cross-examination deprived him of due process. We disagree. The
trial court was correct that Ms. Lukachek had no legal claim to any
of the assets in the estate and thus had no direct pecuniary interest
in it. Additionally, Ms. Lukache[]k testified about her close
relationship with Mrs. Rambo; we are confident her antipathy to
defendant was apparent to the jury. The scope of cross-examination
rests within the sound discretion of the trial court, and the trial court
did not abuse that discretion in its rulings in this regard. State v.
Pedllo, 293 A.2d 649 (1972), cert, denied. 410 U.S. 945 (1973);
14

1
I

. Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 15 of 25 PagelD: 6347

f

Casino Reinvestment Dev. Aulh. v. Luslgarten, 753 A.2d 1190 (App.
Div.). certif denied, 762 A.2d 221 (2000).
Rambo, 951 A.2d at 1087.
The Confrontation Clause provides that ”[i]n all criminal prosecutions, the accused shall
enjoy the right... to be confronted with the witnesses against him . .. .” U.S. Const, amend. VI.
”[T]he main and essential purpose of confrontation is to secure for the opponent the opportunity
ofcross-examination.''' Delaware v. VanArsdall, 475 U.S. 673, 678 (1986) (internal citations and
quotation marks omitted) (emphasis in original).
[A] criminal defendant states a violation of the Confrontation Clause
by showing that he was prohibited from engaging in otherwise
appropriate cross-examination designed to show a prototypical form
of bias on the part of the witness, and thereby rio expose to the jury
the facts from which jurors ... could appropriately draw inferences
relating to the reliability of the witness.'

C

Id. at 680 (quoting Davis v. Alaska, 415 U.S. 308. 318(1974)). Significantly, "the Confrontation
Clause guarantees an opportunity for effective cross-examination, not cross-examination that is
effective in whatever way, and to whatever extent, the defense might wish/' Id. at 679 (quoting
Delaware v. Fensterer, 474 U.S. 15, 20 (1985)) (emphasis excluded).
In applying Van Arsdall, the Third Circuit has explained that "the denial of
cross-examination upon a proper subject for cross-examination is a ground for reversal if the denial
appears to have been harmful.’' United States v. Riggi. 951 F.2d 1368. 1376 (3d Cir. 1991).
"Whether the denial [of cross-examination] appears to have been harmful depends on the
importance of the witness' testimony, whether the testimony was cumulative, the presence or
absence of evidence corroborating or contradicting the testimony of the witness on material points,
the extent of cross-examination otherwise permitted, and the overall strength of the prosecution’s
v.

case.” Id.

15

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 16 of 25 PagelD: 6348

r

The Appellate Division decision on this matter was neither contrary to, nor an unreasonable
application of, Supreme Court precedent. On direct examination, Jessica Lukachek ("Lukachek")
testified that the victim was a happy woman, with a good demeanor, eager to help her son. (Ra.
Ex. 96, Jan. 27,2005, Trial Tr. 114:10-115:17,-ECF No. 23.) During cross-examination. Petitioner
began asking Lukachek about her and Bruce Rambo’s assets. {Id. at 120:2-121:15.) The State
objected, arguing that the line of questioning was irrelevant. {Id. at 121:16-19.) Petitioner,
through standby counsel, explained that he wished to reveal that the "witness [Lukachek] and
Bruce Rambo have a financial motive ... in the outcome of... trial." {Id. at 121:16—122:5.) The
trial court ultimately refused to permit Petitioner to question Lukachek about what she stood to
benefit from a possible conviction. {Id. 123:14-124:6.) The court emphasized that because
Lukachek ”ha[dj no legal status to benefit from [the outcome of trial]." questioning her on any

S'

financial motive was impermissible. {Id. 139:5-13.) The court did permit cross-examination
relating to Lukachek's relationship with Petitioner and whether Petitioner provided her and Bruce
Rambo with money. {Id. 123:14-124:6.) The court also explained that it would be permissible to
question Bruce Rambo on financial motive, were he to testify.8 {Id. 139:5-13.)
While questioning Lukachek on possible Financial motive may have been helpful to
Petitioner, he fails to demonstrate that his constitutional rights were violated by the trial court's
decision to limit the scope of cross-examination. As explained by the Appellate Division, at the
time she testified, Lukachek had no legal claim to any assets. Thus, finding that line of questioning
irrelevant was not unreasonable. The trial court permitted Petitioner to impeach Lukachek's
credibility in any other manner, and the record reveals that he did so. Petitioner questioned
Lukachek about the victim being lonely {id. at 135:15-17). having emotionally "bad days ' {id.

Bruce Rambo does not appear to have been called as a witness at trial by the State or defense.
16

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 17 of 25 PagelD: 6349

(

136:18-24), and often thinking something was wrong (id. at 132:16-133:11). To the extent the
cross-examination was limited, the Appellate Division’s reasoning does not amount to an
unreasonable application of Supreme Court law. This claim for relief is denied.
E.

Ground Twelve: Lesser Included Offense

Petitioner next asserts that the trial court erred in failing to charge passion-provocation
manslaughter as a lesser-included offense of murder. (Pet. 27-28.) The Appellate Division, on
direct appeal, rejected this claim relying solely on state law. See Slate v. Rambo, 951 A.2d 1075,
1079-81 (N.J. Super. Ct. App. Div. 2008). The Appellate Division explained:
Murder that is committed in the heat of passion induced by a
reasonable provocation is reduced to manslaughter. Slate v.
Josephs, 803 A.2d 1074 (2002); [N.J. Stat. Ann.] 2C:1 1-4(b)(2).
The elements of passion/provocation manslaughter are well-known.
Passion/provocation manslaughter has
four
elements: the provocation must be adequate; the
defendant must not have had time to cool off between
the provocation and the slaying; the provocation
must have actually impassioned the defendant; and
the defendant must not have actually cooled off
before the slaying.
[Slate v. Viera, 787 A.2d 256 (N.J. Super. Ct. App.
Div. 2001) (quoting Stale v. Mauricio, 568 A.2d 879
(1990)), certif. denied. 803 A.2d 634 (2002).]

When considering a defendant’s request to charge the jury on
passion/provocation, the trial court must review the record before it
in the light most favorable to the defendant. State v. Castagna, 357,
870 A.2d 653 (N.J. Super. Ct. App. Div. 2005). rev'd on other
grounds, 901 A.2d 363 (2006).
The threshold for a jury instruction for passionprovocation manslaughter is relatively low. The
defendant need only show a rational basis for a
verdict convicting the defendant of the lesserincluded offense. However, the judge will not so
17

\

Case 3:14-CV-00874-MAS Document 111 Filed 03/01/20 Page 18 of 25 PagelD: 6350

instruct the jury if the evidence is so weak as to
preclude jury consideration.
[Copling, supra, 741 A.2d 624 (citations and internal
quotation marks omitted).]
li[W]ords alone, no matter how offensive or insulting, never
constitute sufficient provocation.’’ Castagna, supra, 870 A.2d 653.
Several cases have, nonetheless, recognized that a course of conduct
over a period of time may constitute sufficient provocation. State v.
Erazo, 594 A.2d 232 (1991) (stating that "continuing strain in a
marriage fraught with violence” may constitute sufficient
provocation); State v. Guido, 191 A.2d 45 (1963) (holding that “[A]
course of ill treatment which can induce a homicidal response in a
person of ordinary firmness and which the accused reasonably
believes is likely to continue, should permit a finding of
provocation.”); State v. Vigilante, 608 A.2d 425 (N.J. Super. Ct.
App. Div. 1992) (finding that jury could conclude that past history
of violence "accumulated a detonating force which caused him to
explode”).

/'■

We are satisfied, nonetheless, that the record presented here is
sufficiently distinguishable from those cases. In Guido and
Vigilante, for instance, the defendants had been subjected to
physical abuse at the hands of their ultimate victims. In Erazo,
defendant contended he killed his wife in the heat of passion when
she said she would seek to have his parole revoked on the basis of a
fabrication; she had previously threatened to report him to parole
authorities. 594 A.2d 232.
Here, although defendant testified that his wife made continued
threats against his life, there was no evidence of anything beyond
her words. The record indicates, for instance, that when defendant
left the marital residence, he left on the premises his gun cabinet to
which she had ready access. He did not say that he saw any weapon
in her hand on the day he shot her. only that he did not know what
was in her hand. (According to the record, her keys, a pair of
sunglasses and a Tupperware container were found beneath her
body.) His stated fear that she might be going to retrieve a weapon
cannot, in our judgment, constitute reasonable provocation for
purposes of a passion/provocation instruction. The law should not
have the effect of benefiting one who takes such a fatal pre-emptive
action. State v. Rodriguez, 949 A.2d 197 (2008) ("We will not
sanction the gratuitous use of deadly force....”).
Rambo, 951 A.2d 1080-81.
18

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 19 of 25 PagelD: 6351

(

Petitioner’s claim rests on matters of state law. “[I]t is not the province of a federal habeas
court to re-examine state court determinations on state-law questions. . . . [T]he fact, that [an]
instruction was allegedly incorrect under state law is not a basis for habeas relief.” Estelle v.
McGuire, 502 U.S. 62. 67-72 (1991). To the extent this can be raised as a federal claim, as well,
Petitioner's argument fails under federal law. A state trial court’s refusal to give a requested jury
instruction does not, by itself, create a federal habeas claim. Instead, a habeas petitioner must
establish that the instructional error “had [a] substantial and injurious effect or influence in
determining the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619, 637 (1993) (citation and
quotation marks omitted). The error must have resulted in “actual prejudice.” Id. at 637 (citation
omitted).9
The testimony at trial simply did not support a passion-provocation manslaughter

c

instruction. Petitioner testified that the victim did not physically touch him on the day of the
shooting, she did not come into the bedroom with a gun or knife, and he knew when he shot the
victim it was a fatal shot. (Ra. Ex. 99, Feb. 3,2005. Trial Tr. 38:7-39:24, ECF No. 23-2.) Because
a passion-provocation charge was unsupported by the testimony, Petitioner fails to prove that he
suffered actual prejudice from the trial court's ruling. See Brecht. 507 U.S. at 637. Accordingly,
the Appellate Division decision denying this claim, albeit under state law. was not an unreasonable
application of Supreme Court precedent. Ground Twelve is denied.

9 Notably, the Supreme Court has never recognized that an individual has a due process right to
jury instructions on lesser-included offenses in non-capital cases. See. e.g.. Gilmore v. Taylor. 508
U.S. 333. 342 (1993) ("[ojutside of the capital context, we have never said that the possibility of a
jury misapplying state law gives rise to federal constitutional error”); Beck v. Alabama. 447 U.S.
625. 627 (1980) (holding it unconstitutional to impose a sentence of death “when the jury was not
permitted to consider a verdict of guilt of a lesser included non-capital offense").
19

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 20 of 25 PagelD: 6352

ii

F.

Ground Thirteen: Affirmative Defense

Petitioner also asserts that the trial court failed to provide a jury instruction on use of force
in defense of premises. (Pet. 29.) Like the previous claim, the Appellate Division, on direct
appeal, rejected this claim under state law. See Stale v. Rambo, 951 A.2d 1075, 1079-81 (NJ.
Sup. Ct. App. Div. 2008). The Appellate Division held as follows:
Defendant’s next contention is that the trial court committed
reversible error when it declined to give an instruction to the jury on
the use of force in defense of premises. [NJ. Stat. Ann.] 2C:3-6.
We disagree. The statute refers to the use of force “to prevent or
terminate what [the actor) reasonably believes to be the commission
or attempted commission of a criminal trespass by such other person
in or upon such premises.” Defendant’s wife, however, was not a
trespasser: she was a co-owner of the property, a staff member of
the business and had keys, permitting her entry as she wished.
Rambo, 951 A.2d at 1087.
(

Once again. Petitioner’s claim rests purely on matters of state law. See Estelle, 502 U.S.
at 67-72. The Supreme Court has indicated that a defendant’s right to a complete defense does
not include the right to assert affirmative defenses. See Gilmore v. Taylor, 508 U.S. 333, 343
(1993) (explaining that Supreme Court cases defining the constitutional right to present a complete
defense ‘'86311 with the exclusion of evidence ... or the testimony of defense witnesses” and not
"restrictions imposed on a defendant’s ability to present an affirmative defense”). Here, the state
court determined that Petitioner was not entitled to the requested instruction on defense of premises
because the statute did not apply under the facts of the case. Petitioner fails to cite Supreme Court
precedent relating to the precise issue in question, which holds otherwise. Because the state court
decision was neither contrary to, nor an unreasonable application of, Supreme Court precedent.
Petitioner is not entitled to relief on Ground Thirteen.

20

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 21 of 25 PagelD: 6353

G.

Ground Fourteen: Ineffective Assistance of Counsel

Petitioner next asserts that his court-appointed pretrial defense attorneys were ineffective
insofar as they failed to appropriately research the Slayer Statute and failed to file an interlocutory
appeal. (See PetYs Mem. in Supp. of Pet. Part 2. at 106-13.) Petitioner avers that his attorneys
should have petitioned the Law Division to assume jurisdiction over the matter relating to
Petitioner’s Sixth Amendment rights. (Id.)
The Appellate Division, in denying PCR, denied Petitioner’s claim as follows:

C

A defendant seeking to vacate a conviction on grounds of ineffective
assistance of counsel bears the heavy burden of proving (1) "that
counsel's performance was deficient!,]” and (2) that the deficient
performance prejudiced the defense[,]” meaning "counsel’s errors
were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable.” State v, Fritz, 519 A.2d 336 (1987)
(quoting Strickland v. Washington, 466 U.S. 668, 687 (1984))
[(internal quotation marks omitted)]. Prejudice is shown by proof
creating "a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have been
different.” Strickland, supra, 466 U.S. at 694.
Defendant cannot prove either prong of the Strickland test. This
court has determined that defendant was not permitted to use the
proceeds of the marital estate to pay the cost of private counsel in
this matter, in re Estate of Linda Ann Rambo (slip op. at 10—11).
Accordingly, we conclude that pretrial counsel was not ineffective
for failing to file a motion to transfer the probate matter to the Law
Division. Id. 466 U.S. at 688; see also State v. Worlock, 569 A.2d
1314, 1329 (1990) (holding that ”[t]he failure to raise unsuccessful
legal arguments does not constitute ineffective assistance of
counsel”).
We also conclude that defendant’s remaining arguments are without
sufficient merit to warrant discussion in a written opinion. R. 2:113(e)(2).
Rambo. 2013 WL 512116, at *5.
The PCR court reviewed the actions of each pretrial attorney, and held as follows:

21

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 22 of 25 PagelD: 6354

e

Defendant does not cite to any authority that any pretrial attorney
would have been required or even permitted to enter into the
chancery proceedings. As public defenders are not traditionally
permitted to participate in fee generating cases, this Court cannot
view the inaction of the attorneys to be ineffective.
(Ra. Ex. 40, Aug. 10,2010, PCRQp. at 20-21, ECFNo. 18-1.)
The Sixth Amendment guarantees the accused the "right ... to have the Assistance of
Counsel for his defense." U.S. Const, amend. VI. The right to counsel is the right to the effective
assistance of counsel, and counsel can deprive a defendant of the right by failing to render adequate
legal assistance. See Strickland, 466 U.S. at 686. A claim that counsel's assistance was so
defective as to require reversal of a conviction has two components, both of which must be
satisfied. Id. at 687. First, the defendant must "show that counsel's representation fell below an
objective standard of reasonableness." Id. at 687-88. To meet this prong, a "convicted defendant

(

making a claim of ineffective assistance must identify the acts or omissions of counsel that are
alleged not to have been the result of reasonable professional judgment.” Id. at 690. The court
must then determine whether, in light of all the circumstances at the time, the identified errors fell
"below an objective standard of reasonableness.” Hinton v. Alabama, 134 S. Ct. 1081, 1088
(2014).
Second, a petitioner must establish that counsel's "deficient performance prejudiced the
defense so as to deprive the defendant of a fair trial/' Strickland. 466 U.S. at 669. To establish
prejudice, the defendant must show that "there is a reasonable probability that the result of trial
would have been different absent the deficient act or omission.” Id. at 694. On habeas review, it
is not enough that a federal judge would have found counsel ineffective. The judge must find that
the state court's resolution of the issue was unreasonable, a higher standard. Harrington v. Richter,
562 U.S. 86. 101 (2011).

22

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 23 of 25 PagelD: 6355

(

The state courts’ reasoning does not amount to an unreasonable application of the
Strickland standard. The pretrial public defenders were assigned to assist Petitioner in all manners
relating to his criminal conviction, not his matter pending in the Chancery Division. The Slayer
Statute was addressed by the Chancery Division and appealed in that forum. In fact, the Appellate
Division on direct appeal, and on appeal from the denial of PCR, found all issues relating to the
Slayer Statute procedurally barred. Pretrial counsel cannot be faulted for failing to raise arguments
and research issues that were not properly before them.
Further, the Chancery' Division’s decision to freeze Petitioner’s assets was appealed and
affirmed. In re Estate of Rambo, 2012 WL 1969954, at *4. That decision was reiterated in the
Appellate Division decision denying PCR. See Rambo, 2013 WL 512116, at *4. Because the
claim was addressed and upheld on the merits, this Court is hard-pressed to find that Petitioner

r

was prejudiced by the failure of pretrial counsel to file an interlocutory appeal. Under the prejudice
prong of Strickland, a petitioner must establish that but for counsel’s errors, there is a reasonable
probability that the result of the proceeding would have been different. Strickland, 466 U.S. at
695. Petitioner raised the issue of his assets being frozen before every conceivable New Jersey
state court; each of those courts denied him relief. Thus, even had pretrial counsel raised the
argument in an interlocutory appeal, Petitioner fails to prove prejudice. Petitioner is denied relief
on Ground Fourteen.
1-1.

Ground Fifteen: Waste of Taxpayer Resources

in his next ground for relief. Petitioner argues that the decision to freeze his assets was
against the public interest, because he was forced to use taxpayer money for his defense. (PetYs
Mem. in Supp. of Pet. Part 2. at 114-17.) Petitioner fails to persuade this Court that he is entitled
to relief on this claim. While a waste of taxpayer resources can be cause for concern, Petitioner

23

Case 3:14-cv-00874-MAS Document 111 Filed 03/01/20 Page 24 of 25 PagelD: 6356

f'

fails to establish that the state courts unreasonably froze his assets under the Slayer Statute. Once
his assets were frozen, Petitioner was entitled to receive the assistance of counsel'in his defense—
a constitutional right of every indigent criminal defendant. This claim for relief is denied.
I.

Ground Sixteen: Prayer for Relief

Ground Sixteen must be denied insofar as it represents a prayer for relief from this Court.
Petitioner asks this Court to release Petitioner from incarceration and find the state court decisions
unconstitutional. (Pet. 32-33.) For the reasons expressed by the Third Circuit, as well as the
reasons expressed above, Petitioner is not entitled to relief under 28 U.S.C. § 2254.
III.

CERTIFICATE OF APPEALABILITY
Under 28 U.S.C. §2253(c), a petitioner may not appeal from a final order in a habeas

proceeding where that petitioner's detention arises out of his state court conviction unless he has
"made a substantial showing of the denial of a constitutional right." "A petitioner satisfies this
(

standard by demonstrating that jurists of reason could disagree with the district court's resolution
of his constitutional claims or that jurists could conclude that the issues presented here are adequate
to deserve encouragement to proceed further.'’ Miller-El v. Coch-elL 537 U.S. 322, 327 (2003);
see also Slack v. McDaniel, 529 U.S. 473, 484 (2000). Because jurists of reason would not
disagree with this Court’s conclusion that Petitioner has failed to make a substantial showing of
the denial of a constitutional right, Petitioner’s habeas petition is inadequate to deserve
encouragement to proceed further. A certificate of appealability is, therefore, denied.

24

Case 3:14-cv-00874-MAS Document 111

(

FV.

Filed 03/01/20 Page 25 of 25 PagelD: 6357

CONCLUSION
For the reasons stated above, the Petition for habeas relief is DENIED and Petitioner is

DENIED a certificate of appealability. An appropriate order follows.

s/ Michael A. Shipp___________
Michael A. Shipp
United States District Judge

Dated: February 29, 2020

C

25
f

V

APPENDIX C

Case: 17-3156

C

Document: 003113147596

Page: 1

Date Filed: 01/30/2019

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 17-3156

ROY L. RAMBO

v.
ADMINISTRATOR EAST JERSEY STATE PRISON;
ATTORNEY GENERAL NEW JERSEY,
Appellants

On Appeal from the United States District Court
for the District of New Jersey
(District Court No. 3-14-cv-00874)
District Judge: Hon. Michael A. Shipp

Argued on March 14, 2018
Before: McKEE, AMBRO, and RESTREPO, Circuit Judges.
(Opinion filed: January 30, 2019)

Richard T. Burke
Kelly A. Shelton
[Argued]
Warren County Prosecutor’s Office
413 Second Street
Belvidere, New Jersey 07823
Counsel for Appellants
Richard Coughlin [Argued]
Federal Public Defender
800-840 Cooper Street, Suite 350
Camden, New Jersey 08102
Counsel for Appellee

Case: 17-3156

Document: 003113147596

Page: 2

Date Filed: 01/30/2019

r
OPINION*

McKEE, Circuit Judge.
The State of New Jersey appeals the District Court’s grant of habeas relief to Roy
Rambo, who was convicted of the first degree murder of his wife. The court granted
Rambo relief based upon his claim that his murder conviction was obtained in violation
of his Sixth Amendment right to hire defense counsel of his own choosing. For the
reasons that follow, we will reverse.
I.

Factual Background and Procedural Posture

The background of this appeal is as tragic as it is unique. It involves not only
(

Rambo’s criminal conviction for murdering his wife, but litigation in New Jersey
Chancery Court arising out of a dispute over marital assets, Rambo’s individual assets,
and application of New Jersey’s Slayer Act.2 However, inasmuch as we are writing only

* This disposition is not an opinion of the full court and pursuant to I.O.P. 5.7 does not constitute
binding precedent.
1 The District Court has jurisdiction over habeas petitions under 28 U.S.C. §§ 2241 and 2254.
This Court has jurisdiction over appeals of habeas petitions under 28 U.S.C. §§ 1291 and 2253.
2 At the time of Rambo’s trial and conviction the relevant provisions of the New Jersey Slayer
Act were codified at N.J.S.A. 3B:7-1 (1982) (repealed 2004) (current version at N.J.S.A. 3B:71.1), and N.J.S.A. 3B:7-6 (1982) (amended 2004). N.J.S.A. 3B:7-1 provided:
A surviving spouse . . . who criminally and intentionally kills the decedent is not
entitled to any benefits under a testate or intestate estate and the estate of decedent
passes as if the killer had predeceased the decedent. Property appointed by the will
of the decedent to or for the benefit of the killer passes as if the killer had
predeceased the decedent.

2

Case: 17-3156

r

Document: 003113147596

Page: 3

Date Filed: 01/30/2019

for the parties who are familiar with the intricate procedural history of this case, we need
only note that the New Jersey Chancery Court froze all of Rambo’s individual assets as
well as his interest in the marital estate in response to a petition that was filed by
Rambo’s son in his capacity as administrator of his late mother’s estate.
Although Rambo was a dentist with considerable assets of his own, the Chancery
Court’s action prevented him from accessing any of his own assets to retain a lawyer of
his own choosing to represent him in the criminal prosecution. Rather than accept
appointed counsel that was offered by the trial judge in the murder case, Rambo
reluctantly chose to proceed pro se in that prosecution. He was convicted of the first
degree murder of his wife and sentenced to 40 years’ imprisonment.
After his criminal appeals were denied, Rambo filed a habeas petition in District
Court alleging that his murder conviction must be vacated because he was denied his
Sixth Amendment right to choice of counsel. The District Court agreed and granted
habeas relief.3 It reasoned that the Chancery Court erred in freezing assets that Rambo
owned outside of the marital estate. Since those assets amounted to almost $300,000, the
District Court reasoned that Rambo could have hired counsel of his own choosing.4 The
District Court therefore concluded that the “choice” offered by the New Jersey Superior

And N.J.S.A. 3B:7-6 provided: “A final judgment of conviction of intentional killing is
conclusive for purposes of this chapter. In the absence of a conviction of intentional killing the
court may determine by a preponderance of evidence whether the killing was intentional for
purposes of this chapter.”
3 See Rambo v. Nogan, No. CV 14-874 (MAS), 2017 WL 3835670, at *14 (D.N.J. Sept. 1, 2017).
4 Id. at *12, *14.
3

Case: 17-3156

C

Document: 003113147596

Page: 4

Date Filed: 01/30/2019

Court of proceeding pro se or accepting appointed counsel violated Rambo’s Sixth
Amendment right to counsel and Rambo was entitled to a new trial because his murder
conviction was obtained in violation of his constitutional rights.5 The appeals that
proceeded in state court included an appeal of the Chancery Court’s freezing of all of
Rambo’s assets as well as a direct appeal of his murder conviction and post-conviction
relief proceedings. After Rambo’s criminal appeals were denied, he filed the petition for
habeas relief, which the District Court granted and which the State of New Jersey is
appealing.
II.

Discussion

A habeas petitioner may obtain relief under 28 U.S.C. § 2254 if s/he “is in custody
in violation of the Constitution or laws of the United States. ”6 The parties disagree about
(

whether our review of the state court decisions to freeze Rambo’s assets is de novo or
whether we are restrained by the deference provided by the Antiterrorism and Effective
Death Penalty Act (“AEDPA”).7 Under AEDPA, a federal court can only provide habeas
relief if the state court ruling “resulted in a decision that was contrary to,” or involved an
unreasonable application of,” clearly established federal law, as determined by the
Supreme Court.8 This deferential standard is appropriate when the state courts decide the
underlying federal claim on the merits. Where “the state court has not reached the merits

3 Id. at *14.
6 28 U.S.C. § 2254(a).
7 28 U.S.C. § 2244 et. seq.
8 28 U.S.C. § 2254(d).
4

Case: 17-3156

r

Document: 003113147596

Page: 5

Date Filed: 01/30/2019

of a claim . . . presented to a federal habeas court,” deferential review under AEDPA is
not appropriate; instead, “we must conduct a de novo review over pure legal questions
and mixed questions of law and fact, as a court would have done prior to the enactment of
AEDPA.”9
The New Jersey Appellate Division concluded that Rambo’s “argument^ . . .
attacking the Chancery Division’s decision as a denial of his right to counsel under the
Sixth Amendment. . . lack[ed] sufficient merit to warrant a discussion in a written
opinion. »io Rambo argues that this was not an adjudication on the merits. However, the
Supreme Court has explained, “[w]hen a federal claim has been presented to a state court
and the state court has denied relief, it may be presumed that the state court adjudicated

C

the claim on the merits.”11 In “instances in which a state court. . . simply regardjs] a
claim as too insubstantial to merit discussion,” the same rebuttable presumption that the
claim was adjudicated on the merits applies.12 Under the “look through” doctrine,
“where there has been one reasoned state judgment rejecting a federal claim, later
unexplained orders upholding that judgment or rejecting the same claim rest upon the
same ground. ”13 Nothing on this record rebuts that presumption. Accordingly, we must
presume that the Appellate Division’s rejection of Rambo’s Sixth Amendment claim rests

9 Thomas v. Horn, 570 F.3d 105, 113 (3d Cir. 2009), as corrected (July 15, 2009).
10 In re Estate ofRambo, No. A-5308-09T2, 2012 WL 1969954, at *4 (N.J. Super. Ct. App. Div.
June 4, 2012).
11 Harrington v. Richter, 562 U.S. 86, 99 (2011).
12 Johnson v. Williams, 568 U.S. 289, 299 (2013).
13 Ylstv. Nunnemaker, 501 U.S. 797, 803 (1991).
5

*♦

f

Case: 17-3156

Document: 003113147596

Page: 6

Date Filed: 01/30/2019

upon the same grounds as the Chancery Court’s and afford that ruling AEDPA
deference.14 When a District Court adjudicates a § 2254 petition, the relevant Supreme
Court precedent is the law at the time the state court renders its decision.15
Here, the District Court based its conclusion that Rambo was entitled to relief on
three Supreme Court decisions: Caplin & Drysdale, Chartered v. United States,16 United
States v. Monsanto,11 and Luis v. United States,18 However, since Caplin and Monsanto
were the only cases that had been decided before Rambo was convicted, only those
decisions are relevant here.19
In Caplin, the Court had to determine whether a federal statute that authorized pre­
trial forfeiture of property acquired as a result of drug trafficking with no exemption for
property that could be used to pay defense counsel violated the Sixth Amendment.20

C
14 See Rambo v. Nogan, 2017 WL 3835670, at *3 (“[Although there is a Sixth Amendment
right, that right is not. .. a[n] absolute right. Obviously the [Petitioner] will have . . . an
opportunity to have counsel, whether it’s a counsel that he pays for or whether [it is] counsel that
is provided to him. ... In the circumstances of this case[,] I conclude that the funds from the sale
of the . . . farm are to be held in trust and are not available to [Petitioner] for purposes of his
defense in the criminal matter.”) (quoting Chancery Court Judge Kumpf).
15 See, e.g., Cullen v. Pinholster, 563 U.S. 170, 182 (2011) (“State-court decisions are measured
against this Court’s precedents as of the time the state court renders its decision.”) (internal
quotations omitted).
16 491 U.S. 617 (1989).
17 491 U.S. 600 (1989).
18 136 S. Ct. 1083 (2016).
19 See Greene v. Fisher, 565 U.S. 34, 38 (2011) (citing Cullen, 563 U.S. at 182) (“As we
explained, § 2254(d)(1) requires federal courts to ‘focu[s] on what a state court knew and did,’
and to measure state-court decisions against this Court’s precedents as of the time the state court
renders its decision."'’) (internal quotation marks omitted).
20 Caplin, 491 U.S. at 619.
6

Case: 17-3156

r

Document: 003113147596

Page: 7

Date Filed: 01/30/2019

The Court concluded that the Sixth Amendment right to counsel was limited,
circumscribed by the defendant’s ability to pay: “A defendant has no Sixth Amendment
right to spend another person’s money for services rendered by an attorney even if those
funds are the only way that that defendant will be able to retain the attorney of his
choice. ”21
The Court did not have any reason to address whether a separate contemporaneous
civil court order freezing a defendant’s untainted assets, and thereby precluding him from
being able to afford counsel of his choosing, violated the Sixth Amendment right to
counsel.
Similarly, in Monsanto the Court granted the Government’s request to freeze
certain assets that the Government alleged the defendant had acquired as a result of a

C

criminal enterprise.22 In rejecting the Sixth Amendment claim, the Court explained that
upon commission of the crime, the forfeiture statute “vest[ed] ... all right, title and
interest” in the subject property “in the United States. ”23 The Court refused to permit “a
defendant. . . use [of] assets for his private purposes that, under this provision, will
become the property of the United States if a conviction occurs. 24 The Court thus held
that “the Government may—without offending the Fifth or Sixth Amendment

obtain

forfeiture of property that a defendant might have wished to use to pay his attorney.

21 Id. at 626.
22 Monsanto, 491 U.S. at 602.
23 Id. at 613.
24 Id.
25 Id. at 616.
7

Case: 17-3156 „ Document: 003113147596

f

Page: 8

Date Filed: 01/30/2019

Here, the District Court reasoned that Rambo’s interest in the disputed assets
should not have been restrained before he was convicted of murder because he still
enjoyed the presumption of innocence.26 Accordingly, the District Court believed that
the state court had erred in restraining him from accessing any portion of the marital
assets (or his individual assets) to retain counsel of his own choice.27
Rambo’s purported Sixth Amendment right, however, is different than the right at
issue in Caplin and in Monsanto. Rambo’s claim had nothing to do with an interest in
property that was subject to Governmental seizure because of its nexus to alleged illegal
activity. The issue here — whether the state court’s freezing of an individual’s assets
under a slayer statute could violate the Sixth Amendment right to choice of counsel - had
not been addressed by the Supreme Court when the District Court granted relief.

(

The District Court also relied on Luis, but because Luis was decided nearly seven
years after the state court rendered its decision under review, it was irrelevant under
AEDPA.28 AEDPA “does not require state courts to extend. . . precedent or license
federal courts to treat the failure to do so as error. ”29

26 Rambo v. Nogan, 2017 WL 3835670, at *13.
27 Id. (“[AJbsent a determination as to whether any portion of the marital assets was untainted,
Petitioner was improperly precluded from accessing his untainted portion of the marital assets
prior to his conviction.”).
28 Cullen, 563 U.S. at 182 (“State-court decisions are measured against this Court’s precedents as
of the time the state court renders its decision.”).
29 White v. Woodall, 134 S. Ct. 1697, 1706 (2014) (emphasis in original).
8

Case: 17-3156

r

Document: 003113147596

III.

Page: 9

Date Filed: 01/30/2019

Conclusion

For the reasons set forth above, we will vacate the District Court’s grant of habeas
relief and remand for that court to consider other potentially meritorious arguments (if
any) that Rambo may have raised in his petition.30

(

30 In his habeas petition, Rambo alleged violations of his Fifth, Eighth, and Fourteenth
Amendment rights, and rights guaranteed under the New Jersey State Constitution. He claimed
also, among other things, that the Slayer Statute is invalid and unconstitutional, the Chancery
Court misconstrued the Slayer Statute, that his waiver of counsel was not valid, that the trial
court erred in refusing to charge passion/provocation manslaughter as a lesser included offense,
and ineffective assistance of his initial court-appointed counsel.
9

♦

*

APPENDIX D

Case 3:14-cv-00874-MAS Document 51 Filed 10/02/17 Page 1 of 8 PagelD: 5032

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
ROY L. RAMBO, JR.,
Civil Action No. 14-0874 (MAS)

Petitioner,
v.

OPINION

PATRICK A. NOGAN, et al.,
Respondents.
SHIPP, District Judge
This matter comes before the Court on the State of New Jersey’s (the “State”) Motion for
Relief from Judgment pursuant to Federal Rule of Civil Procedure 59(e).1 (ECF No. 46.) The
State seeks an order vacating the Court’s September 1, 2017 Opinion and Order (ECF Nos. 44,

C

\

45).z Petitioner Roy L. Rambo Jr. (“Petitioner”) filed opposition.3 (ECF No. 47.) The Court has
carefully considered the parties’ submissions and decides the matter without oral argument. For
the reasons stated below, the State’s Motion is DENIED.

The State also filed a Motion to Stay the Court’s September t, 2017 Order and Opinion.
(ECF No. 48.) The Court will address the Motion to Stay in a separate opinion.
2

As the Court noted in its September I, 2017 Opinion, the State failed to adequately respond to
Petitioner’s habeas petition with arguments specifically tailored to the petition. (Sept. I, 2017 Op.
14, ECF No. 44.) Instead, the State relied on its briefing on direct appeal of Petitioner’s conviction
and Petitioner’s PC’R application, as well as various state court decisions. (Id.) The Court
conducted a careful review of the record to ensure that the State’s arguments were given proper
consideration despite the State’s failure to specifically address relevant arguments in its federal
court submissions.
3

The Court reviewed Petitioner’s submission but does not set forth his arguments here.

Case 3:14-CV-00874-MAS Document 51 Filed 10/02/17 Page 2 of 8 PagelD: 5033

r

I-

FACTUAL BACKGROUND
The Court lelies substantially on the facts set forth in its prior opinion granting habeas

relief. (See Sept. 1, 2017 Op. 2-12, ECF No. 44 (“Prior Opinion”).) The Court recites facts here
only as necessary for the instant motion.
Petitioner was arrested and charged with murdering his wife, Linda Rambo. (Prior Op. 2.)
Petitioner s son was appointed as administrator of the wife’s estate in a related probate proceeding
in the Superior Court of New Jersey, Chancery Division, arid sought to freeze his parents’ marital
assets. (Id. at 2-3.) Petitioner’s soil argued that the New Jersey Slayer Statute permitted the
Chancery Division to freeze the marital assets to prevent Petitioner from squandering assets that
may ultimately belong to the wife’s estate. (Id. at. 2.) The Chancery Division granted the son’s
request. (Id. at 3.)
Thereafter, Petitioner moved to unfreeze a portion of the assets, asserting that he was
i.

entitled to use the assets for his criminal defense, and denial of access to his assets violated his
Sixth Amendment right to counsel. (Prior Op. 3-4.) The Chancery Division denied the motion,
finding that his Sixth Amendment right to counsel was not absolute. (Id. at 5.) After a jury trial,
during, which Petitioner proceeded pro se, Petitioner was found guilty of murdering his wife.
(Id. at 6.) Years later, in the probate matter, the Chancery Division found that Petitioner was
entitled to $290,314.51 by way of equitable distribution. (Id. at 9.) The Chancery Division
credited this amount against a subsequent $6,000,000 wrongful death civil judgment against
Petitioner in favor of Linda Rambo’s estate, and transferred the full amount of Petitioner’s
entitlement to his wife’s estate. (Id.)
After his conviction, Petitioner continued to assert his Sixth Amendment claim on direct
appeal of his conviction, on direct appeal of his probate matter, and throughout his post-conviction

2

Case 3:14-cv-00874-MAS Document 51 Filed 10/02/17 Page 3 of 8 PagelD: 5034

r

relief (“PCR”) application and appeal (Prior Op. at 10-11.) The Petitioner also filed appeals with
the Supreme Court of New Jersey and the Supreme Court of the United States. (Id. at 10.)

All of

Petitioner’s appeals were unsuccessful. (Id. at 10-11.) The instant Petition followed. (Id. at 11.)
II.

STANDARD OF REVIEW
“The sc°Pe of a motion for reconsideration” of a final judgment under Rule 59(e) is

extremely limited. Blystone v. Horn, 664 F.3d 397, 415 (3d Cir. 2011). ‘The standard of review
involved in a motion for reconsideration is high and relief is to be granted sparingly.” Warner v.
Twp- °fS- Prison, 885 F. Supp. 2d 725, 747 (D.N.J. 2012) (citations omitted). The moving
party must set forth the factual matters or controlling legal authorities it believes the Court
overlooked when rendering its initial decision. Blystone. 664 F.3d at 415; L. Civ. R. 7.1 (i)
(governing motions for reconsideration). To prevail on a motion for reconsideration under Rule
o9(e), the movant must show “(1) an intervening change in the controlling law; (2) the availability

C

of new evidence that was not available when the court [rendered the judgment in question]; or (3)
the need to correct a clear error of law or fact or to prevent manifest injustice.” Id.) see also U.S.
ex rel. Schumann v. AstraZeneca Pharm. L.P., 769 F.3d 837, 848-49 (3d Cir. 2014). The third
prong requires the movant to show that “dispositive factual matters or controlling decisions of law
were brought to the court’s attention but not considered.”
P. Schoenfeld Asset Mgmt. LLC
Cendant Corp., 161 F. Supp. 2d 349, 353 (D.N.J. 2001} (citation omitted).

A motion for

reconsideration is not an opportunity to raise new arguments that could have been raised before
the original decision was made. See Bowers v. NCAA, 130 F. Supp. 2d 610, 612-13 (D.N.J. 2001).
Nor is a motion for reconsideration an opportunity “to ask the Court to rethink what it has already
thought through.” See Interfaith Cmvy. Org. v. Honeywell Infl. Inc., 215 F. Supp. 2d 482 507
(D.N.J. 2002) (citation omitted).

Case 3:14-cv-00874-MAS Document 51 Filed 10/02/17 Page 4 of 8 PagelD: 5035

r

III.

DISCUSSION
The State asserts that the Court erred in granting habeas relief because: (i) Petitioner did

not exhaust his state court remedies (Resp’t’s Br. 2-3, ECF No. 46-1); (ii) the actions of a private
party, in this case, Petitioner’s son, cannot be the basis of a Sixth Amendment claim (id. at 6.-9);
(iii) at the time of the alleged violation, the Supreme Couit had not clearly established the Sixth
Amendment right under which the Court granted habeas relief (id. at 9-13); and (iv) the marital
assets at issue are not the equivalent of “untainted” assets (id. at 13-15). For the reasons explained
below, the Court rejects each of these arguments.
A.

Exhaustion of State Court Remedies

The Court’s Prior Opinion addressed the issue of exhaustion of state court remedies.
(Prior Op. 17.) The State now raises additional arguments in support of its position, specifically
that Petitioner should have filed interlocutory appeals of Chancery Court decisions; however, it is
(

inappropriate to submit new justifications on a motion for reconsideration. See Interfaith Cmtv.
O^g-i 215 F. Supp. 2d at 507 (D.N.J. 2002). In any event, the Court is unpersuaded.
The State failed to cite any case law in its original response to Petitioner’s habeas petition
and similarly fails to cite any case law in its current motion supporting the proposition that an
interlocutory appeal is required to exhaust state court remedies.

In addition, the Court’s

independent research did not identify any case law supporting this assertion. Here, based on the
Court s extensive review of the record summarized in the Court’s Prior Opinion, it is clear that
Petitioner raised Inis Sixth Amendment claim at all levels of the state court during the direct appeal
of his conviction, when seeking PCR, and during the related probate proceedings.4

The State also argues that Petitioner did not quickly appeal Chancery Court actions (Resp’ts’ Br.
2-4) and “sat on his rights pending the outcome of his criminal trial.” (Id. at 5.) As explained in
the Court’s Prior Opinion, the Court disagrees. (Prior Op. 3-6. 17.) The Court found that Petitioner
4

Case 3:14-cv-00874-MAS Document 51 Filed 10/02/17 Page 5 of 8 PagelD: 5036

r

To be dear, Petitioner fairly presented his constitutional claim to the state court during the
PCR process. (Prior Op. 17.) “[T]he substance of the claim presented .. . rather than its technical
designation” controls. Evans v. Court of Common Pleas, 959 F.2d 1227, 1231 (3d Cir. 1992)
(citation omitted). Although the state courts failed to explicitly rule on the constitutional issue
during the criminal proceeding,5 on appeal from denial of Petitioner’s PCR application, the
Appellate Division found that the constitutional issue had already been decided by the lower court.
State v. Rambo, No. A-0382-10T2, 2013 WL 512116, at *10-11 (N.J. Sup. Ct App. Div. Feb. 1'3,
2013). In its opinion affirming the denial of Petitioner’s PCR application, the Appellate Division
stated that “[t]he Chancery court’s decision [was] not properly before [the Court], and defendant’s
argument relating to that decision [was] adjudicated on the merits [in the probate matter].” (Id. at
11.) As such, the Court again finds that Petitioner properly exhausted his state court remedies, and

c

relief on this ground is denied.
B.

Third Party Action

The State argues that because a third party, Petitioner’s son, moved to freeze Petitioner’s
assets in a separate civil action, the result cannot be the basis of Petitioner’s Sixth Amendment
claim in the criminal matter. (Resp't's Br. 6-9.) The State asserts that it ‘'never took action to
enjoin the defendant’s funds[;] [rjather, a third party restrained assets in a civil matter [and] . . .

adequately raised the violation of his Sixth Amendment right to counsel of his choice in the
relevant state court proceedings. (Id. at 17.) The State further asserts that “[t]he [Petitioner’s
failure to exhaust his state remedies is not simply a technical violation, rather it directly caused the
alleged error in the criminal case.” (Resp’t’s Br. 6.) Again, the Court disagrees. The Chancery
Court order freezing Petitioner’s assets and denial of Petitioner's motion to release assets to fund
his criminal defense caused the constitutional violation in the criminal case.
5 The state courts’ refusal to adjudicate Petitioner’s claim did not amount to procedural default.
No state court held that state law barred Petitioner from banging his claim; the courts simply
declined to rule on the issue on jurisdictional grounds.
5

Case 3:14-CV-00874-MAS Document 51 Filed 10/02/17 Page 6 of 8 PagelD: 5037

r

the State did not deprive [Petitioner of [the] right to counsel of his choice.” (Id. at 9.) The Court
finds no merit in the State’s argument.
Habeas relief is not limited to situations where the government deprives a defendant of his
constitutional rights. Courts have held that habeas relief is available based on conduct that
deprived defendants of a fair trial, none of which were attributable to the prosecution or to the
court. See Stauffer v. Trammell, 738 F.3d 1205, 1218-19 (10th Cir. 2013) (jury tampering),
Lawson v. Borg, 60 F.3d 608, 612 (9th, Cir. 1995) (juror misconduct), and Norris v. Risley,
918 F.2d 828, 831 (9th Cir. 1990) (spectator interference). “[W]e are interested in whether the
adversarial process at trial, in fact, worked adequately.” Rompilla v. Horn, 355 F.'3d 233, 259
(3d Cir. 2004) (quoting Waters v. Thomas, 46 F.3d 1506, 1512 (11th Cir. 1995)), rev 'cl on other
grounds, 545 U.S. 374 (2005). Regardless of the source, if a petitioner is deprived of a fair trial

c

in state court, then he is in custody pursuant to a state court judgment in violation of the
Constitution—the touchstone of a habeas claim pursuant to 28 U.S.C. § 2254.
In addition, the Court is not persuaded by either of the two cases the State cites to support
its argument. The first is an unpublished case from the District of Utah, United States v. Johnson,
No. 1 l-cr-50l, 2016 WL 4087351 (D. Utah July 28, 2016). and the second is from the Supreme
Court of Vermont, Estate of Lott v. O ’Neill, 165 A.3d 1099 (Vt. 2017). Neither case is binding on
this Court. Moreover, the Johnson case is distinguishable and not applicable to the instant
situation.6 As to the Lott decision, the Court respectfully declines to follow the analysis provided

6 In United States v. Johnson, the district court held that the defendant’s Sixth Amendment right
to counsel of his choice was not violated, despite his assets being frozen by a court-ordered receiver
in another civil-matter, because “[b]y the time [defendant] Johnson was indicted in the criminal
case, the civil action against him . . . had been proceeding [for] some time, and a Receiver had
been appointed ... by court order.” Johnson, 2016 WL 4087351, at *3. Accordingly, the facts in
Johnson involved a prior and unrelated civil matter.
6

Case 3:14-cv-00874-MAS Document 51 Filed 10/02/17 Page 7 of 8 PagelD: 5038

f

by the majority of the Supreme Court of Vermont in its 3-2 split decision. In sum, the Court rejects
the State’s argument on this ground, and relief is denied.
C.

Clearly Established Law

Next, the State argues that: (i) the Court should have considered only Supreme Court case
law in existence prior to the date Petitioner’s conviction became final, unless a case decided after
that date “ illustrate^] the prior state of the law[;]”(Resp’t’s Br. 10) and (ii) the Court relied upon
federal law that was not clearly established until the Supreme Court’s decision in Luis v. United
States, 136 S. Ct. 1083 (2016). {Id. at 9.)
In its Prior Opinion, the Court applied the principles set forth in Caplin & Drysdale,
Chartered v. United States, 491 U.S. 617 (1989), and United States v. Monsanto, 491 U.S. 600
(1989), hi its analysis, not the reasoning of Luis. Both of these cases pre-date the Petitioner’s
.conviction. In any event, however, Luis is simply a further illustration of the constitutional
(

principles addressed in Caplin and Monsanto. See Federal Habeas Manual § 3:29 (2017) (“A
Supreme Court case decided after the relevant state court decision can be considered as illustrative
of the proper application of the constitutional principle at issue.”) (citing as an example Wiggins
v. Smith, 539 U.S. 510 (2003)). The Caplin and Monsanto decisions addressed .whether freezing
“tainted” assets was proper. Caplin, 491 U.S. at 626; Monsanto, 491 U.S. at 616. The Luis case
considered the protections afforded to “untainted” assets, the inverse of the Caplin and Monsanto
cases. See Lius, 136 S. Ct. at 1088. Accordingly, the state has not set forth a valid basis for
reconsideration and relief is denied on this ground.

7

Case 3:14-cv-00874-MAS Document 51 Filed 10/02/17 Page 8 of 8 PagelD: 5039

D.

f

Characterization of Marital Assets

On this point, the State essentially disagrees with tire Court’s Prior Opinion, arguing that
“[t]he [Petitioner had a diminished interest in the property since he was charged with killing his
wife.” (Resp’t’s Br. 13 (emphasis added).). The Court has already addressed and rejected this
argument. (See Prior Op. 24.) The State neither asserts new facts nor points to any clear error of
law the Court may have made; therefore, relief on this ground is denied.
IV.

CONCLUSION
For the reasons set forth above, the State’s Motion is DENIED.

/UjUlqf
Michael A. Shipp
United States District Judge

(

Date: l

Qu 17

8

*

APPENDIX E

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 1 of 28 PagelD: 4914

n

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
ROY L. RAMBO, JR.,
Civil Action No. 14-874 (MAS)
Petitioner,
OPINION
v.
PATRICK A- NOGAN, et al.,
Respondents.
SHIPP, District Judge
This matter comes before the Court on Petitioner Roy L. Rambo, Jr.’s (“Petitioner”)
Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 (the “Petition”), challenging a
sentence imposed by the State of New Jersey for the first-degree murder of his wife.1 (ECF No.
1.) Respondents Patrick A. Nogan, Administrator, East Jersey State Prison, and John J. Hoffman,
former Attorney General of the State of New Jersey, (collectively, “Respondents” or the “State”)
filed an Answer (ECF No. 11), along with numerous exhibits (ECF Nos. 14-24). Petitioner replied
(ECF No. 26), and filed numerous items of correspondence in further support of his Petition (ECF
Nos. 27, 29, 32, 37, 40). Respondents filed responsive correspondence. (ECF Nos. 30, 31, 39.)
The Court has carefully considered the parties’ submissions and decides the matter without oral
argument. For the reasons stated below, the Petition is GRANTED.

i

Petitioner subsequently filed an exhibit to the Petition, consisting of additional point headings in
support of his Petition that were missing from his original filing. (ECF No. 25.)

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 2 of 28 PagelD: 4915

f

I.

Background
On or about August 16, 2002, Petitioner was indicted for purposely and/or knowingly

causing the death of his wife, Linda Rambo, in violation of N.J.S.A. 2C:11 -3(a)(1) or (2), and for
knowingly and unlawfully possessing a .380 caliber Taurus pistol with a purpose to use it
unlawfully against the person of another, pursuant to N.J.S.A. 2C:39-4a. (Ra. Ex. 1, Indictment,
ECF No. 14.)
At the time of the indictment, Petitioner was a dentist and, prior to her death, Linda Rambo
had worked in Petitioner’s dental practice.2 (Answer 5, ECF No. 11.) Immediately before Linda
Rambo’s death, Petitioner and Linda Rambo’s marital assets primarily consisted of the following:
(1) Petitioner’s dental practice; (2) the real estate where Petitioner’s dental practice was located,
which was held in a tenancy by the entirety; and (3) the marital home (the “farm”), which was held
(

in a tenancy by the entirety. (Ra. Ex. 107,Oct. 15,2003 Hr’gTr. 10:6, 12:11-15:15, ECF No. 24.)
On August 23, 2002, Petitioner and Linda Rambo’s son, Bruce Rambo, filed an order to
showr cause for the appointment of a temporary and/or permanent administrator and for temporary
and permanent restraints with the Superior Court of New Jersey, Chancery Division in Warren
County (the “Chancery Division”). (Ra. Ex. 108, Aug. 23, 2002 OTSC, ECF No. 24.) Bruce
Rambo sought to appoint himself as the administrator for the Estate of Linda Rambo, and sought
to freeze all of Petitioner’s assets and enjoin him “from expending any sums of money owned
individually or as a marital asset.” (Id.)

2 In addition to running his dental practice, Petitioner was “the keeper” of the couple’s financial
assets, such that it was normal practice for Linda Rambo to ask Petitioner for money to pay for her
living expenses. (Answer 5-7.) Petitioner also appeared to handle the couple’s finances even
throughout a period in which he and his wife were separated. (Id.)
2

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 3 of 28 PagelD: 4916

r

Upon reviewing the matter, on August 28, 2002, the Honorable Harry K. Seybolt, J.S.C.,
of the Chancery Division, appointed Bruce Rambo as the permanent administrator of the Estate of
Linda Rambo and ordered that: “(1) all assets of Roy L. Rambo will be frozen, wherever located”;
“(2) Roy L. Rambo or any of his agents or representatives is enjoined from entering onto any
property owned either jointly or individually by Roy L. Rambo and Linda Ann Rambo”; and
“(3) Roy L. Rambo is enjoined from expending any sums of money owned individually or as a
marital asset. >>3 (Ra. Ex. 109, Aug. 28, 2002 Order 1-2, ECF No. 24.)
On September 19, 2002, before the Superior Court of New Jersey Law Division, Criminal
Part in Warren County (the “Criminal Part”), Petitioner explained to the Honorable John H. Pursel,
J.S.C., that he was found ineligible for a public defender, yet also had his assets frozen, precluding
him from retaining private counsel. (Ra. Ex. 59, Sept. 19, 2002 Hrg Tr. 3:12-4:3, ECF No. 20.)
In response, Judge Pursel stated: “[w]ell, you’re mistaken on that fact, Dr. Rambo. The funds were
frozen for—for your protection. ... An application may be made to the [cjourt to release those
funds to hire private counsel. So there is no disability to assess [sic] those funds.” {Id. at 4:4-10.)
Judge Pursel further stated: “[the Chancery Division] froze your assets to protect them.. .. Not to
prevent you from hiring an attorney.” {Id. at 6:1-5.) Petitioner insisted, however, that his assets
were unavailable to him, but Judge Pursel responded “I think you’re dead wrong. . . . Civil . . .
litigation takes a back seat to your [criminal] litigation. ... It takes a front seat to other creditors.”
{Id. at 8:3-9.)

3

On November 15, 2002, Judge Seybolt of the Chancerv Division held a case management
conference with respect to the assets initially frozen upon Bruce Rambo’s order to show cause.
(Ra. Ex. 106, Nov. 15, 2002 Hr'g Tr., ECF No. 24.) At the conference, Judge Seybolt noted that
he was troubled about disposing of any of the frozen property at that time because he was
“concerned .. . [that the property] may ultimately end up being [Petitioner’s property.” {Id. at
7:7-15.)

Case 3:14-CV-00874-MAS Document 44 Filed 09/01/17 Page 4 of 28 PagelD: 4917

r

In a subsequent hearing before the Criminal Part, on October 9, 2002, Petitioner again
communicated to the court that he was unable to retain private counsel due to the fact that his
assets remained frozen. (Ra. Ex. 61, Oct. 9, 2002 Hr’g Tr. 3:18-4:10, ECF No. 20.) Judge Pursel
stated that he received correspondence from Petitioner’s son’s counsel that argued “that under the
law . . . people in your circumstances in his opinion would forfeit any right to have the assets.”
{Id. at 4:11-5:7.) Judge Pursel then indicated that “of course the one thing that [Bruce Rambo’s
counsel] overlooks is the fact that you’re still an innocent person in the eyes of the law. ... he
makes one mistake, you haven’t been convicted of anything yet.” {Id. at 5:2-8.) Judge Pursel
proceeded to state: “At any rate, I’m going to authorize the appointment of a public defender for
you,” until Petitioner, if able, can access assets to retain private counsel. {Id. at 5:10-25.)
Petitioner subsequently filed a motion in 2003 in the Chancery Division, requesting access

(

to his portion of the marital assets for the purpose of retaining private counsel in his criminal
proceedings. (Ra. Ex. 114, Nov. 7, 2003 Order, at 1-2, ECF No. 24.) Oral argument was held on
October 15, 2003, where Petitioner argued that he should have access to his assets to mount a
proper defense in his criminal proceeding pursuant to the Sixth Amendment. (Ra. Ex. 107, Oct.
15, 2003 Hr’g Tr. 3:12-19:7.) At oral argument, the Honorable Fred FI. Kumpf, J.S.C., denied
Petitioner’s request under the New Jersey Slayer Statute.4 At the time, the relevant provision of
the. New Jersey Slayer Statute provided:
N.J.S. A. 3 B:7-1: A surviving spouse, heir or devisee who criminally
and intentionally kills the decedent is not entitled to any benefits
under a testate or intestate estate and the estate of decedent passes
as if the killer had predeceased the decedent. Property appointed by

4 At the time of Petitioner’s request, the relevant provisions of the New Jersey Slayer Statute were
codified at N.J.S.A. 3B:7-1 (1982) (repealed 2004) (current version at N.J.S. A. 3B:7-1.1),N.J.S.A.
3B:7-2 (1982) (repealed 2004) (current version at N.J.S.A. 33:7-1.1), and N.J.S.A. 3B:7-6 (1982)
(amended 2004).
4

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 5 of 28 PagelD: 4918

r

the will of the decedent to or for the benefit of the killer passes as if
the killer had predeceased the decedent.
N.J.S.A. 3B:7-2: Any joint tenant who criminally and intentionally
kills another joint tenant thereby effects a severance of the interest
of the decedent so that the share of the decedent passes as his
property and the killer has no rights by survivorship. This provision
applies to joint tenancies and tenancies by the entirety, joint
accounts inbanks, savings and loan associations, credit unions and
other institutions, 'and any other form of coownership with
survivorship incidents.
N.J.S.A. 3B:7-6: A final judgment of conviction of intentional
killing is conclusive for purposes of this chapter. In the absence of
a conviction of intentional killing the court may determine by a
preponderance of evidence whether the killing was intentional for
■purposes of this chapter.
In reaching his decision, Judge Kumpf first distinguished the instant case from Jacobson
v. Jacobson, 376 A.2d 558 (N.J. Super. Ct. App. Div. 1977)—which supported Petitioner’s

c

argument—by finding that the statute had been amended in such a way that the assets must remain
frozen until the court determined whether Petitioner intentionally killed his spouse. (Ra. Ex. 107,
Oct. 15, 2003 Hr’g Tr. 20:24-21:24.) With respect to the Sixth Amendment, Judge Kumpf stated:
although there is a Sixth Amendment right, that right is not... a[n]
absolute right. Obviously the [Petitioner] will have ... an
opportunity to have counsel, whether it’s a counsel that he pays for
or whether [it is] counsel that is provided to him. ... In the
circumstances of this case[,] I conclude that the funds from the sale
of the . . . farm are to be held in trust and are not available to
[Petitioner] for purposes of his defense in the criminal matter.
(Jcl. at 23:19-24:8.) Moreover, although Judge Kumpf did not specifically discuss the proceeds
from the sale of Petitioner’s dental practice in relation to the Sixth Amendment, he decided that
the proceeds from the sale o f the farm “should be held in trust in the same way [as] the proceeds
from the sale of the dental practice building,” indicating that Petitioner would be denied access to

5

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 6 of 28 PagelD: 4919

(

all marital assets including proceeds associated with Petitioner’s dental practice. {Id. at 23:9-18
(emphasis added).)
Accordingly, on November 7, 2003, the Chancery Division denied Petitioner’s motion to
access his assets for the purpose of hiring counsel for his criminal proceedings. (Ra. Ex. 1.14. Nov.
7, 2003 Order, ECF No. 24.) On December 13, 2004, the Chancery Division decided that it would
conduct an equitable distribution hearing to determine Petitioner’s portion of the marital assets
after resolution of the criminal proceeding. (Ra. Ex. 116, Dec. 13, 2004 Order, ECF No. 24.)
Prior to the criminal trial, in a hearing on March 15, 2004 before Judge Pursel in the
Criminal Part, Petitioner moved to represent himself at trial. (Ra. Ex. 76, Mar. 15, 2004 Hr’g Tr.
3:18-23, ECF No. 20-2.) Petitioner stated that he made the motion knowingly and voluntarily, but
!'out of necessity” because the Chancery Division never released his assets for the purpose of

C

retaining private counsel, a private investigator, and expert witnesses. {Id. at 3:18-4:11.) In
response, Judge Pursel stated, “I have never understood why you’ve been deprived of your assets.”
{Id. at 9:21-22.) Judge Pursel further stated:
that may be an issue that is going to come back a long time from
now and be revisited. . . . [UJnless you’re bankrupt there must be
something that would be available for you to use for your defense.
I agree with you. However, the Appellate Division has got to do
that. I can’t do that. There have been two Judges who said no, we’re
not going to give you the assets. I don’t know why. I don’t disagree
with it because I don t know why they did that. I don’t know what
the reason for it was. And I have no authority to disagree with it.
{Id. at 9:25-10:14.) Accordingly, Petitioner represented himself at trial. {See Ra. Ex. 86, Jan. 3,
2005 Trial Tr. 43:8-11, ECF No. 21-1.)
On February 9, 2005, Petitioner was found guilty by a jury of first-degree murder under
N.J.S.A. 2C: 11 -3(a)(1) and (2), and second-degree possession of a weapon for an unlawful purpose

6

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 7 of 28 PagelD: 4920

f

in violation of N.J.S.A. 2C:39-4(a).5 (Ra. Ex. 2, Judgment of Conviction, ECF No. 14.) On April
22,2005, Petitioner was sentenced to a forty-year term of imprisonment, of which Petitioner would
have to serve thirty years before becoming eligible for parole.6 (Id.)
Following the criminal trial, on July 6, 2005, the Superior Court of New Jersey, Law
Division in Somerset County (the “Law Division”) issued a judgment against Petitioner in a civil
wrongful death action brought by Bruce Rambo. (Ra. Ex. 119, July 6, 2005 Order, ECF No. 24.)
The Law Division found Petitioner liable in the amount of: (1) $310,000 for loss of services and
counseling to Bruce Rambo; (2) $1,000,000 for pain and suffering; and (3) $5,000,000 for punitive
damages. (Id.) Subsequently, on August 5, 2005, the Chancery Division transferred the deed of
the marital property to Bruce Rambo.7 (Ra. Ex. 120, Aug. 5, 2005 Order, ECF No. 24.)
Petitioner filed an interlocutory appeal from the Chancery Division to the Appellate

(

Division, where the Appellate Division granted his motion to waive fees but denied his motions
for access to free transcripts and assignment of counsel. (Ra. Ex. 122, Dec. 15, 2005 Order, ECF
No. 24.) This appeal was later dismissed for Petitioner’s failure to prosecute the appeal. (Ra. Ex.
123, Jan. 6, 2006 Order, ECF No. 24.) On January 18, 2006, Petitioner filed a motion to vacate
the dismissal of his appeal and reinstate his appeal of the Chancery Division’s August 5, 2005

5 New Jersey Superior Court, Law Division, Criminal Part in Warren County (No. 2002-12-4726 The trial court directed that the eighty-five percent period of parole ineligibility pursuant to the
No Early Release Act (“NERA’j, N.J.S.A. 2C:43-7.2, would attach to the ten years remaining on
Petitioner’s sentence after he had served the initial thirty-year mandatory minimum term. (Ra JEx.
2, Judgment ot Conviction.) The Appellate Division subsequently affirmed the conviction but
remanded for re-sentencing to apply NERA to the entire forty year sentence, and Petitioner- was
sentenced accordingly. New Jersey v. Rambo. 951 A.2d 1075. 1085 (N.J. Super. Ct. App Div .
2008).
7 On May 1, 2006, the Chancery Division issued a similar order pertaining to an unnamed redacted
property. (Ra. Ex. 121, May l, 2006 Order, ECF No. 24.)
7

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 8 of 28 PagelD: 4921

(

order. (Ra. Ex. 124, Jan. 18, 2006 Mot., ECF No. 24.) The Appellate Division denied Petitioner’s
motion on February 23, 2006. (Ra. Ex. 125, Feb. 23, 2006 Order, ECF No. 24; s<?e also Ra. Ex.
126, Apt. 10, 2006 Order, ECF No. 24 (denying Petitioner’s motion for reconsideration); Ra. Ex.
127, July 17, 2006 Order, ECF No. 24 (New Jersey Supreme Court denying petition for
certification for lack of prosecution).) Sometime thereafter, Petitioner sought relief from the
Chancery Division, requesting that fifty percent of the marital assets be unfrozen. {See Ra. Ex.
129, Jan. 5, 2007 Order, ECF No. 24.) Petitioner’s request was denied. {Icl.)
In addition to ongoing civil proceedings, Petitioner filed a direct appeal of his conviction
with the Appellate Division, which affirmed his conviction and sentence on July 22, 200S. New
Jersey v. Rambo, 951 A.2d 1075 (N.J. Super. Ct. App. Div, 2008), cert, denied, 556 U.S. 1225
(2009). hr the appeal, Petitioner raised an issue with respect to his Sixth Amendment right to

(

counsel of his choice. (/c/.;’Ra. Ex. 3, Pet’ r’s Br. App. Div. Direct Appeal 26-37, ECF No. 14.) In
its decision, the Appellate Division distinguished Petitioner’ s case from United States v. GonzalezLopez, 548 U.S. 140, 142-52 (2006), a case in which the United States Supreme Court decided that
‘‘a trial court’s erroneous deprivation of a criminal defendant’s choice of counsel entitle[d] him to
a reversal of his conviction.” Rambo, 951 A.2d at 1083. The Appellate Division stated:
In Gonzalez-Lopez, the orders which had the effect of depriving
defendant of the counsel of his choice were entered in connection
with the same matter that was under appeal. The only appeal before
this court is from the judgment of conviction. [Petitioner] did not
include in his Notice of Appeal the orders entered in the Chancery
Division and, indeed, his earlier filed appeal from those orders was
dismissed.
Id. The Appellate Division further added that Petitioner failed to prosecute his appeal from the
Chancery Division’s order, and, despite being denied free transcripts, Petitioner could have
submitted purely legal arguments to the Appellate Division. Id. at 1084. Accordingly, the

8

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 9 of 28 PagelD: 4922

r

Appellate Division determined that it did not have jurisdiction to review the Chancery Division’s
order to freeze Petitioner’s assets. Id.
Petitioner proceeded to file a direct appeal to the New Jersey Supreme Court, where he
raised his Sixth Amendment right to choice of counsel and where his Petition was summarily
denied. New Jersey v. Rambo, 962 A.2d 529 (N.J. 2008). Petitioner then filed a petition for
certiorari in the United States Supreme Court, and his Petition was again summarily denied.
Rambo, 556 U.S. at 1225.
In or around February 2009, Petitioner filed another motion to reinstate his appeal from the
Chancery Division s orders that froze his assets and, thereby, precluded him from retaining private
counsel.

(Ra. Ex. 132, Pet’r’s Moving Br., ECF No. 24.) The Appellate Division denied

Petitioner’s appeal without prejudice and permitted Petitioner to file a subsequent appeal after
(

securing a final judgment from the Chancery Division. (Ra. Ex. 134, Mar. 6, 2009 Order, ECF
No. 24.) On May 17, 2010, the Chancery Division issued a final judgment ordering:
I.

That [Petitioner] shall be and is hereby awarded by way of equitable
distribution of the marital assets the sum of $290,3 14.51.

2.

That the debt of $6,000,000, not including interest, which ’
[Petitioner] owes the Estate [of Linda Rambo], shall be credited
$290,314.51, making the debt owed to the Estate $5,709,685.49, not
including interest.

3.

That the administrator of the Estate shall turn over any of the
clothing and pre-marital property belonging to [Petitioner] ... to
[Petitioner’s] sister. [Petitioner] shall arrange for his sister or her
agent to pick up such property from the Estate.

4.

That [Petitioner] shall be responsible for paying any taxes the Estate
incurs due to the distribution of the [Individual Retirement Account]
to the Estate.

(Ra. Ex. 135, May 17, 2010 Order, ECF No. 24.)

9

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 10 of 28 PagelD: 4923

(

Petitioner appealed to the Appellate Division. In re Estate ofRambo, No. A-5308-09T2,
2012 WL 1969954 (N.J. Super. Ct. App. Div. June 4, 2012). The Appellate Division solely
reviewed the Chancery Division’s application of the New Jersey Slayer Statute. Id. at *4. The
court determined that “[t]he restraints issued. which prevented [Petitioner] from accessing the
mantal property to fund his defense against charges of murdering his wife, are directly supported
by N.J.S.A. 3B;7-1.” Id The court further stated that “[t]o pennit [Petitioner] to use the proceeds
of the marital estate to pay the cost of private counsel would be a perversion ofjustice and in direct
violation of the public policy expressed by the Legislature in N.J.S.A. 3B:7-5.” Id As to
I^etitionei s arguments under the Sixth Amendment, the court merely stated that the arguments
lackfed] sufficient merit to warrant a discussion iin a written opinion.” Id. Petitioner appealed
the Appellate Division’s decision, and both the New Jersey Supreme Court and the United States

(

Supreme Court summarily denied Petitioner’s appeals. See In re Estate ofRambo, 54 A.3d 810
(N.J. 2012); Rambo v. Estate ofRambo, 134 S. Ct. 1490 (2014).
On March 23, 2009, Petitioner filed an application for post-conviction relief ("PCR
Application”) with the New Jersey Superior Court, Law Division, Criminal Part, Warren County
(No. 2002-12-472-1). (Ra. Ex. 21, ECF No. 17-1.) Petitioner’s PCR Application was ultimately
denied. (Ra. Ex. 40, Aug. 10, 2010 Order, ECF No. 18-1,) The Criminal Part determined that
Petitioner’s Sixth Amendment arguments related to the Chancery Division’s application of the
Slayer Statute, and declined to review the issue. {Id.) Petitioner appealed to the Appellate
Division, whieh affirmed the Law Division’s decision. See New Jersey v. Rambo, No. A-038210T2, 2013 WL 512116, at *1 (N.J. Super. Ct. App. Div. Feb. 13,2013). The Appellate Division
similarly declined to address Petitioner’s Sixth Amendment arguments because “[t]he Chancery
[Division s] decision [was] not properly before [the Appellate Division].” kl. at *4. The Appellate

10

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 11 of 28 PagelD: 4924

r

Division denied Petitioner’s appeal (Ra. Ex. 41, Sept. 15, 2010 Notice of Appeal, ECF No. 18-1),
and the New Jersey Supreme Court denied his subsequent petition for certification (Ra. Ex. 58.
Denial of Pet. for Cert., ECF No. 20).
On February 11, 2014, Petitioner filed the instant Petition (Pet., ECF No. 1), which was
seived on Respondents in or around October 2014 (ECF Nos. 5, 6, 8). Respondents subsequently
requested a sixty-day extension to file their Answer.

(ECF No. 9.)

The Court granted

Respondents request for an extension. (ECF No. 10.) On February 4, 2015, Respondents filed
their Answer. (ECF No. 11.) Respondents, however, submitted correspondence on February 4,
2015 and February 10, 20.15, stating that they could not file the relevant exhibits due to technical
problems. (ECF Nos. 12, 13.)

Respondents finally filed their exhibits on February 18, 2015.

(ECF Nos. 14-24.) On March 23, 2015, Petitioner filed his Reply to Respondents’ Answer. (ECF

C

No. 26.)
On June 3, 2015, Petitioner submitted correspondence notifying the Court that
Respondents had failed to file numerous exhibits that Respondents had listed in their index. (ECF
No. 29.) On July 8,2015, Respondents submitted correspondence setting forth reasons why certain
exhibits were missing. (ECF No. 30.) On August 24, 2015, Petitioner filed a motion to compel
electronic filing of all missing exhibits and requested an order from the Court that Respondents
must “include a certified statement that the DVD’s represent a complete and accurate reproduction
of all Exhibits filed by . . . Respondents in this matter.” (ECF No. 33.) The issues raised in
Petitioner's motion to compel were fully briefed by September 16, 2015 (ECF Nos. 34, 35), and
the Court denied Petitioner’s motion on November 20, 2015 (ECF No. 36).
In addition to Petitioner’s motion to compel based on Respondents’ allegedly inadequate
document production, the parties submitted numerous items of correspondence further analyzing

11

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 12 of 28 PagelD: 4925

r

the merits of Petitioner’s underlying habeas Petition. (ECF Nos. 27, 31, 32, 37.) On May 26
2016, the Court granted Respondents’ request for an extension to respond to Petitioner’s April 27,
2016 correspondence, which further discussed the merits of the Petition.

(ECF No. 38.)

Accordingly, Respondents filed their response on June 30, 2016. (ECF No. 39.) Petitioner
pioceeded to file additional substantive correspondence on July 18, 2016 (ECF No. 40) , and, on
August 2, 2016, Respondents requested another extension to respond to Petitioner’s
correspondence (ECF No. 42). The Court, however, denied Respondents’ request in August 2016.
and the parties did not further supplement their voluminous submissions.8 (ECF No. 43.)
II.

Legal Standard
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C.

§ 2254, a district court shall entertain an application for a writ of habeas corpus in behalf of a
(

person in custody pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a).
When a claim has been adjudicated on the merits in state court proceedings, the writ shall
not issue unless the adjudication of the claim (1) “resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d);

also Parker v. Matthews. 567 U.S. 37, 40 (2012). A state court decision is

"contrary to” clearly established federal law if the state court (I) “applies a rule that contradicts
the governing law set forth in [Supreme Court precedent],” or (2) “confronts a set of facts that are

etitioner s submissions consist of more than three hundred seventy pages, and Respondents’
submissions consist of over four thousand four hundred pages. Accordingly, the Court nowreaches its decision based on a comprehensive review of the parties’ considerable submissions.
12

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 13 of 28 PagelD: 4926

r

materially indistinguishable from a decision of [the Supreme] Court and nevertheless arrives at a
result different from [Supreme Court] precedent.” Williams v. Taylor, 529 U.S. 362, 406 (2000);
see Dennis v. Sec., Pa. Dep't of Corn., 834 F.3d 263, 280 (3d Cir. 2016). Federal courts must
follow a highly deferential standard when evaluating, and thus give the benefit of the doubt to,
state court decisions. See Felkner v. Jackson, 562 U.S. 594, 598 (2011); Eley v. Erickson, 712
F.3d 837, 845 (3d Cir. 2013).
III.

Parties’ Positions9
A.

Petitioner

Petitioner argues that his Sixth Amendment right to counsel of his choice was violated
because he was unable to use his assets to retain private counsel for his criminal proceeding. (Pet.
18-20.) According to Petitioner, a number of factors contributed to the constitutional violation.

C

First, Petitioner argues that his Sixth Amendment right was violated when the Chancery Division
troze his individual and marital assets and precluded him from using those assets to obtain private
counsel for his criminal proceedings. (Id. at 21,) Moreover. Petitioner argues that the New Jersey
Slayer Statute, which was invoked to freeze his individual and marital assets, “was either
unconstitutional, as written, or it was unconstitutionally applied [to Petitioner] by the Chancery
[Division]. (Id. at 22, 35-39.) According to Petitioner, the Chancery Division improperly applied
the Slayer Statute and froze more assets than permitted under the statute. (Id. at 42-46.) In other
words, Petitioner asserts that the Chancery Division froze assets that were untainted by his alleged

9 The Court sets forth the parties’ positions only with respect to Petitioner’s Sixth Amendment
argument. The Court further incorporates into the Discussion section the parties’ positions on
various issues regarding the State’s alleged affirmative defenses. Additionally, the Court
acknowledges that the parties submitted supplemental submissions that distinguished or
analogized specific cases. (ECF Nos. 27, 31, 32, 37, 39, 40.) The Court similarly incorporates
any material analyses from these submissions into its Discussion section below.
13

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 14 of 28 PagelD: 4927

r

criminal conduct. {Id.) Petitioner further explains that the Slayer Statute “is solely limited to the
portion of the marital assets owned by his wife prior to her death.” {Id. at 48.)
Additionally, Petitioner asserts that Judge Pursel, who presided over Petitioner’s criminal
proceeding, tailed to address the Sixth Amendment violation and instead permitted Petitioner’s
trial to proceed. {Id. at 30-31.) Petitioner further argues that the Appellate Division similarly did
not adequately address the Sixth Amendment violation in every appeal that he filed. {Id. at 31, 5054.) Accordingly, Petitioner asserts that the violation of his Sixth Amendment right to counsel of
his choice constitutes a structural error that requires the reversal of his conviction. {Id. at 34-35.)
Petitioner further argues that although he elected to proceed pro se during his criminal proceedings,
he did so only because his Sixth Amendment right to counsel of his choice was already violated,
which he made clear on the record. {Id. at 25.)

C

B.

Respondents

In its Answer, the State responds to Petitioner’s Sixth Amendment claim by stating that it
lelies on the briefs it submitted on direct appeal of Petitioner's conviction and on Petitioner’s PCR
Application. (Answer 16-17.) The State further notes that it relies on the various decisions by the
state courts in this matter. {Id. at 17.)
In its brief on direct appeal, the State argued that the Sixth Amendment right to retain
counsel of one s choice is not an absolute right. (Ra. Ex. 10, State’s Direct Appeal Br. 21, ECF
No. 16-2.) The State asserted that Petitioner was unable to choose counsel because he could not
afford private counsel at the time, due to his assets being frozen. {Id. at 22.) The State further
argued that a public defender was provided and that Petitioner knowingly and voluntarily waived
his right to counsel and represented himself. {Id. at 23-24.)

14

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 15 of 28 PagelD: 4928

r

Specifically, with respect to the application of the Slayer Statute, the State argued that
“most of the property owned by the Rambos was held as tenants by the entireties.” (Id. at 24.)
According to the State, Petitioner’s share of the marital assets was properly held in a constructive
trust pending the outcome of his criminal trial. (Id. at 25.) In support, the State relied on In re
katas, 469 A.2d 99 (N.J. Super. Ct. Law Div. 1983), aff’d and modified by, 485 A.2d 1083 (N.J:
Super. Ct. App. Div. 1984). (Ra. Ex. 10, State’s Direct Appeal Br. 26.) The State argued that the
facts of the instant matter were similar to the facts in Karas, and that the outcome should therefore
be the same—assets were properly frozen pending the outcome of the criminal trial. (Id.) The
State next distinguished the instant matter from Wasserman

Shwartz, 836 A.2d 828 (N.J. Super.

Ct. Law Div. 2001).10 (Ra. Ex. 10, State’s Direct Appeal Br. 27.) The State argued that:
(1) Wasserman is a Law Division decision and, therefore, is not controlling authority; (2) the action

C

under the New Jersey Slayer Statute under Wasserman was filed after the criminal conviction; and
(3) the court in Wasserman found that the convicted murderer had dissipated assets that were part
of the marital estate and subject to distribution. (Id. at 27-28.)
Finally, with regard to the State’s briefs in connection with Petitioner’s PCR Application,
the State’s arguments on the issue of the Sixth Amendment right to counsel of choice were limited
to procedural arguments. (Ra. Ex. 36, State’s PCR Trial Br. 4-9,11 ECF No. t8;Ra. Ex. 48, State's
PCR App. Div. Br. 23-28, ECF No. 19-3.) Specifically, the State argued that, in his PCR

In Wasserman, the court applied the New Jersey Slayer Statute where a husband was convicted
of aggravated manslaughter for slaying his wife. 836 A.2d at 829-30. The Wasserman court
___
invoked its equitable powers to equitably distribute the marital assets “in order to recognize” the
victim-wife’s interest in the marital estate. Id. at 832-36.
11 The Court cites to the page numbers assigned by the electronic filing system as indicated in the
header.

15

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 16 of 28 PagelD: 4929

r

Application, Petitioner could not properly raise issues with respect to the Chancery Division’s
order to freeze his assets because they were outside the scope of his conviction'proceedings and
that Petitioner’s Sixth Amendment right to counsel of his choice was already adjudicated on direct
appeal from Petitioner’s conviction. (Ra. Ex. 36, State’s PCR Trial Br. 4-9, ECF No. 18; Ra. Ex.
48, State’s PCR App. Div. Br. 23-28, ECF No. 19-3.)
IV.

Discussion
A.

Respondents’ Defenses
1.

Jurisdiction

Respondents argue that the Court does not have subject matter jurisdiction over Petitioner’s
claims that challenge the New Jersey Slayer Statute—a civil statute—and civil state court orders.
(Ansvvei 28-29.) Respondents, however, provide no legal analysis in support of this assertion.

C

Contrary to Respondents’ cursory argument, the Court’s jurisdiction on a petition for the writ of
habeas corpus requires a prisoner’s custody to be “in violation of the Constitution or laws or
treaties of the United States.” 28 U.S.C. §§ 2241(c)(3), 2254(a). As Petitioner asserts a violation
of his Sixth Amendment right to counsel of his choice,12 Petitioner has adequately established the
Court’s subject matter jurisdiction over the Petition.
2.

Failure to State a Claim

Respondents argue that Petitioner “fail[s] to establish a claim for habeas corpus relief,” and
that '‘Petitioner’s [Fjederal constitutional rights were clearly not violated or infringed by the
alleged errors” raised in the Petition. (Answer 29-30.) As set forth in the Court’s Discussion

12 See infra Part IV. B.

16

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 17 of 28 PagelD: 4930

r

section, however, Petitioner has established a violation of his Sixth Amendment right to counsel
of his choice.'3 See infra Part IV.B.
3.

Exhaustion of Administrative Remedies

In furtherance of this defense, after setting forth the general legal standard, Respondents
piovide thiee sentences of cursory analysis, devoid of any citations to the record or relevant legal
authority:
In this case, the [Pjetition raised many point headings regarding the
[New Jersey] Slayer Statute and the Chancery Division. However,
the [Petitioner did not raise this point heading. Therefore, the
request for habeas corpus relief should be denied.
(Answer 31-33.) In light of Respondents’ failure to cite to the record in support of their position,
and upon the Court’s review of the record, the Court finds that Petitioner adequately raised the

C

violation of his Sixth Amendment right to counsel of his choice in the relevant state court
proceedings. Accordingly, the Court finds Respondents’ exhaustion defense unpersuasive.

Respondents argue that “[Petitioner seeks to cloak his claims on federal law and constitutional
issues, [but] in reality, he is challenging a state law and the application of that law in the Chancery
Division in his habeas proceeding from his criminal conviction.” (Answer 30.) The Court
disagrees. Respondents’ argument is improperly premised on the assumption that Petitioner’s
Sixth Amendment right to counsel of his choice was never violated. Respondents’ characterization
of Petitioner
s argument as a . mere issue of state law reveals a critical error in Respondents’
. .
position with respect to the instant Petition. Respondents’ submissions primarily focus on
attempting to construe the Sixth Amendment issue as a state law issue pertaining to the application
of the New Jersey Slayer Statute and fail to devote adequate analysis to the federal Sixth
Amendment implications. Moreover, Respondents’ primary reliance on briefs submitted to the
state courts on this matter, as opposed to filing updated briefing appropriately tailored to the federal
constitutional issues most pertinent on a petition for writ of habeas corpus, resulted in
Respondents’ undercoverage of the material legal issues and did not aid in furthering Respondents’
position.
17

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 18 of 28 PagelD: 4931

r

4.

Procedural Default

tn furtherance of this defense, after setting forth the general legal standard, Respondents
provide only three sentences of cursory analysis, devoid of any citations to the record or relevant
legal authority:
In this case, [Petitioner failed to provide any reason for not raising
this particular issue previously nor has the [PJetitioner demonstrate
[sic] any prejudice because there was no violation of his
constitutional rights. Petitioner was fairly convicted and there was
no violation of his constitutional rights. Habeas corpus relief should
be denied.
(Answer jjo4.) In light of Respondents’ failure to cite to the record in support of their position,
and upon the Court’s review of the record, the Court finds that Petitioner adequately raised the
violation of his Sixth Amendment right to counsel of his choice in the relevant state court
proceedings. Accordingly, the Court finds Respondents’ procedural default defense unpersuasive.
(

5.

Timeliness

Under the AEDPA, a one-year statute of limitations applies to a writ of habeas corpus by
a person in custody from a state court judgment. 28 U.S.C. § 2244(d)(1). The one-year statutory
period runs from the latest of the following:
(A)

the date on which the judgment became final bv the
conclusion of direct review or the expiration of the time for
seeking such review;

(B)

the date on which the impediment to filing an application
created by State action in violation of the Constitution or
laws ot the United States is removed, if the applicant was
prevented from filing by such State action;

(C)

the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or

18

■

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 19 of 28 PagelD: 4932

(D)

the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise
of due diligence.

28 U.S.C. § 2244(d)(l)(A)-(D). Additionally, “[t]he time during which a properly filed application
for State post-conviction or other collateral review with respect to the pertinent judgment or claim
is pending shall not be counted toward any period of limitation [with respect to 28 U.S.C.
§ 2244(d)].” 28 U.S.C. § 2244(d)(2).
Upon reviewing the parties’ submissions, the Court finds that Petitioner timely filed the
instant Petition within the one-year statute ot limitations. The Petition Was filed on February 11.
2014. (Pet.) The State’s argument that the Petition was filed after the one-year statutory period is
based on the State’s error. The State identified August 24, 2011 as the date on which “[t]he
decision of the trial court was affirmed” by the Appellate Division, with respect to Petitioner’s

C

PCR Application. (Answer 37.) In support, the State references Respondents’ Exhibit 51. (Id.)
Respondents’ Exhibit 51, however, is merely an order from the Appellate Division permitting
Petitioner ‘‘to supplement the record by providing transcripts and pleadings.” (See Ra. Ex. 51.
Aug. 24, 2011 Order, ECF No. 20.) Instead, a copy of the pertinent Appellate Division’s decision
is contained in Respondents’ Exhibit 55, which explicitly identifies February' 13. 2013—the date
identified by Petitioner—as the date the decision was rendered. (Ra. Ex. 55, Mar. 9, 2013 Corresp.,
ECF No. 20.) Accordingly, alter considering the proper date ol the Appellate Division’s decision
with regard to Petitioner’s PCR Application, the Court finds that the instant Petition was timely
filed.
B.

Sixth Amendment Right to Counsel of Choice

The Sixth Amendment ‘'guarantees a defendant the right to be represented by an otherwise
qualified attorney whom that defendant can afford to hire, or who is willing to represent the

19

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 20 of 28 PagelD: 4933

defendant even though he is without funds.” Caplin & Drysdale, Chartered v. United States, 491
U.S. 617, 624-25 (1989). Moreover, an “erroneous deprivation of the right to counsel of choice
[results in] ‘. . . consequences that are necessarily unquantifiable and indetenninate, . . . [thus
constituting a] structural error.’”

Gonzalez-Lopez, 548 U.S. at 150 (citation omitted).

Accordingly, a wrongful deprivation of a defendant’s right to counsel of his choice “is not subject
to harmless-error analysis.” Id. at 152.
A defendant’s right to choose his counsel, however, is not absolute and “has limits.” Luis
1. United States, 1j6 S. Ct. 1083, 1089 (2016) (plurality). “A defendant has no right, for example,
to an attorney who is not a member of the bar, or who has a conflict of interest due to a relationship
with an opposing party.” Id. (citation omitted). The limitation most pertinent here is that “[a]
defendant has no Sixth Amendment right to spend another person’s money for services rendered

C

by an attorney, even if those funds are the only way that the defendant will be able to retain the
attorney ot his choice.” Caplin, 491 U.S. at 626. Where funds are in a defendant’s possession
unlawfully

i.e., “tainted”—the defendant’s Sixth Amendment right to counsel of his choice is

not violated when those funds are seized, and the defendant is precluded from using those funds
to retain defense counsel in criminal proceedings. Id.
Precedent iclated to the freezing of assets and the effect on a criminal defendant’s Sixth
Amendment right is largely predicated on the United States Supreme Court’s analysis of federal
statutes

e.g., 21 U.S.C. § 853—that permit the United States government to seize certain assets

where- a person has committed certain crimes. See, e.g., Caplin, 491 U.S. at 622-34; United States
v. Monsanto, 491 U.S. 600, 606-16 (1989). When considering these federal statutes, the Supre me
Court determined that the crucial inquiry is whether the property is “tainted” because the Sixth
Amendment does not go beyond ‘the individual’s right to spend his own money to obtain the

20

% ,

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 21 of 28 PagelD: 4934

r

advice and assistance of . . . counsel”’—i.e., one does not have a right to spend money he
unlawfully obtained and is, therefore, tainted. Caplin, 491 U.S. at 626 (quoting Walters v. Nat’l
Ass’n of Radiation Survivors, 473 U.S. 305, 370 (1985) (Stevens, J., dissenting)).
Here, Petitioner’s Sixth Amendment argument arises from the freezing of assets pursuant
to the New Jersey Slayer Statute. Unlike 18 U.S.C. § 1345 and 21 U.S.C. § 853, the New Jersey
Slayer Statute passes title of certain assets to the victim’s estate, as opposed to the government.
N.J.S.A. 3B:7-l; N.J.S.A. 3B:7-2. Despite the difference in the recipient of the forfeited property,
the inquiry for purposes of the Sixth Amendment remains whether any portion of the frozen assets
constituted Petitioner’s untainted property. See Caplin, 491 U.S. at 626-32. This inquiry remains
applicable even where the assets are frozen prior to the conviction on the underlying wrongful act.
Monsanto, 491 U.S. at 616 (“[W]e find no constitutional infirmity in . . . [the] authorization of a

c

. . . restraint on [the criminal defendant’s] property to protect its ‘appearance’ at trial and protect
the community’s interest in full recovery of any ill-gotten gains.”).
In the underlying criminal proceeding, Judge Pursel recognized that precluding Petiti oner
from accessing his frozen assets to retain criminal defense counsel would potentially violate
Petitioner’s Sixth Amendment right to counsel of his choice. Specifically, Judge Pursel indicated
that Petitioner should have access to his frozen assets because he remains an “innocent person in
the eyes of the law” prior to conviction, and because “civil litigation takes a back seat to . . .
[criminal] litigation.” (See Ra. Ex. 59, Sept. 19, 2002 Hr’g Tr. 8:3-9; Ra. Ex. 61, Oct. 9, 2002
Hr’g Tr. o:2-8.) When the Chancery Division failed to grant Petitioner access to his frozen assets
to retain private counsel in his criminal proceeding, Judge Pursel stated on the record that he “ never
understood why [Petitioner was] deprived of [his] assets.” (Ra. Ex. 76, Mar. 15, 2004 Hr’n Tr.
9:21-22.) While Judge Pursel determined that he did not possess the authority to release assets

21

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 22 of 28 PagelD: 4935

f

that were restrained by the Chancery Division, Judge Pursel predicted that Petitioner’s Sixth
Amendment right to counsel of choice “may be an issue that is going to come back a long time
from now and be revisited.” (Id. at 9:25-10:14.) More than a decade after Judge Pursel’s
statements, the Sixth Amendment issue has “come back,” and this Court must revisit the issue
tecognized by Judge Pursel. Accordingly, the Court performed a painstaking review of the
extensive record in this matter. In order to determine whether Respondents violated Petitioner’s
Sixth Amendment right to counsel of his choice, the Court must initially determine whether the
assets Petitioner sought to release in order to fund his defense were tainted, a fundamental
determination that Judge Pursel recognized and the Chancery Court failed to perform.
To determine whether any of the frozen assets were untainted, the Court first looks to the
Chancery Division’s final judgment applying the New Jersey Slayer Statute. On May 17, 2010,

C

after Petitioner was convicted, the Chancery Division determined that Petitioner was entitled to
$290,314.51 by way ofequitable distribution.14 (Ra. Ex. 135, May 17,2010 Order.) The Chancery
Division proceeded to credit the $290,314.51 toward Petitioner’s $6,000,000 debt to Linda
Rambo’s Estate arising from a civil judgment against Petitioner for the wrongful death of his
wife.1'’ (Id.)

14 New Jersey law applies equitable distribution, which is typically applied in divorces, where one
intentionally kills his or her spouse. See Jacobson v. Jacobson. 370 A.2d. 65. 68 (N J Super Ct
Ch. Div. 1976).
'
'
b Here, the Court does not reach a determination as to whether the attachment of a debt to Linda
Rambo’s Estate arising from a judgment in a wrongful death action infringes on Petitioner’s right
to choose counsel because the debt was attached after the conviction—i.e., after Petitioner would
have i eceived his portion of the untainted funds to hire private counsel. Cf. Estate of Lott v.
O 'Neill, No. 16-389, 2017 WL 462184, at ^ 1-6 (Vt. Feb. 3, 2017) (finding that attaching the civil
wrongful death judgment to the criminal defendant’s funds., such that it prevented the criminal
defendant from retaining his chosen private counsel, did not violate the criminal defendant’s Sixth
Amendment right to choose counsel).

22

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 23 of 28 PagelD: 4936

r

As the issue before the Court is whether the underlying state court decisions erroneously
applied clearly established/er/era/ law, the Court defers to the Chancery Division’s determinations
under state law that: (1) equitable distribution was appropriate where the New Jersey Slayer
Statute applied; and (2) S290,314.51 was the appropriate award to Petitioner by way of equitable
distribution of the marital assets.16 (Ra. Ex. 135, May 17, 2010 Order.) Based on tire Chancery
Division’s decision, therefore, Petitioner owned, at minimum, $290,314.51 even after the
conviction. In other words, at least $290,314.51 constituted Petitioner’s untainted property prior
to the conviction.

See Monsanto, 491 U.S. at 616 (holding that if the appropriate pretrial

determination required by the forfeiture statute is reached, assets may be frozen pre-conviction if
those assets would be forfeitable upon conviction).

C

16 The Court similarly defers to the decision by the Appellate Division affirming the Chancery
Division’s decision with respect to these determinations. In re Estate of Ra/nbo, 2012 WL
1969954, at *1-4. The Court notes that the state court decisions applying the New Jersey Slayer
Statute or common law authority in similar cases do not appear to provide clear guidance with
respect to the application of equitable distribution, the precise manner by which marital assets are
apportioned oi foifeited, or whether state law requires a criminal defendant, to access frozen funds
to pay for his criminal defense. See Neiman v. Hurjf 93 A.2d 345, 348-49 (N.J. 1952) (holding,
prior to enactment of the New Jersey Slayer Statute, that the victim should be presumed to have
survived the wrongdoer and that the victim’s sole beneficiary was entitled “to an absolute one-half
interest and a remainder interest in the other half subject only to the value of the life estate of the
defendant in such half’) (emphasis added); Wasserman, 836 A.2d at 834 (applying equitable
distribution under the New Jersey Slayer Statute such that the wife's estate would be entitled to its
“interest or share . . . in the marital property’'); Jacobson, 376 A.2d at 561 (“[W]e reverse that
portion of the order ot the Chancery Division denying defendant the right to withdraw any funds
to pay his attorneys’ fees and costs in connection with the defense of the indictment pending
against him . . . .”); D 'Arc v. D 'Arc, 421 A.2d 602, 604 (N.J. Super. Ct. App. Div. 1980) (“[A*]
plaintiff cannot be permitted to obtain any distribution from a woman whom he tried to have
murdered.”) (emphasis added); In re Estate of Karas, 469 A.2d at 102-03 (finding that the Ne w
Jeiscy Slayet Statute changed the common law, which “would impose a constructive trust on the
killei s l emainder for the benefit of the decedent s heirs,” such that “the constructive trust on the
killer’s one-half would be for the benefit of his heirs”) (first emphasis added). Accordingly,
despite the parties’ extensive analysis pertaining to the proper application of the New Jersey Slayer
Statute as to the division of assets, the Court does not conduct an independent analysis with respect
to this issue.

23

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 24 of 28 PagelD: 4937

r

Under the New Jersey Slayer Statute, an alleged killer only loses benefits to the marital
assets upon a determination that the victim was intentionally killed by either a preponderance of
the evidence or by criminal conviction. N.J.S.A. 3B:7-6. Prior to the conclusion of the criminal
pioceeding, the Chancery Division never determined by a preponderance of the evidence that
Petitioner intentionally killed his wife. Rather, the Chancery Division froze the marital assets
pending resolution of the criminal trial, at which point the Chancery Division finally made the
requisite determination based on Petitioner’s conviction. Accordingly, absent a determination as
to whethei any portion of the marital assets was untainted, Petitioner was improperly precluded
from accessing his untainted portion of the marital assets prior to his conviction. As a result, the
Court finds that '‘the relevant state-court decisions] applied clearly established federal law
erroneously or incorrectly.” Renico v. Lett, 559 U.S. 766, 773 (2010).

C

Although the AEDPA ‘“imposes a highly deferential standard for evaluating state-court
tailings, >»I7 the state court decisions on Petitioner’s direct appeal and PC’R Application never
addressed Petitioner’s Sixth Amendment argument on its merits. On direct appeal, the Appellate
Division determined that it did not possess jurisdiction over the issue as a matter of state law.
Rambo, 951 A.2d at 1083-84. Petitioner's subsequent appeals to the New Jersey Supreme Court
and the United States Supreme Court were summarily denied without discussion of the Sixth
Amendment issue. See generally Rambo, 962 A.2d at 529; Rambo, 556 U.S. at 1225. Petitioner’s
subsequent PCR Application and related appeals resulted in the same determinations. (See Ra.
Exs. 21, 40, 41, 58); Rambo, 2013 WL 512116, at *1. Accordingly, the Court is unable to defer

Fellmer, 562 U.S. at 598 (citation omitted).

24

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 25 of 28 PagelD: 4938

r

to the state court decisions on Petitioner’s direct appeal and PCR Application with respect to the
Sixth Amendment, as no conclusions were drawn on the merits.
Similarly, minimal deference is owed to the state court decisions on the related civil matter.
Initially, when Bruce Rambo filed an order to show cause with the Chancery Division in August
2002, the Chancery Division froze “all assets of [Petitioner],.., wherever located,” and enjoined
Petitioner “from expending any sums ofmoney owned individually or as a marital asset.” (Ra. Ex.
109, Aug. 28, 2002 Older 1-2 (emphasis added).) From the outset, Petitioner’s assets were frozen
without any determination ^s to which assets were tainted by Petitioner’s alleged murder of his
wife.18
In 2003, Petitioner filed a motion in the Chancery Division “to utilize assets or funds held
by the Estate for his criminal defense,” which the court denied. (Ra. Ex. 114, Nov. 7, 2003 Order

C

1-2.) Hete, the Chancery Division actually addressed Petitioner’s Sixth Amendment argument but
its conclusions were “objectively unreasonable.” Coleman v. Johnson, 132 S. Ct. 2060, 2062
(2012). The Chancery Division first identified certain properties that were held by Petitioner and
his wife in tenancies by the entirety and interpreted the New Jersey Slaver Statute as requiring all
marital assets to remain frozen until a determination was made as to whether Petitioner
intentionally killed his wife. (Ra. Ex. 107, Oct. 15, 2003 Hr’g Tr. 20:2-21:24.) With respect to
the Sixth Amendment, the Chancery Division provided only cursory analysis:
And although there is a Sixth Amendment right, that right is not. . .
a[n] absolute right. Obviously the [Petitioner] will have . . . an
opportunity to have counsel, whether it’s a counsel that he pays for
18 Although it appears that the Chancery Division froze assets that were undisputediy Petitioner’s
piopert)' and not marital assets. Petitioner s submissions focus on his inability to access his portion
of mai itxd assets as the cause for his inability to retain private counsel. {Sec generally Petition )
Accordingly, the Court focuses its analysis on Petitioner’s lack of access to his portion of the
marital assets.

25

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 26 of 28 PagelD: 4939

r

or whether counsel that is provided to him. State v. Ray19 indicates
that [Petitioner’s] right to counsel of his choice is not absolute and
must give way when required by the fair and proper administration
of justice. In the circumstancefs] of this case[,] I conclude that the
funds from the sale of the ... farm are to be held in trust and are not
available to Dr. Rambo for purposes of his defense in the criminal
matter.
(Id. at 23:19-24:8.) Although the Chancery Division was correct that the Sixth Amendment right
to counsel of choice is not absolute, clearly established federal law dictates that the seizure of
untainted assets amounts to an encroachment on that right. See Caplin, 491 U.S. at 624-33;
Monsanto, 491 U.S. at 611-16. When the Chancery Division arrived at a final determination under
the New Jersey Slayer Statute after Petitioner’s conviction, the final judgment did not contain any
analysis of Petitioner’s Sixth Amendment right to counsel of his choice, and, therefore, is not owed
any deference with respect to that issue. (See Ra. Ex. 135, May 17, 2010 Order.)

C

Similarly, when Petitioner ultimately appealed from the Chancery Division’s final
judgment applying the New Jersey Slayer Statute, the Appellate Division dismissed Petitioner’s
Sixth Amendment argument in conclusory fashion, stating that it t;lack[ed] sufficient merit to
warrant a-discussion in a written opinion.” In re Estate of Rambo, 2012 WL 1969954, at *4.
Additionally, the New Jersey Supreme Court and the United States Supreme Court summarily
denied Petitionei s subsequent appeals without discussing the Sixth Amendment issue. See In re
Estate of Rambo, 54 A.3d 810 (N.J. 2012); Rambo v. Estate of Rambo, 134 S. Ct. 1490(2014).
Accordingly, the Court finds that Petitioner's Sixth Amendment right to counsel of his
choice was violated due to the combination ol: (1) the Chancery Division’s pretrial restraint of
Petitioner and his wile’s marital assets, and subsequent refusal to release any of Petitioner’s
untainted portion of the marital assets for his criminal defense; (2) the Chancery Division’s failure

19 The Chancery Division’s decision does not provide a citation.

26

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 27 of 28 PagelD: 4940

r

to determine the applicability of the New Jersey Slayer Statute until after Petitioner’s conviction
and after-tins denial of Petitioner’s request for the release of his assets; and (3) the Criminal Part’s
decision to proceed to trial even though Petitioner was unable to access his assets to retain private
counsel. The Court’s decision was further necessitated by the state courts’ decisions, on direct
appeal from Petitioner's conviction and with respect to his PC'R Application, not to address the
merits of Petitioner’s Sixth Amendment violation based on state procedural rules, despite the
significant and direct ramifications of a Sixth Amendment violation on a criminal conviction. The
adjudication with respect to Petitioner’s Sixth Amendment right, therefore, was contrary to clearly
established federal law, as determined by the United States Supreme Court. Moreover, as this
violation constitutes a structural defect, the Court need not engage in an analysis as to whether the
violation was harmless. See Gonzalez-Lopez, 548 U.S. at 150, 152 (citation omitted).20

(.

0 As the Court finds that Petitioner’s Sixth Amendment right to counsel of his choice was violated,
the Court does not reach Petitioner’s other grounds for rel ief.

27

.*

Case 3:14-cv-00874-MAS Document 44 Filed 09/01/17 Page 28 of 28 PagelD: 4941

r

v.

Conclusion
For the reasons set forth above, the Petition is GRANTED. Petitioner’s judgment of

conviction is VACATED. The State shall have 90 days from the entry of the accompanying Order
to determine whether to initiate a new trial against Petitioner or to release him from incarceration.21

s/ Michael A. Shipp_________ _
Michael a. Shipp
United States District Judge
Dated: September 1,2017

l

21 The Court notes for the benefit of Respondents that merely initiating a new trial against
Petitioner may not cure the Sixth Amendment violation if Petitioner remains unable to retain the
counsel of his choice. Due to the fact that at least $290,3 14.51 of Petitioner’s untainted assets
were applied to the civil judgement he owed to Linda Rambo’s Estate, Petitioner may no longer
have access to those funds, which he should have had available to him prior to his conviction.
Whether a Sixth Amendment violation persists will likely involve a fact-sensitive inquiry that the
Court does not reach in the instant decision.
28

*
♦

APPENDIX F

>

NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-0382-10T2
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
ROY L. RAMBO, JR.,
Defendant-Appellant.
Submitted January 16, 2013 - Decided February 13, 2013
Before Judges Simonelli and Accurso.
On appeal from the Superior Court of New
Jersey,
Law
Division,
Warren
County,
Indictment No. 02-12-0472.
Krakora,
Public
Defender,
Joseph
E.
attorney for appellant (Philip V. Lago,
Designated Counsel, on the brief).
Richard T. Burke, Warren County Prosecutor,
attorney for respondent (Tara Kirkendall,
Assistant Prosecutor, of counsel and on the
brief).
Appellant filed pro se supplemental briefs.
PER CURIAM
Defendant Roy L.

Rambo,

2010 Law Division order,
conviction relief (PCR).

Jr.

appeals

from the August 10,

which denied his petition for post­
We affirm.

(

On August 16,
his wife,

2002,

defendant was charged with murdering

and a related weapons offense.

the parties1

On August 23, 2002,

only son filed a probate action in the Chancery

Division, seeking to freeze his parents' assets pursuant to the
so-called "Slayer Statute," N.J.S.A. 3B:7-1 to -7.1

In an August

28, 2002 order, the Chancery court granted the relief requested.
Defendant subsequently filed a motion in the probate matter
for an order permitting the release of funds that were rightly
his

to

use

to

retain

an

attorney

to

represent

court determined that Jacobson v. Jacobson,
Div.

in

1997),

on which defendant

because it pre-dated N.J.S.A. 3B:7-1.
In re Estate of Karas,

192 N.J.

the
The

The Chancery court denied the motion.

criminal matter.

(App.

him

151 N.J. Super. 62

relied,

did not

apply

Citing to the statute and

Super.

107,

111-13

(Law Div.

1983), aff'd as modified, 197 N.J. Super. 642 (App. Div. 1984),
certif.

101 N.J.

denied,

defendant

would

not

be

228

(1985),

entitled

to

right to retain counsel of choice was
.

.

funds

if

convicted

of

The court determined that the

intentionally killing his wife.

give way .

the court reasoned that

"not absolute and must

[to] the fair and proper administration of [the

Slayer Statute]."

The court concluded that all funds would be

1 In 2002, the year the murder occurred, the Slayer Statute was
codified under N.J.S.A. 3B:7-1.
The Legislature repealed this
version of the statute effective February 27, 2005, and replaced
it with N.J.S.A. 3B:7-1.1.

2

A-0382-10T2

The

held in trust pending the outcome of the criminal matter.
court entered an order on November 7,

2003 memorializing its

Defendant appealed, but the appeal was dismissed for

decision.

failure to prosecute.2
Following a jury trial in the criminal matter,

defendant

was convicted of first-degree murder, N.J.S.A, 2C:ll-3a(1) ,
and

second-degree
N.J.S.A.

purpose,

possession

of

a

weapon

2C:39-4a.

On April

for

22,

an

2005,

(2),

unlawful
the

court

sentenced defendant to a forty-year term of imprisonment with
thirty years of parole ineligibility.

The court directed that

the eighty-five percent period of parole ineligibility pursuant
to the No Early Release Act

(NERA), N.J.S.A.

20:43-7.2, would

attach to the ten years remaining on defendant's sentence after
he had served the initial thirty-year mandatory minimum term.
Defendant

appealed

conviction

his

and

sentence.

He

asserted that the Chancery court's erroneous application of the
■

>

Slayer Statute to freeze his assets deprived him of his federal
and State constitutional rights to retain counsel of his choice.
We declined to address this argument, finding the issue was not
properly before us.
524

(App.

denied,

Div.),

556 U.S.

State v. Rambo, 401 N. J. Super. 506, 520

certif.
1225,

denied,

129

S.

Ct.

197 N.J.
2165,

258
173

L.

(2008),
Ed.

cert.

2d 1162

2 On March 6, 2009, we denied defendant's motion to vacate the
dismissal and reinstate the appeal.

3

A-0382-10T2

.

(2009).

We

affirmed

the

conviction,

but

remanded

for

sentencing to apply NERA to the entire forty-year sentence.

reId.

at 527.
On March 30, 2009, defendant filed a pro se PCR petition.
He argued that

the Chancery court misinterpreted and wrongly

applied the Slayer Statute and committed numerous other errors
that deprived him of his federal and State constitutional rights
to counsel of his choice; and the Slayer Act as applied to him
violated his federal and State constitutional rights.

He also

argued that the appointed public defender who represented him
pre-trial3 rendered ineffective assistance by failing to file a
motion to transfer the probate matter to the Law Division, thus
depriving him of his assets and right to use the assets
retain counsel of his choice.

to

He also claimed that a defective

verdict sheet denied him a fair trial.
PCR

counsel

was

subsequently

appointed

to

represent

Counsel filed a brief, arguing

defendant on the PCR petition.

the petition was not time-barred under Rule 3:22, and defendant
provided prima facie proof of ineffective assistance of counsel
warranting an evidentiary hearing.
On February 23, 2010, defendant filed a pro se motion for
bail pending the outcome of his PCR petition,
3

and a pro se

Defendant represented himself during the trial.

4

A-0382-10T2 :

motion to

dismiss the indictment with prejudice based on the

deprivation

his

constitutional

right

to

counsel

of

his

In an April 23, 2010 order and oral decision, the court

choice.
denied

of

the

bail

motion,

concluding

there

motion

to

dismiss

the

no

authority

The court also denied

permitting bail pending a PCR petition.
defendant's

was

indictment,

concluding

The court also found

defendant should have filed it pre-trial.

there was no basis to dismiss the indictment.
The Chancery matter was still pending at the time defendant
On

filed his PCR petition and motions in the criminal matter.
May 17,

2010,

the Chancery court entered a final order, which

ended the probate litigation.
that

the

Slayer

Statute

was

Defendant appealed.
ambiguous;

the

court
by

enjoining him from using his share of the marital assets;

the

and

applied

Chancery

statute

erroneously

unconstitutionally

the

He asserted

Chancery court erred by failing to defer to the Law Division;
and the Slayer Statute deprived him of his federal and State
constitutional rights to counsel of his choice.
Two months later,
opinion

on

in an August 10, 2010 order and written

defendant's

PCR

petition,

the

criminal

court

concluded defendant's arguments relating to the Chancery court's
decision were not properly before it.
that

Rule

3:22-5

barred

defendant's

The court also determined
defective

verdict

sheet

i

5

A-0382-10T2

argument,

which

had

been

adjudicated

on

the

merits

in

defendant's direct appeal.
Addressing
claim,

defendant's

the court

ineffective

assistance

of

counsel

found that because Rule 4:3-1(a)(2)

required

probate matters to be filed in the Chancery Division,

a motion

to transfer that matter to the Law Division would likely have
been denied.

The court also found that it lacked jurisdiction

over the Chancery court's decision,
assistance

and defendant's ineffective

claim based on that decision was premature.

This

appeal followed.
On

appeal,

appellate

counsel

raises

the

following

arguments:
POINT I

THE LOWER COURT ORDER MUST BE
REVERSED SINCE DEFENDANT RECEIVED
INEFFECTIVE ASSISTANCE OF PRE­
TRIAL COUNSEL.

POINT II

THE LOWER COURT ORDER MUST BE
REVERSED
SINCE THE
INDICTMENT
SHOULD HAVE BEEN DISMISSED.

POINT III

THE LOWER COURT ORDER MUST BE
REVERSED IN LIGHT OF ADDITIONAL
ERRORS.
THE LOWER COURT ORDER DENYING THE
PETITION MUST BE REVERSED SINCE
DEFENDANT'S
CLAIMS
ARE
NOT
PROCEDURALLY BARRED UNDER [RULE]

POINT IV

3:22-5.
POINT V

THE LOWER COURT ERRED IN NOT
GRANTING DEFENDANT'S REQUEST FOR
AN EVIDENTIARY HEARING AND THE
LOWER COURT ORDER MUST THEREFORE
BE REVERSED.

6

A-0382-10T2

In a pro se supplemental brief, defendant raises the following
arguments:
POINT I
THE PCR COURT ERRED BY DENYING [PCR] BECAUSE
DR. RAMBO MADE A PRIMA FACIE SHOWING THAT
THE CHANCERY COURT WRONGFULLY INFRINGED ON
HIS
RIGHT
TO
RETAIN
CRIMINAL[]DEFENSE
COUNSEL OF HIS CHOICE AS GUARANTEED BY THE
[U.S.
CONST.,
AMENDS. VI AND XIV; N, J.
CONST., ART. 1, PARS. 1, 10.]
POINT II
THE PCR COURT FAILED TO PROPERLY APPLY THE
PREJUDICE"
OF
"PRESUMPTION
AUTOMATIC
STANDARD LINKED TO A COUNSEL OF CHOICE
VIOLATION; INSTEAD IT APPLIED THE SECOND
PRONG OF THE INEFFECTIVE ASSISTANCE OF
COUNSEL
STA[N]DARD,
WHICH
REQUIRES
THE
DEFENDANT TO PROVE THE PREJUDICE.
POINT III
WHERE THE PCR COURT WAS PROVIDED WITH A COPY
OF THE FINAL CHANCERY DECISION, AND ALSO WAS
INFORMED THAT AN APPEAL FROM THAT ORDER HAD
BEEN FILED, THE PCR COURT ERRED BY FINDING
. THAT THE CHANCERY MATTER HAD NOT BEEN
FINALIZED.
THEREFORE
MATERIAL
EVIDENCE
SHOWING THAT DR. RAMBO HAD BEEN DEPRIVED OF
SUFFICIENT ASSETS NEEDED TO EXERCISE HIS
SIXTH AMENDMENT RIGHT TO RETAIN COUNSEL OF
HIS CHOOSING WAS NOT PROPERLY CONSIDERED.
POINT IV
THE PCR COURT ERRED BY ITS FAILURE TO FIND
THAT DR. RAMBO WAS UNEQUIVOCALLY DENIED DUE
PROCESS AND EQUAL PROTECTION UNDER THE LAW
AS GUARANTEED BY THE [U.S. CONST., AMEND.
XIV; N.J. CONST * / ART. 1, PAR. 1.]
POINT V

7

A-0382-10T2

*

THE
PCR
COURT
IMPROPERLY
APPLIED
THE
STANDARDS FOR [PCR], AND THEREBY DEPRIVED
DR. RAMBO OF THE OPPORTUNITY TO COLLATERALLY
ATTACK HIS CONVICTION.
POINT VI
THE PCR COURT ERRED BY FAILING TO ASSUME
JURISDICTION OVER THE DEFENDANT'S
ASSET
ISSUES.

POINT VII
PCR
COUNSEL,
[],
PROVIDED
INEFFECTIVE
ASSISTANCE OF COUNSEL IN THE PCR BRIEF BY:
A.
MERELY
LISTING THE
GROUNDS
RAISED IN THE DEFENDANT'S PRO SE
VERIFIED PETITION;
COPYING A FEW PARAGRAPHS FROM
B.
THE PROCEDURAL HISTORY FROM THE
DIRECT APPEAL BRIEFS;
C.
"CUTTING AND PASTING"
THREE
BOILER [] PLATE POINT HEADINGS AND
LEGAL ARGUMENT; AND/OR
D.
CITING NO FACTS OR CASE LAW IN
SUPPORT OF THE CLAIMS ADVANCED BY
THE DEFENDANT.
THIS DEFICIENT PERFORMANCE DOES NOT SATISFY
THE CONDUCT REQUIRED BY [STATE v. RUE] FOR
PCR
COUNSEL,
OR
THE
[STRICKLAND-FRITZ]
FOR
EFFECTIVE
ASSISTANCE
OF
STANDARDS
FURTHERMORE,
PCR
COUNSEL'S
COUNSEL.
DEFICIENT CONDUCT VIOLATED [RULE] 3:22-6(d),
WHICH REQUIRES A REMAND AND ASSIGNMENT OF
COMPETENT PCR COUNSEL BEFORE A DIFFERENT
TRIAL COURT.
(NOT RAISED BELOW).
POINT [VIII]
DR.
RAMBO
REITERATES
ALL CONSTITUTIONAL
CLAIMS ADVANCED IN COUNSEL'S BRIEF, IN THE

8

A-0382-10T2

PRO SE SUPPLEMENTAL BRIEF, IN THE MOTIONS TO
DISMISS AND FOR NOMINAL BAIL, AND DURING
ORAL ARGUMENTS OF THIS MATTER, AS IF SET
FORTH HEREIN AT LENGTH.
POINT [IX]
THE WAIVER OF COUNSEL WAS NOT VOLUNTARY
BECAUSE DR. RAMBO WAS FORCED TO FOREGO
APPOINTED COUNSEL IN ORDER TO ASSERT HIS
RIGHT TO COUNSEL OF HIS CHOICE.
POINT [X]
BECAUSE THE COUNSEL OF CHOICE CLAIM WILL
LIKELY EMERGE FOR A THIRD TIME ON REMAND FOR
A NEW TRIAL, THIS COURT SHOULD EXERCISE
ORIGINAL
JURISDICTION
TO
RESOLVE
THE
JURISDICTIONAL CONTROVERSY FOR APPLICATION
OF THE SLAYER'S ACT.
FURTHERMORE, IN THE
INTEREST[] OF JUSTICE, FUNDAMENTAL FAIRNESS,
AND
TO
PRESERVE
JUDICIAL
AND
TAXPAYER
RESOURCES,
THIS COURT SHOULD CRAFT THE
APPROPRIATE REMEDY AS A MATTER OF FIRST
IMPRESSION IN THIS STATE.
THE COURT SHOULD
THEN ORDER THE TRIAL COURT TO IMMEDIATELY
INCLUDING
REMEDIES,
THOSE
IMPLEMENT
DISMISSAL OF THE INDICTMENT WITH PREJUDICE
AND/OR NOMINAL BAIL.
Following the filing of this appeal,
opinion

in

defendant's

appeal

rendered

our

matter.

In re Estate of Linda Ann Rambo,

Div.),

certif.

denied,

212

N.J.

430

on June 4,
of

the

2012,

probate

A-5308-09

No.

We

(2012).

we

(App.

affirmed

substantially for the reasons expressed by the Chancery court.
We reasoned that "[a]s the Court made clear in

(slip op. at 9) .
Neiman

v.

Hurff,

11

doctrine codified in

the

observance

of

N.J.

55,

60-62

(1952),

[the Slayer Statute]

morality

and

9

justice

is

the

common

law

so essential to

[that

it]

has

been

A-0382-10T2

*

universally recognized in the laws of civilized communities for
centuries

and

is

defendant

"was

not

case.

as

old

as

equity.

denied competent

We

I it

counsel

concluded
in his

that

criminal

To permit defendant to use the proceeds of the marital

estate to pay the cost of private counsel would be a perversion
of

justice

and

in

direct

violation

of

the

public

expressed by the Legislature in N.J.S.A. 3B:7-5."
10-11) .

We

also

arguments,

including

determined
those

that

(slip op. at

defendant's

attacking

the

policy

Chancery

remaining
court's

decision as a denial of his constitutional right to counsel of
his choice,

"lack[ed]

in a written opinion.

sufficient merit to warrant a discussion
(slip op. at 11).

R. 2:11-3(e)(1)(E)."

We decline to address defendant's arguments in this appeal
The Chancery court's

relating to the Chancery court's decision.
decision is not properly before us,

and defendant's argument

relating to that decision were adjudicated on the merits in In
re Estate of Linda Ann Rambo.
Nor will we address defendant's argument relating to the
indictment and defective verdict sheet.
raised

these

addition,

arguments

on

direct

Defendant should have

appeal.

3:22-4.

In

defendant's challenge to the indictment was untimely,

and he showed no defect in the indictment.
(d) ;

R.

State v. Hogan,

144 N.J.

216,

228-29

R.

3:10-2 (c)

(1996).

and

Defendant

also cites no authority permitting bail pending the outcome of a

10

A-0382-10T2

*

t
PCR

petition.

We,

thus,

limit

our

review

to

defendant's

ineffective assistance of counsel claim.
A defendant seeking to vacate a conviction on grounds of
ineffective assistance
proving (1)
(2)

II t

II I

of

counsel

bears

the heavy burden of

that counsel1s performance was deficient[,]

I it

and

that the deficient performance prejudiced the defense[,]

meaning

it l

counsel's errors were so serious as

to deprive the

defendant of a fair trial, a trial whose result is reliable.
State v.

Fritz,

105 N.J.

42,

52

(1987)

I II

I n

(quoting Strickland v.

Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 2064, 80 L. Ed.
2d 674,

693

(1984) ) .

Prejudice is shown by proof creating "a

reasonable probability that,

but

for counsel's unprofessional

errors, the result of the proceeding would have been different."
Strickland, supra,

466 U.S. at 694,

104 S. Ct. at 2068,

80 L.

Ed. 2d at 698.
Defendant cannot prove either prong of the Strickland test.
This court has determined that defendant was not permitted to
use

the proceeds

of

the marital

at 10-11) .

to pay the

cost

of

In re Estate of Linda Ann Rambo

private counsel in this matter.
(slip op.

estate

Accordingly,

we conclude that pretrial

counsel was not ineffective for failing to file a motion to
transfer the probate matter to the Law Division.

Id. 466 U.S.

at 688, 104 S. Ct. at 2064, 80 L. Ed. 2d at 693; see also State
v.

Worlock,

117

N.J.

596,

625

11

(1990)

(holding

that

"[t]he

A-0382-10T2

A

»

failure

to

raise

unsuccessful

legal

arguments

does

not

constitute ineffective assistance of counsel").
We also conclude that defendant's remaining arguments are
without

sufficient; merit

opinion.

R. 2:11-3(e)(2).

to warrant

discussion

in a written

However, we make the following brief

comment.
PCR counsel did not render ineffective assistance by filing
an insufficient PCR brief.
arguments

on

without merit.

claims

Counsel was not required to advance

raised

by

defendant

that

were

State v. Webster, 187 N,J. 254, 257

clearly

(2006); R.

3:22-6(d).
I hereby certify that the foregoing
is a true copy of the original on
file in my office.

Affirmed.

ft

CLERK OF THE API

12

kTE DIVISION

A-0382-10T2

4

1

APPENDIX G

o

prospectivity. This is why the excep­
tions to the rule have been carefully
circumscribed. To consider an enact­
ment which “improves” the statutory
scheme (in itself a painfully subjective
determination) as meeting the curative
exception is at odds with the fundamen­
tal principal of fairness that new laws
should not affect situations which pre­
dated them.
[219 N.J.Super. at 289, 530 A2d 334.]
The third and final factor under Gib­
bons, supra, relates to the expectations of
the parties.. 86 N.J. at 523, 432 A2d 80.
Here, the parties’ expectations must be
gauged by the legal principles governing
the common law right of freedom to con­
tract prevailing during the time of the
accident.

(

N.J. 1075

STATE v. RAMBO
Cite as 951 A.2d 1075 (N.J.Super.A.D. 2008)

Plaintiffs accident occurred on April 13,
2004. Approximately four months earlier,
on January 21, 2004, we published our
decision upholding the enforceability of
step-down clauses in business auto policies.
Pinto v. N.J. Mfrs. Ins. Co., 365 N.J.Super. 378, 839 A 2d 134 (App.Div.2004),
ajfd, 183 N.J. 405, 874 A 2d 520 (2005).
The Supreme Court granted certification
on April 26, 2004,3 and affirmed our hold­
ing on June 6, 2005. Pinto, supra, |fi()fi183
N.J. 405, 874 A.2d 520. Thus, the prevail­
ing state of the law at the time of the
accident favors a prospective application of
the S-1666 amendment. In this light,
Federal Insurance had a reasonable basis
to believe that its contractual provisions
were proper and enforceable; by contrast,
plaintiffs prospect for success was depen­
dent upon overturning a published decision
of this court. Thus, it cannot be said that
the reasonable expectations of the parties
at the time of the accident favor retroac­
tive application of S-1666.
3. Pinto V. N.J. Mfrs. Ins. Co., 180 N.J. 151, 849

III
The judgment of the Law Division giv­
ing retroactive effect to N.J.S.A. 17:281.1(f) is reversed. Applying well-estab­
lished principles of statutory construction,
we hold that this statutory amendment
must be applied prospectively, commenc­
ing from the date of its passage by the
Legislature. Any UM/UIM claim predi­
cated upon an accident which predates the
adoption of N.J.S.A. 17:28-1.1(f) must be
governed by the legal principles articulat­
ed by the Supreme Court in Pinto, supra,
183 N.J. 405, 874 A.2d 520.
Reversed and remanded.

(O | KEY NUMBER SYSTEM >

V- S

401 N.J.Super. 506
STATE of New Jersey, PlaintiffRespondent,
v.
Roy L. RAMBO, Jr., DefendantAppellant.
Superior Court of New Jersey,
Appellate Division.
Argued March 5, 2008.
Decided July 22, 2008.
Background: Defendant was convicted in
the Superior Court, Law Division, Warren
County, of murder and possession of a
weapon for an unlawful purpose. He ap­
pealed.
Holdings: The Superior Court, Appellate
Division, Wefing, P.J.A.D., held that:
(1) jury instruction on passion/provocation
manslaughter was not warranted;
A.2d 184 (2004).

f

1076 n.j.

951 ATLANTIC REPORTER, 2d SERIES

(2) jury instruction on duty to retreat in
context of self defense was adequate;
(3) trial court acted within its discretion in
refusing to allow defendant to cross
examine witness to establish that wit­
ness would benefit financially from es­
tate of victim; and
(4) jury instruction on use of force in de­
fense of premises was not warranted.
Conviction affirmed; remanded for resentencing.
1. Homicide
Jury instruction on passion/provoca­
tion manslaughter was not warranted at
trial for murder, even though defendant
testified that victim, who was his wife,
made continued threats against his life,
that victim had something in her hand on
day of incident, and that he feared that
victim might have been going to retrieve a weapon; there was no evidence of anything
beyond victim’s words, as defendant did
not say that he saw any weapon in victim’s
hand on day of incident, and defendant
preemptively shot victim. N.J.S.A. 2C:114(b)(2).

the last two elements are subjective, i.e.,
whether the defendant was actually impas­
sioned and whether the defendant actually
did cool off before committing the fatal act.
N.J.S.A. 2C:ll-4(b)(2).
4. Homicide <©=1457
When considering a murder defen­
dant’s request to charge a jury on pas­
sion/provocation manslaughter, a trial
COurt must review the record before it in
the light most favorable to the defendant.
N.J.S.A. 2C:ll-4(b)(2).
5. Homicide
Threshold for a' jury instruction for
passion/provocation manslaughter is relatively low; the murder defendant need only
show a rational basis for a verdict convicting the defendant of the lesser-included
offense. N.J.S.A. 2C:ll-4(b)(2).
6. Homicide ©=’1457
A trial court -will not instruct a jury on
passion/provocation manslaughter as lesser
included offense of murder if the evidence
is so weak as to preclude jury consider­
ation. N.J.S.A. 2C:ll-4(b)(2).

2. Homicide ©=>668
Murder that is committed in the heat
of passion induced by a reasonable provocation is reduced to manslaughter,
N.J.S.A. 2C:ll-4(b)(2).

7. Homicide <^674
Words alone, no matter how offensive
or insulting, never constitute sufficient
provocation for purposes of passion/provo­
cation manslaughter. N.J.S.A. 2C.114(b)(2).

3. Homicide ©»667
Passion/provocation manslaughter has
four elements, which are (1) the provocation must be adequate, (2) the defendant
must not have had time to cool off between
the provocation and the slaying, (3) the
provocation must have actually impassioned the defendant, and (4) the defendant must not have actually cooled off
before the slaying; the first two elements
are objective, i.e., they are viewed from the
perspective of a reasonable person, while

8. Criminal Law ©=’1134.15
Appellate court would not consider
murder defendant’s argument that effect
of chancery orders freezing his assets and
denying him any access to marital funds
interfered with his Sixth Amendment right
to counsel; only appeal before appellate
court was from judgment of conviction,
analysis of defendant’s argument would inextricably require appellate court to either
uphold or reverse a determination made in
chancery that was not properly before it,

?

r

STATE v. RAMBO

n.j.

1077

Cite as 951 A.2d 1075 (N.J.Super.A.D. 2008)

and question of whether that determina­
tion was correct in context of defendant’s
desire to retain counsel was complex.
U.S.C.A. Const.Amend. 6.
9. Criminal Law ©=1134.24
Superior Court, Appellate Division,
only has jurisdiction to review orders that
have been appealed to it.
10. Homicide ©=1485
Jury instruction on duty to retreat in
context of self defense was adequate at
trial for murder despite lack of a definition
of “dwelling,” even though defendant
pointed to dual nature of premises in ques­
tion, which served both as defendant’s of­
fice and living quarters; there was no rea­
sonable prospect that jury could not have
understood that upper floor of house on
premises, which was where victim was shot
in alleged self defense, was defendant’s
dwelling and had been for some months,
and, moreover, the state never contended
that self defense was not an issue because
shooting did not occur in a dwelling.
N.J.S.A. 2C:3-4(b)(2).

ises where defendant shot her. N.J.S.A.
2C:3-6.

Marcia Blum, Assistant Deputy Public
Defender, argued the cause for appellant
(Yvonne Smith Segars, Public Defender,
attorney; Ms. Blum, of counsel and on the
brief).
Tara J. Kirkendall, Assistant Warren
County Prosecutor, argued the cause for
respondent (Thomas S. Ferguson, Prose­
cutor, attorney; Ms. Kirkendall, of counsel
and on the brief).
Appellant filed a pro se supplemental
brief.
Before Judges WEFING, PARKER,
and R.B. COLEMAN.
The opinion of the court was delivered
by
WEFING, P.J.A.D.

^oTried to a jury, defendant was con­
victed of murder, N.J.S. A 2C:113(a)(1),(2) and possession of a weapon for
11. Witnesses tS=372(2)
an unlawful purpose, N.J.S.A. 2C:39-4(a).
Trial court acted within its discretion The trial court sentenced defendant to for­
at murder trial in refusing to allow defen­ ty years in prison, thirty of which had to
dant to cross examine witness to purport­ be served before defendant could be eligi­
edly establish that witness would benefit ble for parole. The trial court specifically
financially from estate of victim, who was directed that the eighty-five percent parole
defendant’s wife; witness had no legal disqualification provisions of the No Early
claim to any assets of estate and thus had Release Act (“NERA”), N.J.S.A. 2C:43no direct pecuniary interest in it, and wit- 7.2, would attach to the ten years remain­
ness testified about her close relationship ing on defendant’s sentence after he had
with victim, such that it could be confiden­ served the initial thirty-year mandatory
tially said that witness’s antipathy to de­ minimum period. Defendant has appealed
fendant was apparent to jury.
his conviction and sentence. After review­
ing the record in light of the contentions
12. Homicide ©=1490
advanced on appeal, we affirm defendant’s
Jury instruction on use of force in
conviction but remand for re-sentencing.
defense of premises was not warranted at
The victim was defendant’s wife, to
trial for murder; victim, who was defen­
whom
he had been married for nearly
dant’s wife, was not a trespasser on prem-

«.

1078 n.j.

951 ATLANTIC REPORTER, 2d SERIES

thirty years. Defendant did not deny that
he shot and killed her but maintained that
he acted in self-defense. By its verdict,
the jury rejected that assertion.

(,

The couple had had a contentious rela­
tionship for some time. They had been
separated for nearly eighteen months at
the time of the shooting, which took place
in the late afternoon of August 16, 2002.
That, however, was. not their first separation. In 1996 they separated for approximately a year. During that separation,
|511defendant lived at the farm with his
then-girlfriend. After ab.out one year, de­
fendant and his wife decided to live together again, but defendant testified that it
was not a complete reconciliation. He explained that it was more aimed at providing time to get their financial affairs in
order so that they could eventually divorce
with fewer problems. He said that he
understood they had an agreement that
they were free to date other people during
this period. He freely availed himself of
that understanding and had several inti­
mate relationships, including one with a
member of his office staff.
In April 2001 they again separated. De­
spite that separation, the couple continued
their professional relationship, which they
had maintained for many years. Defen­
dant is a dentist, and had his office on the
lower level of a split-level house located at
409 Ohio Avenue in Pohatcong. Mrs.
Rambo continued to work in the office, as
she had for many years, working both as
dental assistant and handling patient billing and paying the bills received. When
they separated for the second time, defen­
dant moved into the main floor of 409 Ohio
Avenue while Mrs. Rambo remained at the
marital residence, a farm in Alpha. De­
fendant acknowledged that even after their
final separation they continued to attend
certain social occasions as a couple and

that many people did not know that, in
fact, they were separated.
Defendant testified that his relationships
with other women bothered Mrs. Rambo.
He said that from the time of their “recon­
ciliation” in 1996, she made constant
threats against him. He testified that after
moveci to the Ohio Street building,
ghe wouhj enter at all hours of the day or
night, that he would awaken during the
njght to find her standing over his bed
gestUring as if she had a gun. He said
thafc spe made constant threats to pour
gasoline over him as he slept and ignite a
fire. •
He testified about the events of the
weejc 0f t^e shooting. He said that on the
afternoon of August 12, he had been in the
break room -with one of the hygienists with
whom
admitted he had an intimate
relationship. He said Mrs. Rambo burst
into the room | B12and punched the hygienist
in the head. He tried to restrain Mrs.
Rambo, but she was kicking him and
shouting,
He testified that based upon that inci­
dent, he wanted to obtain a restraining
order against his wife but that when he
mentioned that the next day, the other
members of the staff persuaded him not to
do so, saying it would be bad for business.
He said that on the night of August 15,
she silently entered his room while he was
at the computer. She held a metal object
in her hand and made a click as if pulling a
trigger. She laughed and turned and left.
He testified that on the afternoon of
August 16, she stormed upstairs with a
letter she had come across, which indicat­
ed he was seeking to practice elsewhere.
He said that she was very angry, and told
him she was going to take care of him and
this would be the last day he left the house
alive. She then returned downstairs.
He continued that after the office closed
for the day, she again came upstairs, de-

r

/
\

STATE v. RAMBO

N.J. 1079

Cite as 951 A.2d 1075 (N.J.Super.A.D. 2008)

manding money. He said she was very
angry and continued to threaten to kill
him. He testified that he did not really
respond, other than refusing to give her
the money. He said he remained at his
computer, letting her, in his words, “vent.”
He said that when she turned to leave she
again said she was going to burn the house
down and that he was not getting out alive.
He explained he kept a gun in his room
because of her constant threats and re­
trieved the gun from where he kept it.
Putting it behind his back, he followed her
down the hall. He said she walked down
the stairs to the office area, turned and
began screaming at him again and said
this would be his last night. She turned
and headed to the door to the office and he
shot her in the back. He testified he was
“very scared” by her constant threats and
by the fact that when she got to the bot­
tom of the stairs, she did not go out of the
house but turned as if to go to the office.
He said he was afraid that she had hidden
a weapon in the office area. He also knew
there were many flammable substances in
the office.
Imgln response to a question as to his
intent when he shot her, defendant re­
sponded:
I just needed her to stop threatening me
and threatening everybody else, threat­
ening to lull me and my feeling was is
that she had a weapon right then and
there, or readily accessible and I just
didn’t want to die.
Asked if he intended to kill her, he said:
No. It was just to stop her. Just to
stop, stop the threats, and stop her from
doing harm to me and everybody else.
He said the fact that she walked into the
office area made him fear that she was
going for a weapon. He entered the room
and found her standing there. He contin­
ued,
I really can’t tell you what exactly she
was doing, but she was kind of like

coming at me. She had some things in
her hand. I didn’t know what they
were. She also was coming at me that
was—it wasn’t fast, but it gave me the
impression that she had something in
her hand. And all I did was, was try to
block her from coming at me. I thought
she was lunging at me. It wasn’t as if
she was coming, really fast, but she was
just kind of like leaning towards me.
And so what I did was I did the only
thing that I could think of, was just, I
tapped her on the top of the head with
the gun.
He admitted that after he retrieved the
gun and followed her down the hall, he
never told her to stop or warned her that
he had a gun. He simply took aim and
fired, shooting her in the back.
Immediately after the shooting, defen­
dant placed a call to 911 to report it and
advised the 911 operator that he had shot
■ his wife. Police responded immediately to
the scene. They found defendant sitting
on the outside front steps awaiting their
arrival. He was immediately advised of
his Miranda rights, Miranda v. Arizona,
384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694
(1966), and said, “She’s been harassing me,
harassing me, harassing me over and
over.”
Defendant was fully cooperative with the
police. He answered all their questions
and later that evening, reenacted the
shooting for them at the house. He told
them that their relationship had become
highly acrimonious and that Mrs. Rambo
had made repeated threats to burn the
house down and to kill him. He said that
her repeated threats had made him fear
for his safety and that he had purchased a
semiautomatic handgun for protection,
which he kept in his bed. He said that she
had come to him after |514the office had
closed for the day, demanding $200. He
said she repeatedly screamed at him that

A

1080 N.J.

951 ATLANTIC REPORTER, 2d SERIES

this was the last time he was going to treat
her like that.

DANT’S RIGHT TO DUE PROCESS
AND A FAIR TRIAL
POINT IV THE SENTENCE, WHICH
CALLS FOR DEFENDANT TO
SERVE 40 YEARS, 30 YEARS WITH­
OUT PAROLE, AND 85 PERCENT
OF THE REMAINING TEN YEARS
WITHOUT PAROLE, IS ILLEGAL

He said that she continued walking after
being shot, and he fired again, but the gun
jammed. He followed her into the office
area and struck her in the head with the
gun, fracturing her skull. At that point,
the gun discharged a bullet, which entered
the wall. Dr. Rambo pointed out where he
I
had been standing when he shot his wife; •
' [1-3] Murder that is committed in the
a shell casing was found there.
heat of passion induced by a reasonable
As we noted, there was testimony that provocation is reduced to manslaughter.
earlier in the day Mrs. Rambo became State v.
Josephs, 174 N.J. 44, 103, 803
agitated when she found a letter which A.2d 1074 (2002); N.J.S.A. 2C:11—4(b)(2).
indicated that defendant was seeking posi­ The elements of passion/provocation man­
tions with another dental practice in a slaughter are well-known.
different area. There was also testimony
Passion/provocation manslaughter has
that defendant was very quiet and distant
four elements: the provocation must be
during the day, which was not his usual
adequate; the defendant must not have
demeanor in the office. Defendant agreed
had time to cool off between the provo­
that Mrs. Rambo had come up demanding
cation and the slaying; the provocation
money, saying she wanted $200 to get him
must have actually impassioned the de­
arrested. He understood this to be in
fendant; and the defendant must not
reference to the altercation in the office
have actually cooled off before the slayearlier that week and declined to give her
ing.
the money.
[State v. Viera, 346 N.J.Super. 198, 212,
Defendant raises the following argu­
787 A.2d 256 (App.Div.2001) (quoting
ments on appeal:
State v. Mauricio, 117 N.J. 402, 411, 568
A2d 879 (1990)), certif. denied, 174 N.J.
POINT I THE COURT’S REFUSAL
TO CHARGE PASSION-PROVOCA­
38, 803 A.2d 634 (2002).]
TION MANSLAUGHTER AS A The first two elements are objective; that
LESSER OFFENSE OF MURDER is, they are viewed from the perspective of
VIOLATED DEFENDANT’S CON­ a reasonable person, while the last two
STITUTIONAL RIGHT TO DUE elements are subjective; that is, whether
PROCESS AND A FAIR TRIAL
the defendant was actually impassioned,
POINT II DEFENDANT WAS DE­ and whether the defendant actually did
NIED HIS STATE AND FEDERAL cool off before committing the fatal act.
CONSTITUTIONAL
RIGHTS
TO Id. at 212-13, 787 A.2d 256. “The first
COUNSEL OF CHOICE AND DUE element of passion-provocation manslaugh­
ter requires an objective showing of ade­
PROCESS OF LAW
POINT III THE INADEQUATE quate provocation. The provocation must
CHARGE ON THE DUTY TO RE­ be sufficiently extreme so as to cause a
TREAT RENDERED THE SELF- reasonable person to lose ‘mastery of his
1 »
DEFENSE INSTRUCTION FATAL­ [or her] understanding.... State v. CoLY FLAWED, VIOLATING DEFEN- pling, 326 N.J.Super. 417, 429, 741 A.2d

r

(

N.J. 1081

STATE v. RAMBO
Cite as 951 A.2d 1075 (N.J.Super.A.D. 2008)

624 (App.Div.1999) (quoting State v. Pratt,
226 N.J.Super. 307, 317, 544 A2d 392
(App.Div.), certif. denied, 114 N.J. 314, 554
A2d 864 (1988)), certif. denied, 164 N.J.
189, 752 A.2d 1290 (2000).
[4-6] When considering a defendant’s
request to charge the jury on passion/provocation, the trial court must review the record before it in the light most
favorable to the defendant. State v. Castagna, 376 N.J.Super. 323, 357, 870 A.2d
653 (App.Div.2005), rev’d on other
grounds, 187 N.J. 293, 901 A.2d 363 (2006).
The threshold for a jury instruction for
passion-provocation manslaughter is rel­
atively low. The defendant need only
show a rational basis for a verdict con­
victing the defendant of the lesser-included offense. However, the judge will
not so instruct the jury if the evidence is
so weak as to preclude jury consider­
ation.
[Copling, supra, 326 N.J.Super. at 428,
741 A. 2d 624 (citations and internal quo­
tation marks omitted).]
[7] “[W]ords alone, no matter how of­
fensive or insulting, never constitute suffi­
cient provocation.” Castagna, supra, 376
N.J.Super. at 357, 870 A. 2d 653. Several
cases have, nonetheless, recognized that a
course of conduct over a period of time
may | ^constitute sufficient provocation.
State v. Erazo, 126 N.J. 112, 124, 594 A.2d
232 (1991) (stating that “continuing strain
in a marriage fraught with violence” may
constitute sufficient provocation); State v.
Guido, 40 N.J. 191, 211, 191 A2d 45 (1963)
(holding that “[A] course of ill treatment
which can induce a homicidal response in a
person of ordinary firmness and which the
accused reasonably believes is likely to
continue, should permit a finding of provo­
cation.”); State v. Vigilante, 257 N.J.Su­
per. 296, 305-06, 608 A. 2d 425 (App.Div.
1992) (finding that jury could conclude that
past history of violence “accumulated a

detonating force which caused him to explode”).
We are satisfied, nonetheless, that the
record presented here is sufficiently distinguishable from those cases. In Guido and
Vigilante, for instance, the defendants had
been subjected to physical abuse at the
hands of their ultimate victims. In Erazo,
defendant contended he killed his wife in
the heat of passion when she said she
would seek to have his parole revoked on
the basis of a fabrication; she had previously threatened to report him to parole
authorities. 126 N.J. at 124, 594 A.2d 232.
Here, although defendant testified that
his wife made continued threats against his
life, there was no evidence of anything
beyond her words. The record indicates,
for instance, that when defendant left the
marital residence, he left on the premises
his gun cabinet to which she had ready
access. He did not say that he saw any
weapon in her hand on the day he shot
her, only that he did not know what was in
her hand. (According to the record, her
keys, a pair of sunglasses and a Tupperware container were found beneath her
body.) His stated fear that she might be
going to retrieve a weapon cannot, in our
judgment, constitute reasonable provoca­
tion for purposes of a passion/provocation
instruction. The law should not have the
effect of benefiting one who takes such a
fatal pre-emptive action. State v. Rodriguez, 195 N.J. 165, 949 A.2d 197 (2008)
(“We will not sanction the gratuitous use
of deadly force. ...”).
JaTll
[8] Defendant’s next argument re­
quires that we set forth certain additional
facts, about events which occurred after
the shooting of August 19. Defendant and
his wife had accumulated through the
years substantial assets, the great bulk of

r

1082 N.J.

951 ATLANTIC REPORTER, 2d SERIES

which, despite the continuing discord be­
tween defendant and his wife, were held in
joint names. The couple’s primary assets
were real estate: the house in Pohatcong
in which defendant maintained his dental
practice and the marital residence in Al­
pha, which was located on eleven acres of
land. Both of these were held as joint
tenants by the entirety. The couple also
owned a parcel of land in North Carolina
and a time-share in North Carolina, again
in joint names.
Several days after the shooting, the cou­
ple’s only child, Bruce, filed an order to
show cause in the Chancery Division seek-'
ing to be appointed as administrator of his
mother’s estate, which he estimated at ap­
proximately three million dollars. On Au­
gust 23, 2002, the court entered an order
appointing Bruce Rambo administrator of
the estate. The order included the follow­
ing provision:
It is further ordered that (1) all assets
of Roy L. Rambo will be frozen, wherev­
er located; (2) Roy L. Rambo or any of
his agents or representatives is enjoined
from entering onto any property owned
either jointly or individually by Roy L.
Rambo and Linda Ann Rambo; and (3)
Roy L. Rambo is enjoined from expend­
ing any sums of money owned individu­
ally or as a marital asset....
On September 4, 2002, defendant sub­
mitted an application to be represented by
the Public Defender’s Office, but it was
denied the following day on the ground
that he was not indigent. On October 9,
2002, the trial court presiding over the
criminal proceedings entered an order de­
claring defendant indigent and entitled to
representation by the Office of the Public
Defender.
1. NJ.S.A. 3B:7-1 and -2 were in effect at the
time of the shooting. They have since been
repealed and replaced by NJ.S.A. 3B:7-1.1

In October 2002 the attorney represent­
ing Bruce Rambo as administrator of his
mother’s estate submitted a letter brief to
the Chancery judge, setting forth the es­
tate’s position with respect to ownership of
the marital property. He contended that
all property acquired by Dr. Rambo and
his wife since the date of their marriage in
1973 should be deemed “marital property,”
one-half of |518which belonged to the dece­
dent and one-half of which belonged to
defendant. The attorney argued that
Bruce, as the only child of the decedent,
succeeded to her one-half interest in the
marital property and that the remaining
one-half of the marital property should be
held in a constructive trust pending com­
pletion of the criminal proceedings in the
Law Division. In support of his argument,
he cited N.J.S.A. 3B:7-1 and -2 (the “slay­
er statutes”)1 and In re Estate of Karas,
192 N.J.Super. 107, 469 A2d 99 (Law Div.
1983), offd as modified, 197 N.J.Super.
642, 485 A 2d 1083 (App.Div.1984), certif.
denied, 101 N.J. 228, 501 A.2d 907 (1985).
In November 2002 defendant appeared
without counsel in Chancery in connection
with the estate proceedings. He advised
the court that he had no funds to hire an
attorney to represent him in connection
with the probate proceedings and did not
wish the public defender assigned to him
to be involved in the probate proceedings.
The Chancery judge at several points
clearly indicated to defendant that he
would look favorably upon an application
to have funds released for the purpose of
retaining an attorney for the estate mat­
ters. Defendant did not make such an
application at that time.
He did, however, in July 2003, through
counsel, file a petition in the Chancery
Division for an order directing release of
to -7.7. The amended statute does not affect
the analysis.

r

N.J. 1083

STATE v. RAMBO
Cite as 951 A.2d 1075 (N.J.Super.A.D. 2008)

funds to permit him to retain an attorney
to defend him in the criminal proceedings.
According to the papers submitted on his
behalf, he sought to have one-half the pro­
ceeds of the sale of the marital assets
deposited in a constructive trust, to be
held pending the completion of the crimi­
nal proceedings. From that one-half, he
sought one-half, to permit him to retain
William Harth, Esq., a certified criminal
defense attorney, to represent him on the
criminal charge. He did not make any
contention that he had funds in his own
name, individually, to which he should have
• been permitjted519 access. Defendant’s son
opposed that application. After a hearing,
the court denied his motion and refused to
release any funds to him.
Defendant filed an appeal from that or­
der and, in connection with that appeal,
filed a motion to be declared an indigent,
for free transcripts, and to have counsel
assigned to represent him. His motion to
proceed as an indigent was granted but
the motion for free transcripts and counsel
was denied. Defendant did not attempt to
prosecute the appeal without transcripts,
and it was ultimately dismissed.
Defendant did not have a successful re­
lationship with the several attorneys as­
signed from the Public Defender’s Office
to represent him on the criminal charges.
The last attorney filed a motion to be
relieved as counsel. During the course of
that motion the trial court stated, “I am
now convinced that no matter what this
court does Dr. Rambo will not cooperate
with any attorney.” That motion was
granted. Thus defendant represented
himself at this murder trial, with the assis­
tance of stand-by counsel who was appoint­
ed to assist him.
Defendant argues that the effect of the
Chancery orders freezing his assets and
denying him any access to marital funds
interfered with his Sixth Amendment right

to counsel. He relies upon United States
v. Gonzalez-Lopez, 548 U.S. 140, 126 S.Ct.
2557, 165 L.Ed.2d 409 (2006), in which the
Supreme Court concluded that a defendant
wrongfully deprived of the counsel of his
choice was entitled to a new trial, without
the necessity of showing that the attorney
who represented him was ineffective under
the two-pronged test of Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984).
In Gonzalez-Lopez, the defendant was
charged in Missouri federal court with con­
spiracy to distribute a controlled danger­
ous substance. He retained California
counsel to represent him, but the District
Court incorrectly denied the application of
that attorney to be admitted pro hac vice.
Indeed, it not only denied such admission,
it refused to permit that attorney to sit at
counsel tableland refused to permit local
counsel to consult that attorney during the
course of the trial. 548 U.S. at 148, 126
S.Ct. at 2560, 165 L.Ed.26. at 416. In
reversing defendant’s conviction, the Court
concluded, “In sum, the right at stake here
is the right to counsel of choice, not the
right to a fair trial; and that right was
violated because the deprivation of counsel
was erroneous, No additional showing of
prejudice is required to make the violation
Id. at 146, 126 S.Ct. at 2562,
‘complete.
165 L.Ed.2d at 418 (footnote omitted).
1 JJ

There is a fundamental procedural dis­
tinction between Gonzalez-Lopez and de­
fendant’s appeal. In Gonzalez-Lopez, the
orders which had the effect of depriving
defendant of the counsel of his choice were
entered in connection with the same mat­
ter that was under appeal. The only ap­
peal before this court is from the judgment
of conviction. He did not include in his
Notice of Appeal the orders entered in the
Chancery Division and, indeed, his earlier
filed appeal from those orders was dis­
missed.

z'"

f

1084 n.j.

951 ATLANTIC REPORTER, 2d SERIES

[9] It is a fundamental of appellate
practice that we only have jurisdiction to
review orders that have been appealed to
us. N.J. Div. of Youth & Family Sews. v.
K.M., 136 N.J. 546, 561-62, 643 A.2d 987
(1994) (holding that the Appellate Division
could not review a judgment not before it
when a related case had been appealed);
1266 Apartment Corp. v. New Horizon
Del% Inc., 368 N.J.Super. 456, 459, 847
A 2d 9 (App.Div.2004) (stating that “[0]nly
the judgment or orders designated in the
notice of appeal ... are subject to the
appeal process and review.”).

(

Critical to the Court’s conclusion in Gonzalez-Lopez that defendant had been
wrongfully denied the counsel of his choice
was the fact that the denial of admission
pro hac vice to his counsel of choice had
been incorrect. Analysis of defendant’s
claim to us would inextricably require that
we either uphold or reverse a determina­
tion made in Chancery which is not prop­
erly before us.
The question whether those determina­
tions were correct in the context of defen­
dant’s desire to retain counsel is complex.
It requires a close analysis of the statutory
language, the legislative l.^igoals sought to
be achieved by the statute and the proper
balance to be given to defendant’s choice
of counsel. It also involves a consideration
of the competing policy goals of not per­
mitting a wrongdoer to receive a benefit
from the wrongful act and requiring the
taxpaying public to assume the cost of a
legal defense when private funds might be
available. We do not consider it inappro­
priate in such an instance to insist that
proper appellate practice be followed. Fi­
nally, we also note that defendant made no
effort, after his request for free transcripts
was denied, to prepare and file a brief
setting forth his legal position at that junc­
ture, arguing that transcripts were unnec­
essary to resolve the purely legal issue.

ill
[10] Defendant’s next argument re­
lates to one aspect of the trial court’s
charge on self-defense; specifically, the
trial court’s failure, in the course of deal­
ing with whether there was a duty to
retreat, to define “dwelling.” The trial
court instructed the jury in the following
manner:
Self-defense exonerates a person who
uses force if in the reasonable belief that
such action was necessary to prevent his
death or serious injury, even though the
belief was later proven to be mistaken.
Accordingly, the law requires only rea­
sonable, not necessarily correct, judg­
ment.
Even if you find that the use of deadly
force was reasonable, there are limita­
tions on the use of deadly force. If you
find that the defendant, for the purpose
of causing death or serious bodily harm
to another person, provoked or incited
the use of force against himself in the
same encounter, then the defense is not
available to him.
If you find that the defendant knew
that he could avoid the necessity of us­
ing deadly force by retreating, provided
that the defendant knew he could do so
with complete safety, then that defense
is not available to him. An exception to
the rule of retreat, however, is that a
person need not retreat from his or her
own dwelling, including a porch, unless
he or she is the initial aggressor.
This instruction correctly told the jury
that defendant did not have to retreat
before resorting to deadly force if he was
faced with the prospect of death or serious
injury in his own dwelling but that he
would have the duty to retreat, even in his
own dwelling, if he were the initial aggressor. N.J.S.A. 2C:3—4(b)(2).

c

STATE v. RAMBO

N.J. 1085

Cite as 951 A.2d 1075 (N.J.Super.A.D. 2008)

| .^Defendant contends that the charge
as given was incomplete because the trial
court did not define for the jury the term
“dwelling.” He stresses the dual nature of
the premises at 409 Ohio Avenue, which
served both as his office and his living
quarters following the couple’s final sepa­
ration. We agree with the State that in
this case there is no reasonable prospect
that the jury could not have understood
that the- upper floor of this house was
defendant’s dwelling and had been for
some months. We note, moreover, that
the State never contended that self-de­
fense was not an issue because the shoot­
ing did not occur in a “dwelling.” The
charge as given was 'entirely adequate.
IV
Defendant also challenges the manner in
which the trial court structured his sen­
tence, which had the effect of extending
the period of time in which he would have
to remain incarcerated without being eligi­
ble for parole. The State agrees with
defendant that the parole ineligibility pro­
visions of NERA, N.J.S.A. 2C:43-7.2, ap­
ply to the whole term imposed for murder,
not just the period in excess of the manda­
tory thirty-year parole disqualifier which is
required for any sentence for murder.
N.J.SA. 2C:ll-3(b).
V
Defendant has filed a pro se supplemen­
tal brief in which he raises the following
issues:
POINT I A SERIES OF FLAWED
CIVIL TRIAL COURT ORDERS
CAUSED SIGNIFICANT “STRUC­
TURAL ERRORS” BY: WRONGFUL­
LY APPLYING N.J.SA. 3B:7-1 ET
SEQ. (“SLAYER’S ACT”); DEPRIV­
ING THIS DEFENDANT OF HIS FI­
NANCIAL RESOURCES; INFRING­
ING UPON HIS RIGHT TO RETAIN

THE COUNSEL OF HIS CHOICE;
AND DUE PROCESS RIGHT TO A
FAIR TRIAL; IN VIOLATION OF
THE UNITED STATES CONSTITU­
TION, AMENDS. V, VI, XIV, § 1;
AND THE NEW JERSEY CONSTI­
TUTION, ART. I, 11111 AND 10. (AD­
DENDUM TO COUNSEL’S BRIEF
POINT II)
POINT II THE ERRONEOUS CRIM­
INAL TRIAL COURT ORDER TO
DECLARE DEFENDANT AS AN
“INDIGENT” PREJUDICED DEFENDANT’S UPRIGHT TO COUN­
SEL AND INFRINGED ON HIS
ABILITY TO RETAIN PRIVATE
COUNSEL
POINT III TOTAL FORFEITURE OF
DEFENDANT’S ASSETS PURSUANT
TO N.J.S.A. 3B:7-1 ET SEQ. CONSTI­
TUTES PUNISHMENT AND IN­
FRINGEMENT ON THE UNITED
STATES CONSTITUTION, AMEND­
MENT VIII AND THE NEW JERSEY
CONSTITUTION, ART. 1, H 12 PRO­
HIBITIONS AGAINST EXCESSIVE
FINES; AND INTIMATES THAT
FURTHER CRIMINAL PROSECU­
TION VIOLATED THE UNITED
STATES CONSTITUTION, AMENDS.
VI, XIV AND THE NEW JERSEY
CONSTITUTION, ART. 1, H111 AND 11
(DOUBLE JEOPARDY AND DUE
PROCESS OF LAW CLAUSES) (Not
Raised Below)
POINT IV THE DEFENDANT’S
WAIVER OF COUNSEL (PREDICAT­
ED UPON THE ERRONEOUS DE­
PRIVATION OF HIS ASSETS) WAS
NOT A VALID “KNOWING, INTEL­
LIGENT AND VOLUNTARY WAIV­
ER” OF HIS SIXTH AMENDMENT
RIGHT TO COUNSEL
POINT V THE DEFENDANT’S
RIGHT TO DUE PROCESS OF LAW
WAS VIOLATED BY THE TRIAL
COURT’S DENIAL OF DEFENSE

.

(

(

1086 N.J.

951 ATLANTIC REPORTER, 2d SERIES

MOTION TO SEQUESTER LIEU­
TENANT DALRYMPLE AS A PO­
TENTIAL STATE’S WITNESS, PER­
MITTING HIM TO BE SEATED AT
THE PROSECUTION TABLE DUR­
ING THE ENTIRE TRIAL PROCESS,
THEREBY CAUSING PREJUDICE
TO THE DEFENDANT IN VIOLA­
TION OF THE UNITED STATES
CONSTITUTION, AMEND.
XIV;
AND THE NEW'JERSEY CONSTI­
TUTION, ART. 1,111
POINT VI THE DEFENDANT’S
RIGHT TO DUE PROCESS OF LAW
WAS VIOLATED BY THE TRIAL
COURT’S ABUSE OF DISCRETION
TO DISALLOW CROSS-EXAMINA­
TION OF STATE’S' WITNESS AS TO
BIAS AND FINANCIAL INTEREST
IN THE OUTCOME OF THE TRIAL,
IN VIOLATION OF THE UNITED
STATES CONSTITUTION, AMEND.
VI; AND THE NEW JERSEY CON­
STITUTION, ART. 1,1110
POINT VII THE CRIMINAL TRIAL
COURT COMMITTED HARMFUL
ERROR BY FAILING TO TAILOR
THE JURY CHARGES TO THE
FACTS OF THE CASE
POINT VIII THE TRIAL COURT’S
FAILURE TO GRANT DEFEN­
DANT’S REQUEST FOR A JURY IN­
STRUCTION ON THE AFFIRMA­
TIVE DEFENSE OF PREMISES
DENIED DEFENDANT OF HIS
CONSTITUTIONAL RIGHTS TO A
FAIR TRIAL AND DUE PROCESS
OF LAW AS GUARANTEED BY
THE UNITED STATES CONSTITU­
TION, AMENDS. VI, XIV; AND
THE NEW JERSEY CONSTITU­
TION, ART. 1, 11111, 9, 10
POINT IX PRETRIAL INEFFEC­
TIVE
ASSISTANCE
BY
THE
COUNSEL
COURT-APPOINTED
AND MULTIPLE ADDITIONAL TRI-

AL ERRORS DEPRIVED THE DE­
FENDANT OF A FAIR TRIAL
POINT X THE DEFENDANT’S
RIGHT TO DUE PROCESS OF LAW
AS GUARANTEED BY THE FOUR­
TEENTH AMENDMENT TO THE
UNITED STATES CONSTITUTION
AND ART. 1, U'l OF THE NEW JER­
SEY CONSTITUTION WAS VIOLAT­
ED BY THE ACCUMULATION OF
TRIAL ERRORS (Partially Raised Below)
|fiatPOINT XI THE SENTENCE IM­
POSED DOES NOT PROPERLY AP­
PLY THE NERA PERIOD OF PA­
ROLE INELIGIBILITY PURSUANT
TO N.J.S.A. 2C:43-7.2 (ADDENDUM
TO COUNSEL’S BRIEF POINT IV)
POINT XII THE TRIAL JUDGE IN­
FRINGED ON DEFENDANT’S EF­
FECTIVE ASSISTANCE OF COUN­
SEL BY RESTRICTIONS PLACED
UPON STAND-BY COUNSEL
The first four points of defendant’s pro
se supplemental brief are various chal­
lenges to the orders entered in the Chan­
cery Division with respect to the refusal to
release funds to defendant to retain crimi­
nal defense counsel. As we noted earlier,
those orders are procedurally not before
us, and we decline to address the question.
In his next point, defendant asserts that
the fact that Lieutenant Dalrymple of the
Warren County Prosecutor’s Office was
permitted to sit at counsel table during the
trial deprived him of due process. We are
uncertain as to how defendant was preju­
diced by Lieutenant Dalrymple’s physical
presence. There is no merit to his sugges­
tion that the jury would have considered
the State’s case more worthy because two
people sat at counsel table. The jury
could just as easily have concluded that
the State’s case was weak and required
two persons at counsel table. And, since
Lieutenant Dalrymple did not testify dur-

* ft

r ■

STATE v. RAMBO

N.J. 1087

Cite as 951 A.2d 1075 (N.J.Super.A.D. 2008)

'v,

ing the course of the trial, there is no
merit to the contention that he should have
been sequestered.

mentally a simple one: did defendant act
in self-defense when he shot and killed his
wife.

[11] The State called to the stand Jes­
sica Lukachek, the girlfriend of Bruce
Rambo, only son of defendant and his de­
ceased wife. Defendant sought to crossexamine Ms. Lukachek to establish that
she would benefit financially from the es­
tate of his deceased wife. Defendant con­
tends that the trial court’s refusal to per­
mit such cross-examination deprived him
of due process. We disagree. The trial
court was correct that Ms. Lukachek had
no legal claim to any of the assets in the
estate and thus had no direct pecuniary
interest in it. Additionally, Ms. Lukacheck testified about her close relationship
with Mrs. Rambo; we are confident her
antipathy to defendant was apparent to the
jury. The scope of cross-examination
rests within the sound discretion of the
152strial court, and the trial court did not
abuse that discretion in its rulings in this
regard. State v. Petillo, 61 N.J. 165, 169,
293 A2d 649 (1972), cert, denied, 410 U.S.
945, 93 S.Ct. 1393, 35 L.EdL2d 611 (1973);
Casino Reinvestment Dev. Auth. v. Lustgarten, 332 N.J.Super. 472, 492, 753 A. 2d
1190 (App.Div.), certif. denied, 165 N.J.
607, 762 A. 2d 221 (2000).
Defendant’s next contention is that the
trial court erred in not tailoring its jury
charge to the facts of the case. Defen­
dant’s brief stresses the importance of a
trial court molding its charge to reflect the
facts of the case at hand. State v. Robinson, 165 N.J. 32, 754 A.2d 1153 (2000).
That principle cannot be gainsaid. Defen­
dant, however, does not demonstrate how
that principle was violated here; i.e., in
what areas of the charge, more specificity
was called for. Despite the length of the
trial (and the extensive number of tran­
scripts supplied to us in connection with
this appeal), the issue at trial was funda-

[12] Defendant’s next contention is
that the trial court committed reversible
error when it declined to give an instruc­
tion to the jury on the use of force in
defense of premises. N.J.S.A. 2C:3-6. We
disagree. The statute refers to the use of
force “to prevent or terminate what [the
actor] reasonably believes to be the com­
mission or attempted commission of a
criminal trespass by such other person in
or upon such premises.” Defendant’s wife,
however, was not a trespasser; she was a
co-owner of the property, a staff member
of the business and had keys, permitting
her entry as she wished.
In defendant’s next contention, he as­
serts that he was deprived of the effective
assistance of counsel at various points in
the proceedings. We decline to address
these complaints on this direct appeal.
Contentions of ineffective assistance of
counsel are more effectively addressed
through petitions for post-cohviction relief,
at which point an appropriate record may
be developed. State v. Preciose, 129 N.J.
451, 460, 609 A.2d 1280 (1992).
_[ssDefendant includes within this point
heading an argument that several of the
trial court’s evidentiary rulings deprived
him of fair trial. None of the challenged
rulings were an abuse of the wide discre­
tion vested in the trial court and provide
no basis to overturn the judgment.
Defendant also notes that immediately
prior to the trial court commencing its
charge, it made the following remark to
the jury: “I understand Mrs. Romagnoli
[the court clerk] indicated at one time you
wanted a side-bar with me, but we never
went that far.” Defendant complains that
neither party was ever informed during
the trial that at least one member of the

f

1088 n.j.

951 ATLANTIC REPORTER, 2d SERIES

jury wanted to speak to the trial court and
that the denial of that request denied him
a fair trial. There is no support for such a
conclusion. Although the remark may be
somewhat cryptic, it is important to see it
in context. The entire statement was:
Also, you know during the course of
the trial I was required to make certain
rulings on admissibility, referred to as
side-bars, and I understand Mrs. Romagnoli indicated at one time you want­
ed a side-bar with me, but we never
went that far.
We consider defendant’s contention that
the trial court refused to respond to an
inquiry from the jury to be wholly specula­
tive and not warranted from the context.

er, we only have jurisdiction over defen­
dant’s criminal appeal.
Having found no error, we reject defen­
dant’s invocation of the principle of cumu­
lative error.
Defendant makes a generalized com­
plaint, without any specific references, that
the trial court placed improper restrictions
on stand-by counsel. We decline to comb
the record searching for any examples,
indeed if any exist. Our review of the
record indicates no instances in which de­
fendant was not permitted to consult
stand-by counsel when he wished to do so.
Defendant was not entitled, however, • to
have stand-by counsel assume an active
courtroom role in his defense.

Defendant also complains of several re­
marks by the prosecutor in her summa­
tion. Those comments addressed to defen­
dant’s admitted infidelities were proper
comments upon the evidence. Defendant
complains that the prosecutor in her sum­
mation misstated the law with respect to
self-defense. The jury was repeatedly told
that the instructions of the court on the
legal issues were binding, not any com­
ments the attorneys might have made in
summation. The court’s instructions on
self-defense were accurate and corrected
any misimpression that may have been
conveyed by the summation.

Defendant’s conviction is affirmed. The
matter is remanded to the trial court for
resentencing.

Defendant also complains that the trial
court’s charge on murder was defective
because it precluded the jury from consid­
ering self-defense. There is no merit to
the claim; the jury was fully instructed on
the law governing self-defense. Nor is
there any |s27merit to the remainder of his
arguments with respect to the court’s
charge.

Superior Court of New Jersey,
Appellate Division.

Defendant complains of the denial of his
request for free transcripts in connection
with his attempt to appeal from orders of
the Chancery Division. As we noted earli-

NWBER SYSTEM^

401 NJ.Super. 527
STATE of New Jersey, PlaintiffRespondent,
v.

V.D., Defendant-Appellant.

Argued May 21, 2008.
Decided July 23, 2008.
Background: Defendant pleaded guilty in
the Superior Court, Law Division, Somer­
set County, to two counts of possession of
a false document, and she was placed on
probation with a special condition that she
notify the Bureau of Immigration and Cus­
toms Enforcement (ICE) of her conviction
within 90 days. Defendant appealed.

♦

\

APPENDIX H

4

In re Estate of Rambo, Not Reported in A.3d {2012}
2012 WL 1969954

r

2012 WL 1969954
Only the Westlaw citation is currently available.
UNPUBLISHED OPINION. CHECK
COURT RULES BEFORE CITING.
Superior Court of New Jersey,
Appellate Division.
In the Matter of the ESTATE OF
Linda Ann RAMBO, Deceased.
Submitted Sept. 14, 2011.

2005 Bruce Rambo filed a wrongful death and survivor
action against defendant on behalf of himself and as
representative of his mother's estate. On July 6, 2005,
the Law Division in Somerset County entered judgment
against defendant in the wrongful death suit and awarded
plaintiffs $6,310,000 in damages.
In this appeal, defendant challenges an order entered
by the Chancery Division on May 17, 2010 equitably
distributing the assets of his former marital estate.
Defendant argues that the court misapplied the Slayer
Statute and improperly prevented him from accessing
funds that were rightly his, resulting in the deprivation of
his Sixth Amendment right to counsel of his choice in the
criminal case.

Decided June 4, 2012.
On appeal from Superior Court of.New Jersey, Chancery
Division, Warren County, Docket No. P—02—438-D.
Attorneys and Law Firms
Roy L. Rambo, Jr., appellant pro se.

l

Florio Perrucci Steinhardt & Fader, LLC, attorneys for
respondent Bruce M. Rambo (Christian M. Perrucci, of
counsel; Veronica P. Hallett, on the brief).
Before Judges FUENTES and GRAVES.
Opinion
PER CURIAM.
*1 In 2002, defendant Roy L. Rambo, Jr. was indicted
and charged with murdering his wife Linda Ann Rambo.
While defendant was awaiting trial on this criminal
charge, Bruce M. Rambo, defendant and decedents only
son, obtained an order from the Chancery Division
„ 1 restraining
pursuant to the so-called “Slayer Statute,
defendant from utilizing any assets from the marital estate
to fund his criminal defense. The court appointed Bruce
Rambo administrator of his mother's estate, and the
matter proceeded in the Chancery Division from 2002
through 2005.
Defendant was tried before a jury and, on February 9,
2005, was convicted of murdering his wife. The court
sentenced him to a term of forty years, with thirty years
of parole ineligibility. ^ Although the exact date of filing
is not clear in the record, sometime between 2002 and

We affirm.

I
Defendant and decedent married in 1973. After
graduating from dental school in 1977, defendant
established a dental practice in the Township of
Pohatcong; decedent served as a dental assistant and
bookkeeper in the office. During the marriage, defendant
and decedent acquired several parcels of real estate in
New Jersey (referred to as “the Ohio Avenue property”
and “the New Brunswick Avenue property”) and in
North Carolina, as well as extensive personal property
and investment accounts. We will refer to these assets
collectively as “the marital estate.”
On August 16, 2002, officers from the Pohatcong
Police Department reported to defendant's dental office
m response to a 911 call. Upon arrival, the officers
discovered decedent's body. Defendant told the officers
that he “had just shot his wife;” a firearm was found
nearby. Defendant was arrested at the scene.
While defendant was detained awaiting trial, Bruce
Rambo filed a verified complaint and order to show cause
in the Warren County Chancery Division, requesting
that the court appoint a temporary and/or permanent
administrator of decedent's estate3 and restraining the
disposition of any marital asset pending the outcome of
defendant's criminal trial. The marital estate was valued
at approximately $3,000,000.

WEST LAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

in re Estate of Rambo, Not Reported in A.3d (2012)
2012 WL 1969954

!

from the sale of the Ohio Avenue to pay debts of
the New Brunswick Avenue property, and directed the
Administrator to provide a “complete accounting of all
monies he has spent on behalf of the Estate, including
proof of all payments made, no later than July 2, 2004.”
After both counsel for the Estate and the Administrator
complied with the court's order, the court found that an
equitable distribution hearing was necessary to determine
and settle the pending distribution of the marital estate.
In response, the Administrator moved to stay this hearing
pending the outcome of defendant's criminal trial. The
court granted the stay by order dated December 13, 2004.
On February 9, 2005, a jury convicted defendant of
murdering his wife Linda Rambo, and of possessing a
weapon for an unlawful purpose. The criminal court
sentenced defendant to a term of forty years, with a thirtyyear period of parole ineligibility. The remaining ten
years would be subject to the provisions of the No Early
Release Act, N.J.S.A. 2C:43-7.2, requiring defendant to
serve eighty-five percent of the ten years before becoming
eligible for parole.

t.

On July 6, 2005, the Law Division in Somerset County
awarded Bruce Rambo $6,310,000 in compensatory and
economic damages pursuant to the wrongful death and
survival claim against defendant. On August 5, 2005,
the Chancery Division entered an order granting the
Administrator's motion to transfer the deed to the New
Brunswick Avenue property to Bruce Rambo as surviving
heir.6

defendant shall arrange for his sister or her agent to pick
up such property from the Estate.
*4 4. That the defendant shall be responsible
for paying any taxes the Estate incurs due to the
distribution of the I.R.A. to the Estate.
Defendant now appeals from this order.

II
Defendant argues that the Chancery Division erred when
it applied N.J.S.A. 3B:7-1 to deny his request for the
release of funds from the marital estate to cover the
on
cost of his criminal defense. We disagree and affirm
this issue substantially for the reasons expressed by the
Chancery Division. The restraints issued, which prevented
defendant from accessing the marital property to fund his
defense against charges of murdering his wife, are directly
supported by N.J.S.A. 3B:7-1, which, at the time stated:

A surviving spouse, heir or devisee
who criminally and intentionally
kills the decedent is not entitled
to any benefits under a testate or
intestate estate and the estate of
decedent passes as if the killer had
predeceased the decedent. Property
appointed by the will of the decedent
to or for the benefit of the
killer passes as if the killer had
predeceased the decedent.

On May 17, 2010, following an equitable distribution
hearing, the Chancery Division entered an order stating
as follows:

N.J.S.A. 3B:7-2, further provides that:

1. That defendant shall be and is hereby awarded by way
of equitable distribution of the marital assets the sum of
$290,314.51.
2. That the debt of $6,000,000, not including interest,
which defendant owes the Estate [pursuant to the
wron gful death and survival claim judgment], shall be
credited $290,314.51, making the debt owed to the
Estate $5,709,685.49, not including interest.
3. That the administrator of the Estate shall turn over
any of the clothing and pre-marital property belonging
to the defendant ... to the defendant's sister. The

Any joint tenant who criminally
and intentionally kills another joint
tenant thereby effects a severance
of the interest of the decedent
so that the share of the decedent
passes as his property and the killer
has no rights by survivorship. This
provision applies to joint tenancies
and tenancies by the entirety, joint
accounts in banks, savings and loan

WESTLAW © 2012 i homson meuters. No claim to original U.S. Government yvorks.

3

In re Estate of Rambo, Not Reported in A.3d (2012)
2012 WL 1969954

the public policy expressed by the Legislature in N.J.S.A.
3B:7-5.

(

associations, credit unions and other
institutions, and any other fonn
of coownership with survivorship
incidents.

As the Court made clear in Neiman v. Hurff, 11 N.J. 55,
60-62 (1952), the common law doctrine codified in this
statute is “so essential to the observance of morality and
justice [that it] has been universally recognized in the laws
of civilized communities for centuries and is as old as
equity.” Defendant was not denied competent counsel in
his criminal case. To permit defendant to use the proceeds
of the marital estate to pay the cost of private counsel
would be a perversion of justice and in direct violation of

Defendant's remaining arguments, including those
attacking the Chancery Division s decision as a denial
of his right to counsel under the Sixth Amendment,
lack sufficient merit to warrant a discussion in a written
opinion. R. 2:11—3(e)(1)(E).
Affirmed.

All Citations
Not Reported in A.3d, 2012 WL 1969954

Footnotes
In 2002, the Slayer Statute was codified under N.J.S.A. 3B:7-1. The Legislature repealed this version of the statute
1
effective February 27, 2005, and replaced it with N.J.S.A. 3B:7-1.1.
Defendant’s conviction was affirmed on appeal. State v. Rambo, 401 N.J.Super. 506 (App.Div.), certif. denie ,

2

3
4
5
6

258 (2008), cert, denied, 566 U.S. 1225, 129 S.Ct. 2165, 173 L. Ed.2d 1162 (2009).
Decedent died intestate.
Defendant sought the immediate sale of the New Brunswick Avenue property, with fifty percent of the proceeds to be
placed in a constructive trust pending the outcome of the criminal proceedings. He requested that the remaining fifty
percent be held in a trust account, with fifty percent of that amount being made available for his defense in the criminal trial.
By order dated August 20, 2003, the court authorized the Administrator to sell the Ohio Avenue property.
Defendant filed a notice of appeal from the August 5, 2005 order of the Chancery Division. The appeal was ultimately
dismissed for lack of prosecution.

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WeSTLAVv © 2013 Thomson Rsuters. Ho claim to original U.S. Govsrnmsnt Works.

4

4

*

APPENDIX I

Case 3:14-cv-00874-MAS Document 24 Filed 02/18/15 Page 58 of 176 PagelD: 4588
STATE OF NEW JERSEY in the Matter of LINDA ANN RAMBO - Oct 15,2003

I ♦

___ SHEET 1 ------------------------------------------------------------------------ -------------------------------- —------ —----------------------

I

SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION, PROBATE PART
WARREN COUNTY
DOCKET NO. WRN-P-02-438-D
APP. DIV. NO.

C
IN THE MATTER OF
THE ESTATE OF
LINDA ANN RAMBO,

>
)
)
)

TRANSCRIPT
of
MOTION

Place:

Warren Co. Courthouse
413 Second Street
Belvidere, N.J. 07823

Date:

October 15, 2003

BEFORE:
HONORABLE FRED H. KUMPF, J.S.C.
TRANSCRIPT ORDERED BY:

I

MARCIA BLUM, ESQ. (Office of the Public
Defender, Appellate Section, 9th Floor,
31 Clinton Street, Box 46003, Newark, NJ 07101)

i

APPEARANCES:
ED WOSINSKI, ESQ.
Attorney for Roy Rambo
MICHAEL J. PERRUCCI, ESQ. (Florio, Perrucci
& Steinhardt)
Attorney for Estate of Linda Rambo

Transcriber Regina Z. Monaghan
ELITE TRANSCRIPTS, INC.
14 Boonton Avenue
Butler, NJ 07405
'(973) 283-0196
v
3

Audio Recorded
Operator, L-. Hatch

ELITE TRANSCRIPTS, INC.
14 Boonton Avenue, Butler, New jersey 07405
. 973-283-0196 FAX 973-492-2927

■i

___ SHEET 2

L

(

2
INDEX

MOTION
ARGUMENT

PAGE

BY:
BY:

3,17
12

Mr. Wosins'ki
Mr. Perrucci

-THenSormr^
20

Decision

i

1
2
3
4
5
•6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

f

!
!.

23

;

24
25

3
Wosinski
Argument
IN THE MATTER OF THE
THE COURT: . All right.
May I
P-02-438-D.
ESTATE OF LINDA RAMBO, Docket Nohave your appearances please?
MR. WOSINSKI:
Good morning, Your Honor.
Ea
Wosinski (phonetic) appearing on behalf of the raw
Offices of James Dork (phonetic), moving party,
representing Dr. Ray — excuse me -- Roy Rambo.
Michael Perrucci, Your Honor,
MR. PERRUCCI:
behalf
of
the
estate
of
Linda Rambo.
on
This is your
THE COURT: .All right.
application, sir, go ahead.
To start
Thank you, Judge.
MR. WOSINSKI:
that
I
believe
cries
off with, Judge, this is a case^
not
only
out for the cornerstone of our justice system
Our
criminal
criminally, but I believe civilly.
..justice, system...atexts....off._3s?.ith. 'that _a..parson .is.
innocent until proven guilty.
That's a cornerstone of everything, even
civilly, because that's the point where 1;L^ertk.. c^\be
taken-from someone, not money, but liberty-.
In this
particular case we're seeking from the Court to allow
Dr. Rambo to access what arguably under even the case^
law CARAS that somewhat goes against us. is his marina^
property right now.
We're seeking to access that so that he can

ELITE TRANSCRIPTS, INC.
14 Boonton Avenue, Butler, New Jersey 07.405
973-283-0196 FAX 973-492-2927

Tfzit^^i!^W1^MfcYriartfo2^^

Ca

■ SHEET 3 ------------------------------------ Argument -~Wosin^d

*

l
2
3

[

.4
5
6
7

8
9
10
11
12
13
14
15
16

18
19
20
21
22
23
24
25
i

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15

l

i

.1.5
17
18
19
20
21
22
23

i

;

24
25

jijfet?003
’

T”

4

then mount a defense.
defense is his
constitutional right.
arme of the case
And basically xf we look at some
quoting from STAT^ v.
law in New Jersey alone
a-one
__ 141 New Jersey Super.
MORGENSTEIN, 14-- excuse me
Constitution of the
525, the Sixth Amendment. of the in all criminal
United States provides in part
the right to have
prosecutions the accused shall en]oy ^
for his defense.the assistance of counsel
on to say the right of counsel is
It goes
the Fourteenth Amendment, also stated
incorporated in
U.S . 335, and
through GIDEON V. WAINWRIGHT, 372
the right of defendants
includes within it a scope of
.
. •
our own
to secure counsel of his own choxc . _
^Additionally, that is memori^^^^ on 52 6,
Constitution
Mticle 1, Paragraph lO.
the New Jersey..................... ..............
ehe^cdus-edr-^had-d^ha^e" In“"all criminal 'proseOiCroxis
counsel in all
the right to have the assistance of
defense." As furthermore memorialized in STATE .V.
YORMACK, under 117 New Jerseyy^stibliSed that
from it, -omcthedCase, e^^ha ^^i^t to tke
one
one
counsel for his defense/
GIDEON v. ----assistance of
Wosinski
Argument
WAINWRIGHT it cites.
fair
oppot^hunS l^L'an It

5

that not that he doesn't have th ^ delay
S
counsel, but that he can't use
proceedings.
Your
Tbat1s not what we 1 re doing here at all,
Additionally, further in a ^
Honor.
138 New Jersey Super., quouxuy on
STATE V. YACHINDO on
Page 67.
I don 1t think you have_ to talk
THE COURT:
x
the Sixth Amendment right.
about the right to talk about is why you're
think what you need to
, entitled t^thesejartacular^assets.
C oL £3

S5?rt Jn'^ifpano^d ?U„ould say

?har^uJHoL? SoSld distinguish
points' I feel should be aistnngatshed^d
enough on.
Justices may
“clSS^y d^ very little
discussion of'a person s
discussion, almost no
the United
constitutional rights. •We're talking -about, - _
rrvTiC
JUl V.

ELITE TRAN SCRIPTS,

14Boonton Avenue, Butler, New Jersey. 07405 • 973-283-0196 FAX 973-492-2927

-

!

«•

rSHEST
2
3
4
5
6
7
8

r

9
10
i

11

12
13
14
15
16
HZ
18
19
20
21
22
23
24
25
i

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

of
quoted around CARAS had to do witn
the cases that are
I
the d^asech dAnd
vou
when there were minor children of
concerned on how do you
believe the Justices were more
protect assets for minor children.
that condition.
In this case we don't have
1ive with
did
not
The Rambos' son was emancipated,
minor child.
So
Additionally,

rightS t0 A5S;tLn;^y?er°beS:vnnCC^S -d many

rss -

from an

it goes on to say that no one
the taking of someone's
allegation eventually proven of
lif e .
Again, it's an allegation at this point.
And in CARAS, CARAS allowed
judge.
That1 s .number one.
_
There's no
equity to trump an establishedjru 1 e _or
.....

so

Statutes
should go in a constructive
percent of the estate
trust.
There was joint tenancy on_
0
We' re not arguing about than ^
assets in this case,
If he's cleared of all criminal
percent at this point.
cleared
charges and if there1s a civil action and he's
7
Argument - Wosinski
and he finds not guilty on a tivil yljon °f jr
intentional killing, than there will be another
argument on that.
±
about the 50 peroent that
But we re tal^
asset.
CARAS went and
It's
arguably is his In
the law and we should take that.
said equity trumps
fact, if we're going to _ deal with equity, Jndge,
believe that leaves it m your hand
. , y.
to allow
should show that his constitutional right
him to *-5o*df^-ing else,

Judge,

is to try hirn^ow

and convict him now because he no^longer Ja he 1 s
to use those assets to mount aXHSJ Statl is going to
■ ~e"f
So should have the ability
. -n i ndiqent by
to choose those peopleIn this case he was declared ct
„„zL,__ -he
letters from opposing counsel.
He wrote to coinne
wrote to the probation department say^nJ
we're
statute , based on CARAS, these are the assets,
That's why he's indigent.
freezing them up.
. He'S not when you look at
f"S*n
you look at 50 percent of what■s has
he st:"Indigent.
indigent, not
° e^fty, bu^guiw

' ELITE TRANSCRIPTS, INC. ^
.14 Boonton Avenue, Butler, New Jersey 07405
973-283-0196 FAX 973-492-2927

>•
i

r

i

C

tie ®t gMftte* QMMP^p^N

8

,___ SHEET 5

{

1
2
3

4
5
6
7
8
S
10
11
12
13
14
15
16

s

18
19
20 ■
21
22
23
24
25

Argument - Wosinski
-Honor
opinion
respectfully
°
that
also should in my
defense because if that
he should have.a
show that
would prevail with
defense is provided to him and he
would be the wrong?. The wrong m
that defense, what
should he have
equity be 'he mignt not survive that way
a public defender.
had two
At this point as an indigent he’s
his
public defenders, one that left h:L®
but left and herepresentation, not by
t NS!eSdSl
has now -- has another publ
he has told you that
In his certification
has taken any
there's been no mvestiga'tio:n.
And it was
statements, done anything_at ^is point
scheduled to go to trial in
Ibout a third-degree
We again are not talk
y
talking about' a
crime, a second-degree crime- ^
end the rest of his
#i-rs-toohegn.ae_.c.r_ime, yherg^e l_±^rpg^gggig-abont
-y
nanevalduS; 'Ve' re 'talking' about money that gives him
the constitutional right ^represent hams el ^
to
Additionally, what X would liKe u
f
io
the Court at this point ^
Super. at 62.
in JACOBSON V. JACOBSON
151 New Jer y
a
He
a°pharmacy She&was a pharmacist.
It1 s
gentleman
Argument

!
!

i §9?^

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

19
20
21
22
23
2-4
2 5-

Wosinski

9

was accused
jh2rekhid:LSSen1a pr^or Chancery Division
^
divorce complaint.
inor
. =
action pursuant to a
accused of dissipating
He
was
assets that were frozen.
We have a dentist, a
Same in this case.
assets.
practice accused of
professional with a dentist
in the trust
They froze everything
dissipating assets.
are going
account.
The Appellate Division said no, we
defense^
And
to allow him to access that, constitutional rights that
this case goes into all
because the three
he
“ed S lou^Honor in the beginning of my
cases
id^aSin^fSa^o^^'choice
And if
argument are
is
thr^II^^^V.^Defendant^f^ours^
.you go
entitled to
choice."
Did that case involve the
THE COURT:
-application of N.J-S.A. 3B:7-1
It did
Ho, it did not, Judge,
WOSINSKI:
. MR.
did involve a Chancery
S0etcii?on1:LSate^dJe1LdenaLeS;itablefurthar
decision to

^!?o?nf°hatarm going tg_open_up those accounts.
-

—

ELITE transcripts, INC.
14 Boonton Avenue, Butler, New Jersey 07405
973-283-0196 FAX 973-492-2927

And

B$l@^g^ite*4fe§32003
l

\r .

i
!!

!
;

18
19
20
21
22
23
24
25

10
Wosinski
Argument
that's exactly what happened in that particular case.
And that's -- what's of importance I believe,
judge, is in that particular case it allowed him
I
If you look through that case and that cas^
that.
y
again believe
is very important in this case there was
a sale of a pharmacy.
Here there v/as a sale of the
dental practice.
. ,.
And it went
And, again, he's not indigent,
on at this particular Court, that was the argument
he's indigent if you
He 's indigent. •Well,
there.
and
He's not indigent if
freeze all his assets.
her
side
of
the
again, Judge, we1 re not looking at
equation.
We
That —• that1s allowed at this point.
agree that there will be a constructive trust on that .
But what is the harm here?
There is none, Judge,
besides we're looking at money.___But again thes_ aI "don1t care what anyone puts m a
allegations.
certification of who was found where, was there a. gun,
what was said, that's not evidentiary at _ this point: .
That will come but in the criminal tria_.
he
has
the right to that defense.
That's
But
At
this
point
we're-asking
for a
fundamental, Judge .
asked
originally
for
50
percent
we ' ve
minimum that
again even in CARAS says it's
which is his, which is

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21 ■
22
23
24
2.5

11
Wosinski
Argument
_ , ^
his , it's marital property.
But we'll even go less than that, uudg .
Originally in the moving papers by counsel they e^a e
m
this estate as a million dollars
_
, and plus.- Even
200,
300.
their further letters one piece is worth 4uu,
We're saying -- Judge, at minimum allow the 50 percent
to go in a constructive trust for the deceased.
50 percent to go in a constructive trust and
allow 200,000 of that 50 percent to go to his defense
between counsel fees, experts, and between an
In court today I do have the counsel
investigator.
that wants to go forward in the case and the
They've been chosen by Mr. Rambo.
investigator.
Unfortunately, I have to argue that
.
, Mr .
Dork, I am co-counsel, would be co-counsel m t is^
But all those things are in place to get going
. case.
Without that he basically does not ^
with this trial,
have in his opinion at this point effective counsel ojhis choice.
„ _
And once again, to conclude, Judge, that
constitutional right.
Yes, in Equity.we can .change
things, but again, Judge, you're going to
at taking- away a person's, fundamental and United States
our
constitutional rights and confirmed- by our
■ Constitution.
• ...... -_______ _____ :----m— --------

___ SHEET 5

♦

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

ELITE TRANSCRIPTS, INC.
14 Boonton Avenue, Butler, New. Jersey 07405
973-283-0196 FAX 973-492-2927 '

i

— SKSET 7 -------------------------- - '^ii^i/Perr^cT"
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
:l-7—
18
19
20
21
22

!

i

23

24
25

12

And I say that, Judg*' d^n
again with
shouldn’t, do that because we re
aJe aiso
dollars versus a man's liberty.
portion of that
willing to ask this Court
o g
~_ m0re than -50 percent.
It's going to
should be allowed to
$200,000 for his 50 portion.
He
Thank you.
access that, Judge, for
Honor.
In
MR. PERRUCCI:
is
extremely
clear.
I
this particular case the law
think what —
has been sold
what
THE COURT:
Let me just
.
and what has not been sold at this poxgh
home
MR. PERRUCCI:
The — the
held m
that was used as a dental office that w~s
And other than
tenancy by the entirety has been sold.
p“Sg Je routine bills the money has been held in
.——
-escrow
property wfrrda is
• The i
the marital home has not
piece of real estate which was
been sold at this point.
Is that the farm or .is
THE COURT:
That's the farm, judge.
MR. PERRUCCI:
11 acres, I believe.
Right.
And that 1s the only real estate
THE COURT:
that there is?
13

!

0
!
!!

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
IS.
17
18
19
■2 0
21
22
23

24
25

Perrucci
Argument
They're
the only two pieces of
MR. PERRUCCI:
in like North or
There's a small lot But,
real estate.
to give away.
South Carolina that we can't seem
impassioned
made an
Judge, I think, you know, .counsel
.
dead wrong on the law.
speech, but quite frankly he s
few minutes ago,
The case he just handed me a
It was before the statutory
JACOBSON , is a 1977 case.
as well as
law under 3B:7-1, et seq-/cite
And it
change ofE the
it.
that doesn't even
prior to IN RS CARAS on
the facts of thus cas^ ^
is quite inapposite
The -- I guess what counsel
et seg., is
Court to do is to tule 3B = 7-1
3 3:7-2^ ^ a
unoonStrtutronalinaI.on-tiiat ^ 3taCutory scheme that
statutory
the Legislature passed in New Jersey is
unconstitutional.
suggests that a
I mean very clearly it criminally
and
devisee who
to any
intentionallyU]tills the decedent is not
^ entitled
estate
And it

^iSi^hS^hniK^LdHpredaceasad the
decedent.

we ’ re not talking
So, as Your Honor knows,
s- held in someone ' s .name, we' re
about a-pharmacy that.'
_
tnaC'
real estate that are held
talking about two pieces of

ELITE TRANSCRIPTS,■ TTVTr

■

14 Boonton Avenue, Butler, New Jersey 07405
973-283-0196 FAX 973-492-2927

;

*

14

___ SHEET 8

1
;

2
3

r

4 ‘
5

■

6
7
8

9
10
11
12
13
14
15
16
r^.ry...........

18
19
20
21
22
23
24
25
!

c

i

!

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
■2 2
23
24
25

Perrucci
Arqument
iiro. property- and the
The :
as husband and wife.
farm on
were both in both _ of their names
as husba^^^e^tenancy by the entirety.
Under the statute it's crystal clear “*ed
that particular situation that the biller
result
to have predeceased the murder victim ^
victim's
the entire estate would flow xnto the muraei
estate.
IN RE CARAS was a
IN RE CARAS supports that.
create trust
situation that took it upon itself to
time ,
because at the Law Division at tha^ Pf^^^ular
yet.
Probate Court in Monmouth county,
Mr.
individual,So as par^of^the^ourt' s equitable powers.
since the criminal trial just like JSey^n't
constructive trust becaus
^eCTard
up, they created
^ o«.■denle.tedJDV-..del.ense..counsel in ^.cgara...^
to the murder trial subsequently when^the^Appellate^
And then
Division looked at it it was clear
Your. Hon0r,
subsequently convicted.
So the resul '
h±
obviously upon a =°nvictron or even a trial ^ there, .
oarticular case on a civil trial,
,
,
estate
no doubt that all the assets go to Linda Ra^bo a esta
and they would flow through her particular ----------—
15
Perrucci
Argument
In the meantime, what Judge Sey °
(phonetic) did was create a =°^ructive trust an
what we've
freeze all these assets.
And I
* in that
been operating on.
The law rs crystal clear
regard.
This is not a situation where)* "jAd
100 or $200,000 in a separate account that we coul
designate was his assets and there would be * J£est10
as to whether Linda would have any claim
Your
These are tenancy by the entirety properties,
Honor.
And the only other major asset to my
policies that the
knowledge are two life insurance forward yet waiting for
insurance companies had not put
the criminal determination.
So we don't have a situation anywhere
■ remotely able to take any equitable
^nd say
that Mr. Rambo is entitled to some.3lF C£?arSa of the
because obviously the entire poll y
there have
law and all of ^^^J^statute^that there
been numerous Law
Law Review have talked about all
at Harvard.and Iowa
, they've all been
what they call the slayer statutes
to }dg constitutloiis 1 •
held in recent
To attack it from a constitutional basis on

ELITE TRANSCRIPTS, INC.
14 Boonton Avenue, Butler, New Jersey 07405
973-283-0196 FAX 973-492-2927-

V
4

r

Ca§f^¥te::o^)Wv^'3®RS^rtiS^fiLg^IS
1
2
3
4
. 5

6
7
8
9
10
11
12
13
14
15
16

i

16

Argument - perrucci
I think does not win the 'day,
Sixth. Amendment grounds _
recently said, Chie
As the Courts have Count on the WHEAT case
Your Honor.
Justice Renquist of the Supreme
counsel under the
to
a particular
has made it clear that the nghL
Sixth Amendment does not mean the right to

__ SHEET 9

4-7-

18
19
20
21
22
23
24
25

lawyer.

I mean if that^were

°

can
' g^SmeSt to

Your
come in .and say, you
pay for F. Lee Bailey. ciLfind'rtiSni^oSrSinor.s
Honor, the law is very
and case precedent.
.on
bound by the statutes
do you have a positron
What
THE COURT:
• ' - ~~
farm?
concerning the sale of the
We're not adverse to that
MR. PERRUCCI:
I think there was.some
particular sale, Your Honor.
the prior hearings
preliminary discussion at one of
had suggested that.
.■that.-.-I---W.a.s_JAQt_-h|g ph|^t^e
dehef iUy^g,.1 ^
LurNonouVS
r off of 78 in
Y°
which.is basically Old Route 22 coming
..rj-l

Pohatcong Township.
,
-■ ai-oha Borough.
It
It's 11 acres mostly m Alpna
Jhe one
zone.
mnqider is
joins up against an industrial
should seriously consider
thinq I think the estate
that particular__
what’s the highest and best use -Q£
Argument _ perrucci/Wosinski

(

1
2
3

4
5

6

!
:

17

7
B
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
2425

But, short of that, we don t hav„ any
respond
to it being sold.
MR. WOSINSKI:
Judge, if I may
i, I am not
briefly.
Thank you.
First of al believe that the
representing to the Court that I , and 7-2 in
statute, again N.J.S.A. 3B:7
, et seq.
particular, are unconstitutional.
found guilty then
Absolutely if Dr. RamN ,
,
judge.
It
the statute applies, but lt
J®S„ho criminally and
Says a surviving spousee-edeoise-in
d
be
intentionally kills,
+-hat in any court of law.
hasn't been, found guilty
thinq further.
So the :
He's been indicted.
lsot.axng
orice that
constitutionally sound^on its tace^ does
statute is
comes to be.
As 'far as CARA?eJ^especially in the
exactly what happens many t ™es, espe^
eyes
Chancery Division, equp -Y d d
ve trust/ however,
• say that -- ^ould be a cons
interesting that CARAS
• when, .1.. -.quoted a
77 case
r
was . on the
never bothered to .quote -that case.
record.

ELITE TRANSCRIPTS, INC.^

14 Boonton Avenue, Butler, New Jersey
973-283-0196 FAX 973-492-2927

Ci

■

in

__ SHEET 10

*•
f

!

i

i

i

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

of this person,
down to equity we
1 ^ixicr about dol-^srs .
We 1 re ■t-a
tai'af9
.
-,. , n^ut he should
talking about.
something
he d_d,
. - ^ v,e can
shouldn't profit from
defend himself so that he can
or otherwise have the right first to
int entionally
he
didn't
do
that
show that
talking about here , Judge.
That's what we're
minimum we' re asking
not
asking
again-3-t
And we're
- which is less than his 50
for at least 200,000 that found guilty the statute
percent share that untr
e
can't take away from him
a constructive trust
on both

civil case dSeSficSx;yPS?-er™t.in3 goeS to
that he had
rpjgK=>-t=-J- s—our—laws , Judge,, with tne arguraeu u^'the-^—'
-V;--i-Tn
^
And f inal-ly
saYing‘that anyone'wili g°ndigents
United States case
talking
guy ' and
_ about , indxg^ike‘this
. .
Lee Bailey, we're
the
argument
that
I
don
.
cannot use
private practice, but what
counties,
I want this guy who' s
indigents can do even in our system in many
conflicts for P.D.s and Ettr P°°X
don. t
they, have So if you're not comfortabl.eanoyou--------

t

18
19
20
21
22
23
24
25

i
:
i

i

(

;

1
2
3
4'
5
6
7
8
9
10
11
12
13
14
15

.

16
17
18 '
19

20

21 2 2.
23

2-4
25

19
Argument - Wosinski
you
c
an
with that particular perso '
have the rapport
ask for a. Lee
No, you can't Harth
ask for someone else.
(phonetic)
ask for William
for them.
Bailey or you c an 1 t
unless you can pay time,
who's a private attorney just
to sum one more
Again, Judge,
versus
a person s liberty for
we ' re talking.about money
Thank you.
and look at
the rest of his life.
Let me take a minute
THE COURT:
that case since that case I have a copy for you , judge,
MR. WOSINSKI -.
if you want.
- I have it right
I have
No .
THE COURT:
to
look at that and
minute
just
take
a
Let
me
inside.
t'11 be -- my decision..
Back on the record)
(Off the record.
Come to order
the CLERK:
Thank you. "I didn't
Be
seated.
THE COURT:
about .counsel ’ s
ask you whether you had an .opinion
... concerning the
position couching :°Ld*™op«iy so" perhaps'change
highest and best
ba sold..'
the zoning
Judge , - we." don Me have J
MR.
position- at
^ SX^o^Pti”this
-------- ^UTETSANSCRffisjNCT; ■
14 Boonton Avenue, Butler, New Jersey 074(b
973-283-0196 FAX 973-492-2927
-

*

r

t

(
;

___ SHEET 11

20
Decision
fair
market
value
and.
sold.
it should be listed at a
Okay.
All right.
This is an
THE COURT:
application filed bvM|*ototo^*erty, real

1
2
3
4
5
6
7
8
9
TO
11 •
12
13
14
15
16

CO b. sold
-- first to be sold and then a portion of the amount be
used for paying for the defense of -- of Roy Rambo’s
criminal charges for killing his wife.
The defendant is the son of the decedent and
is the only heir 'of the decedent .
The property in
question-, there was a prior order
to sel1
one piece of property that ■ was
which was the dental office of Roy Rambo, Dr. Rambo.
And that has been sold and except . for paying
—
some expenses, the amount is being held in
expenses
Both
,o.f the properties were-held apparently as
escrow.

18
19
20
21
22
23
24
25

Aside from the impact of the -- of Mr. Rambo
killing his wife, the intestacy laws would -- the.
manner of holding of those properties .as tenants in tne
entirety would essentially mean that the --those .
pieces of real estate would pass to the plaintiff m
this matter in the normal course.
There is, as counsel for the plaintiff
pointed out, case law, JACOBSON V. JACOBSON, 152 New

1
2
3
4
5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

-------------------- -

21
Decision
Jersey Super. 62, Appellate Division 1977, case which
deals with that issue, that is whether the marital
assets are available to a husband who has been charge
with killing his wife.
'
And that case does provide essentially that
monies would be available to — from the marital estate
to pay for legal expenses associated with the charges
for killing his wife.
That decision , however, as counsel for the
defendant pointed out, in 1977 pre-dated the enactment
of N.J.S.A. 3B:7-1 and 3B:7-2 which were enacted in
1981 and became effective in May of 1982.
Those particular provisions provide that a
person who is — has intentionally killed their spouse
is not to inherit either by way of joint tenancy or any
other way any of' the assets of the estate.
So the application of those statutes would
- until there's been a
seem to indicate that the
Dr .
determination on the question of whether the
Rambo actually did intentionally kill his wife.that
those — ox7 if it. is detennined that tie intentionally
killed his wife, he would not -be able to.receive any of •
the assets from the -- those properties held by way of
-- by the entireties under N.J.S.A. 3B:7-2.
So the question- is in the circumstance of_______

ELITE TRANSCRIPTS, INC..
14 Boonton Avenue, Butler, New Jersey 07405
973-283-0196 FAX 973-492-2927 '

Ca
4

r

SEE3T 12

5

6

!

7
8

9
10
11
12 13
14
15
16

I

'17....
18
19
20
21
22
23
24
25
I

c

i

:

i

V

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

20•
21
22
23 24

25

22

first the
this case is whether any- of those assets
question of whether the property should be sold and'
second, whether any of those assets or proceeds would,
be available to Dr. Ratnbo for his defense in the
criminal action.
Obviously if he's found to be guilty
ultimately none of these assets would --he would be
entitled to.
If he's found to be innocent, because of
the difference in the standard of proof there may . ave
to be ■ a subsequent hearing here in order to determine
whether based upon the preponderance of the evidence he
is guilty of intentional killed.
Obviously the criminal case being -based upon
a standard of beyond a reasonable doubt.
So there's a
difference of standards under the two -- under the
• criminal action as to here.

1
2
3
4

;

Decision

■

r?un~d—t~c~bt—xnrrQr^::‘rvi—-i mlhe

criminal action, there may have to be an initially
hearing here to determine whether by a preponderance o
.the evidence he's still found to be -- intentionally
killed his wife.
And if that in fact is found to be not the
case, then obviously he would be entitled to
entitled to the entire estate because N.J.S.A. 3B:7.2
-- 7.1 would not be applicable.
23
Decision
This is the reason why I think in CARAS the
proceeds of the -- of the estate, marital estate were
in constructive trust until a final -- that
held in
was also a case where it was prior to the determination
in the criminal matter and the Court determined thcit
the matter -- that the assets should be held in trust
pending an outcome of whether N.J.S.A. 3B:7-2 acted to
prohibit the access to the marital assets.
So in the circumstances of this case I think
First of all, I
that is the appropriate thing to do.
I don't
think it is appropriate to sell this property.
not requiring that it be sold immediately, but I
think you should take the steps to obtaining the most
value that you can from that -- from the sale of . thc=.t
property and then those proceeds should be held in
sale
trust in the same way that the proceeds from the
.
of the dental practice building has been held m trust
pursuant to the order of Judge Seybolt.
And although there is a Sixth Amendment
is
right, that right is not — is not without some Obviously
the
doctor
-will
have
a
not a absolute right-.
1
-- an.-opportunity to have counsel, whether it's a.
counsel that he pays for or whether -counsel- that -is
'provided to him.
STATE V RAY indicates that defendant 1s right

ELITE TRANSCRIPTS, INC.
14 Boonton Avenue, Butler, New Jersey 07405
973-283-0196 FAX 973-492-2927

. ;

*

jffiftfcfaWf §°2003

___ SHEET 13

i

r

Ca^#M«''cSS%W'fe^iMim

(

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

24
Decision
counsel
of
his
choice
is
not
absolute
and.
must
give
to
way when required by-the fair and proper administration
of justice.
In the circumstance of this case I conclude
that the funds from the sale of the
^ _ ; farm are to be held in trust and are not
available to Dr. Rambo for purposes of his defense in
the criminal matter.
And, therefore, I will permit the sale of the
property, but I will -- direct that those be held in
trust pending the outcome of the criminal proceedings.
Thank you, Your Honor.
MR. PERRUCCI:
Thank you, Judge.
MR. WOSINSKI:
Would you prepare -THE COURT:
Yes, Your Honor.
MR. PERRUCCI:
an order- under the five-day
THE COURT:

18

(Proceedings concluded)

k

CERTIFICATION

C!

I, REGINA Z. MONAGHAN, the assigned
transcriber, do hereby certify that the foregoing
transcript of proceedings in the Warren County Superior
Court on October 15, 2003, Tape No. 1, Index No. 4152 -

i

7235, is prepared in full compliance with the current

i

Transcript Format for Judicial Proceedings and is a

1

true and accurate compressed transcript of the
proceedings as x'ecprded.

j

21
£
Regina Z r MonaghaM
AOC #467'
ELITE TRANSCRIPTS, INC.
Butler, New Jersey 07405

July 17, -'2005

ELITE TRANSCRIPTS, INC. .
14 Boonton Avenue, Butler, New'Jersey. 0.7405.'. ■
973-283-0196 FAX 973-492-2927.
:

♦

APPENDIX J

*)

EXCERPTS FROM OTHER STATE AND FEDERAL DECISIONS THAT
CONFLICT WITH THE HOLDINGS IN THIS MATER.

(Emphasis has been added and internal quotations omitted)
(Alphabetically arranged by state of origin and year of
decisions)

s

ARKANSAS 1985
The Supreme Court of Arkansas in Luecke v. Mercantile Bank
of Jonesboro, 286 Ark. 304; 691 S.W.2d 843; 1985 Ark. LEXIS 2060,
affirmed the Chancery Court's decree in a murder/suicide case
ordering that:
All jointly held property was to be allocated VS to the
estate of [the slayer] and VS to the estate of [the
victim] • • • « All the real and personal property owned by
[the slayer] in his name vested in his estate and in
the devisees under his will, exclusive of [the victim]
and her estate. Id. at 306-307.
[T]he logical conclusion was that the murder/suicide
severed the marital relationship and the parties became
tenants in common, entitling each to recover VS of the
property.
We agree with the rationale of the trial
court and affirm its judgment. Id. at 307.
it

it

*

it

As to the property held by (the slayer and the
decedent] as tenants by the entirety, we think the
better rule is that applied by the trial court which
holds that the murder/suicide severed the marital
relationship and the parties became tenants in common,
entitling each to recover VS of the property.
in
adopting this viewpoint, we apparently align ourselves
with the majority of courts who have ruled on this
subject.
The effect of the severance of the marital
relationship
is
much
like
that
caused
by
divorce...which provides for a similar equal division
of the property. Id. at 309.

1

*•

>'
DISTRICT OF COLUMBIA 1995

In
(D.C.App.

Gallimore
1995),

v.

|
Washington,

666

A.2d

1200

the Court of Appeals reversed the

Superior Court's decree (which operated to divest one
joint tenant, who murdered the other joint tenant, of
all of his interest in the property held jointly with
the decedent).

The Court held that:

[The D.C. slayer statute] addresses the disposition of
property that would be received by the killer "from or
after" the death of the decedent, not property already
owned by the killer. Thus, the statute does not even
arguably address the disposition of [the slayer's]
interest in the property he jointly owned with [the
decedent] while she was alive; rather, the paragraph
concerns only those of [the decedent] that might be
received by [the slayer] after, or as a result of, [the
decedent's] death. Id. at 1207.
* * ★ *
It is only [the decedent’s] present right that passes,
according to the terms of the paragraph, as though [the
slayer] had predeceased [the decedent]. Therefore,
under the statute, [the decedent's] heirs would take
her present alienable right to share in the possession
and profits of the property, but would not get her
extinguished contingent future right to the remainder
of the property,
In other words, under the statute
they would get a tenancy in common with [the slayer] .
Id. at 1207-08.
* * * *
[T]he statute would not affect his own present estate
at all because it did not change hands,
In other
words, under the statute [the slayer's] joint tenancy
interest would be converted to a tenancy in common with
[the decedent's] heirs. Id. at 1208.

f
!
.

I
f

l

f

The Court further addressed applicable common law observing that:
The common law policy that' we discern is the same as
the one many other courts have stated - to prevent a
murderer from profiting from his wrong....That policy
2

i

I

*'

is not inconsistent with [the slayer's statute], nor
was the common law policy changed by the statute,
If
anything, prevention of profit from murder is the
general policy underlying the statute.

i

We do not, however, discern any common law policy to
punish the murderer or compensate the decedent's heirs
or next-of-kin by means of forfeiture of the murderer's
property interest, either to the state or to private
persons, id. at 1208-09.

i

★ * * *

In our view ... a forfeiture of the murderer's interest
• • e goes beyond the common law's policy to prevent the
murderer from enriching himself as a result of the
murder. Id. at 1209.
Dissenting Associate Judge Schwelb recommended a different
distribution than the majority. The judge stated,
take

advantage

of

forfeitures,' and so,

his

own

wrong.’... that

tl I

[N]o man may

'[e]quity

abhors

indeed, does the law." Id. at 1211.

-I

cannot agree with [the trial court's] disposition, for it effects
a forfeiture of [the slayer's] interest during his own lifetime."
Id. at 1213.
The judge further quoting Maryland case law noted that:
[TJhe principle that, a murderer cannot enrich his estate by his
act of wrongdoing, but neither can he be deprived of an interest
in property which he possessed at the time he committed his
wrongful act. An unconstitutional forfeiture would result in the
later instance.... I can find in [the slayer statute] no provision
clearly authorizing, or indeed authorizing at all, the forfeiture
of an interest in property which the murderer owned prior to the
homicide. The statute precludes a murderer from profiting from
his own wrong, but it does not confiscate property which was
previously his. Ibid.

3

I

1»

FLORIDA 1990

1

While considering a property forfeiture and innocent owner
claim through tenancy by the entirety, and on appeal from the

!
S

United States District Court for the Southern District of Florida
in United States v. One Single Family Residence with Out
Buildings, 894 F.2d 1511; 1990‘ U.S.App. LEXIS 2757,

the United

States Court of Appeals for the Eleventh Circuit noted:
[SJhould one spouse murder the other, the surviving
spouse becomes a tenant in common with the deceased
spouse's
heirs....([sjpouses
in
the process
of
divorcing; husband attempts to kill his wife but only
renders , her incompetent to do anything, including
completing the- divorce proceedings; court held that
equity demanded that they be deemed tenants in common
as if the divorce had been entered, even though all the
unities were still present, so that husband could not
gain from wife predeceasing him).
Id, at footnote 2,

INDIANA 2002
In the Estate of Charlotte A. Foleno v. Estate of Billy j.
Foleno,

772

N.E.2d

murder/suicide case,

490;

2002

Ind.

App.

the Court of Appeals

LEXIS
of

1204,

Indiana,

District elaborated on their "Slayer's Rule" and held that:
That an amendment to the state's statute "declared that
a person "legally convicted of intentionally causing
the death of another" became a "constructive trustee"
of any property acquired from the decedent or the
decedent's estate. Id, at 495.
* * * *
A 1984 amendment to Indiana Code specified that a
killer became' a constructive trustee of "any property"
he was to receive as a result of the decedent's death.
Ibid.

4

a

Fifth

,%
it

it

it

it

In other words, the Constructive Trust Statute
intended to "supplement the prevailing equity rule"
"to supersede it." • • • [T]he killer does not lose
undivided hal£ interest in the tenancy by
entireties, only the victim's half. Id. at 496.

was
not
his
the

* * * *

As a result, the killer receives an undivided one-half
interest in the tenancy. To deprive the killer of his
half of the tenancy through a constructive trust would
impose an unconstitutional forfeiture
{"In fact the
murderer is not deprived of any property which he
obtained in any other way than through the murder, he
is merely prevented from enriching himself by acquiring
property through the murder.")
To sum up, although
rules of equity supplement the Constructive Trust
Statute, they do not extend so far as to deprive the
killer of his own property. Ibid.
• • • ■

* * * *

The Court "had never applied" equitable principles "to
cause a wrongdoer's forfeiture of a vested property
interest." Id. at 498.
it

ie

it

it

Imposing a constructive trust on the proceeds would be
a deprivation of this property interest and would run
counter to our supreme court's general rule laid down
in Bledsoe, [National City Bank of Evansville v.
Bledsoe, (1957) 237 Ind. 130, 144 N.E.2d 710] that a
killer does not forfeit his own property interests.
Foleno at 499.

INDIANA 1995
In the Matter of the Estate of Grund v. Grund, 648 N.E.2d
1182;

1995 Ind. App. LEXIS 308, where a wife was convicted of

murdering her husband,

the Court of Appeals of Indiana, Second

District explaining and following Bledsoe, supra, declared:
[T]hat the murderer becomes a constructive trustee for
the victim's estate in one-half of the property. Thus
the entire estate did not vest in the husband [the
murderer]. Instead, the court determined that he held

5

, 1

bis decedent wife's one-half interest in constructive
trust for the benefit of her estate. Grund at 1184.
*

*

*‘ ★

The court in Bledsoe recognized that divorce severs a
tenancy by the entirety,
Analogizing divorce, the
court then determined that all tenancy by the entirety
property is severed when one tenant murders the other
tenant, writing that "there is no reason why the same
division should not be made where a tenancy by
entireties is dissolved by murder." Id. at 1185.
* * * *
Our Supreme Court chose to establish a constructive
trust only over the victim's one-half of the property,
allowing the murderer to take the other half • • • • [The
murderer, or his] heirs received only one-half of the
estate, that which the Court recognized he was
inherently entitled. Ibid.
★ ★ * ★
Bledsoe is controlling [in Indiana]. In so holding, we
do not attempt to quantify that portion of the property
[the murderer] owned before [the decedent] died, nor do
we cast doubt upon our Supreme Court's recognition that
the surviving spouse had something akin to a one-half
interest before death. That being the case, [the
murderer] did not gain any additional interest as a
result of her actions; she merely cannot acquire any of
[the decedent's] interest once she is "found guilty, or
guilty but mentally ill, of murder, causing suicide, or
voluntary manslaughter, because of the decedent's
death."
Accordingly, to hold that entire estate be
held
in
constructive
trust
pending
a
later
determination of guilt would require murderer] to
forfeit the one-half of the property to which Bledsoe
has established [the murderer] was legally entitled
upon [decedent's] death, Such a holding would.clearly
Section 30 of the Indiana
violate Article 1,
Constitution. Id. at 1186-87.
* * * *
Nearly all [others states] hold that the murderer is
entitled to the value of a life estate in an undivided
See, e.g • t Matter of Estate of
one-half interest.
Karas, 192 N. J. Super, 107, 469 A. 2d 99. IcL at /
footnote 13.
★

*

★

•k

The trial court properly concluded that [the murderer],
or her successor in interest. owned one-half of the

6

%%
tenancy by the entirety real estate, and that she does
not forfeit her share should her guilt be established.
The trial court also properly concluded that the
remaining one-half interest in the real property was to
be held by the Estate in a constructive trust pending
further court order. Id. at 1187.

I1

INDIANA 1980

Ia
In the Matter of John Kelly Jeffers, III, 3 B.R. 49; 1980
Bankr.

LEXIS 5570 quoting Indiana Code,

the Bankruptcy Court

notes "[A] spouse who murders the other holds one-half the estate
in constructive trust for the heirs' at law of the victim." Id. at
57, footnote 4.

MARYLAND 2004
In Cook v. Grierson, 380 Md. 502, 845 A.2d 1231 (Md. 2004),
the Court of Appeals of Maryland,
statute,

a state without a slayer

summarized analogous cases within their jurisdiction.

At issue there, the Court was required to determine whether the
grandchildren of an intestate murder victim could inherit his
property given the fact that
murder.

their father had committed the

The Court noted that:

Corruption of blood is a common law doctrine providing
that " ‘when any one is attainted of felony or treason,
then his blood is said to be corrupt; by means whereof
neither his children, nor any of his blood, can be
heirs to him, or to any other ancestor, for that they
And if he were noble or
ought to claim by him.
gentleman before, he and all his children are made
thereby ignoble and ungentle.... l It Diep v. Rivas, 357
Md. 668, 677, 745 A.2d 1098, 1103, n. 4 (2000) (quoting
Termes de la Ley 125 (1st Am. ed. 1812), as quoted in
Black's Law Dictionary 348 (7th ed.1999)). Article 27
7

(

u1.

of the Maryland Declaration of Rights prohibits
application of the doctrine in Maryland. It provides:
"[t]hat no conviction shall work corruption of blood or
forfeiture of estate."
In discussing the prohibition
and its effect on our analysis with regard to the
Slayer's Rule, the Court said:
In the view that we take of the case, the
constitutional and statutory prohibition
against corruption of blood and forfeiture of
estate by conviction has no application,
because by reason of the murderous act the
husband never acquired a beneficial interest
in any part of his wife's estate.
These
provisions apply to the forfeiture of an
estate held by the criminal at the time of
the commission of the crime, or which he
might thereafter become legally or’ equitably
entitled to.
In other words, it is a
constitutional declaration against forfeiture
for a general conviction of crime. There can
be no forfeiture without first having
beneficial use or possession.
One cannot
forfeit what he never had.
The surviving
husband in the case before us, never havingacquired any interest in his wife's estate,
there
is
nothing
upon
which
the
constitutional or statutory prohibition can
operate.
By virtue of his act he is
prevented from acquiring property which he
would otherwise have acquired, but does not
forfeit an estate which he possessed. Price,
164 Md. at 508, 165 A. at 471- (internal
citations omitted).
[Cook v. Grierson,
1234.]

380, Md. at 507-508,

845 A.2d at

MARYLAND 1997
On appeal in Pannone v. McLaughlin, 377 A.2d 597, 37 Md.App.
395 (1997), a murder/suicide matter, the Court of Special Appeals
f

s

8

J

\'

of Maryland modified the lower court's declaratory judgment,
holding that:
Where husband and wife possess real property as tenants
by the entireties, each tenant is said to be in
possession of the whole, rather than equal portions,
during the lives of both,
Upon the death of one
spouse, title vests in the survivor, not because of any
new interest, but because of the original conveyance.
Id. at 601.
★ ★ * ★

With respect to the jointly held property, however, we
conclude that the cotenancies were severed by the
killing (but not the title survivorship] and that a
constructive trust should be imposed upon one-half of
the property held by the estate of the killer in favor
of the heirs of the victim. Id. at 599.
* * * *

[T]he constitutional provision against forfeiture of''
property upon conviction of a crime does not permit a
murderer to claim a share of the victim's estate as an
heir or next of kin., but does protect from forfeiture
that property which the wrongdoer already possessed at
the time of his illegal act. Id. at 601.
* * * *

The import .. . for our purposes is that no additional
benefit should accrue to the estate of [the slayer] by
virtue of his wrongful act, but that [he or his heirs]
cannot be divested of property in which [the slayer 1
had a prior legal interest. Ibid.
*

*

*

*■

We also decline to follow those cases which hold that
the killer is not entitled to receive any portion of
the property held as tenants by the entireties by
virtue of his wrongful act....We regard such cases as
extreme in position and violative of the provision
against forfeiture of property upon conviction of crime
in Article 27 of the Declaration of Rights. Id. at 602.
We
encounter
no
difficulty
in
utilizing the
constructive trust to satisfy the demands of equity
here. The trial court ordered that all property held
as tenants by the entireties passed to (the
victim's] estate. Such disposition, in our view, would

9

t

\*

■ work a forfeiture upon the rights of a [slayer or the]
slayer's children, who should not be precluded from
claiming an interest in the property which rightfully
belonged to [the slayer] before his wrongful act. Id.
at 604.

MICHIGAN 2004
In re: Bonnie May Spears, Debtor, 308 B.R. 793; 2004 Bank.
LEXIS 558, the United States Bankruptcy Court dealt with issues
relating to properties held through tenancy by the entirety and
tenants in common.

The Court noted that:

Michigan is one of a minority of states that still
recognizes tenancy by the entirety. The United States
Supreme
Court
itself
recently
described
the
characteristics of entireties property under Michigan
law in U.S. v. Craft, 535 U.S. 274, 122 S. Ct. 1414,
152 L- Ed.2d 437 (2002)." IcL at 801.
* *

*

A tenancy by the entirety is a unique sort of
concurrent ownership that can only exist between
married persons.... Like joint tenants, tenants by the
entirety enjoy right of survivorship. Id. at 802.
•k

rk

*

*

Divorce ends the tenancy by the entirety, generally
giving each spouse an equal interest in the property as
a tenant in common, unless the divorce decree specifies
otherwise.... [And each spouse has] the right to sell
the property with the [other's] consent and to receive
half of the proceeds from such a sale. Id. at 803.
★ * * *

Obviously, if the theoretic unity of the spouses is
destroyed, in other words if the marital relation is
terminated, the estate by the entireties may not
continue as such. Id. at 807.
* * * *

Michigan law prohibits a person who has murdered his or
her spouse to succeed as the survivor to whatever the
couple had owned as tenants by the entirety prior to
the spouse's murder. Rather, the murderer is permitted
to take only an undivided one-half interest in the
subject property as a tenant in common.
The other

is

.

a
♦

%*

undivided half is left to pass to the murdered spouses
heirs either by will or by intestacy. Id. at 808.
[Citing Goldsmith v. Pearce, 345 Mich. 146, 152; 75
N.W.2d 810; 1956 Mich. LEXIS 375].
* * * *

[Wlhenever a tenancy by the entireties is involuntarily
severed by a divorce, Michigan law divides the severed
estate equally between the two former spouses." Id. at
820.
* ★ ★ ★

The bankruptcy estate and the non-filing spouse must
instead hold their respective undivided interests in
the property during this interval as tenants in common.
However, a tenant: in common, unlike a tenant by the
entirety, can convey her undivided interest in the
tenancy without the consent of the other -co- tenant.
Id. at 827.
•k

k

*

*

A co-tenant of an entireties property owned in New
Jersey or Massachusetts may also convey his undivided
interest
in the property without
severing the
entireties estate. [Citing Mueller v. Youmans, 117 B.R.
113, 116-17 (Bankr. D. N.J. 1990)]" Id^ at footnote 23.

MICHIGAN 1956
In Goldsmith v. Pearce, supra, where a husband killed his
wife and determined to be sane at the time of the offense, the
Michigan

Supreme

Court

reversed

the

lower

court

ruling and

recognized that each party retains an equal one-half interest in
the properties.

NEBRASKA 2004
In a diversity action, the Court in Hughes v. Wheeler, 364
F.3d 920

(8th Cir. 2004) affirmed a judgment in favor of the

father for life insurance benefits on the slayer,
first

killed

his

wife,

who

was

ii

designated

as

The slayer
the

primary

i,

*

*,'
beneficiary

under

suicide

another

in

determined

that

the policy,
state.

the

and subsequently he
The

proceeds

District

of

the

Court

policy,

of

committed
Nebraska

despite

being

community property, passed to the slayer’s father, who was named
as the contingent beneficiary, not to the victim's estate or her

r
I
3

heirs.

i
r

NEVADA 1997

r
i

In

United

States

v.

Real

Property

Located

at

Incline

|

Village, 976 F.Supp. 1327; 1997 U.S.Dist. LEXIS 12945 where the
District Court quoting Gallimore v. Washington

666 A.2d 1200,

1209 (Ct. App. D.C. 1995) which ruled that murder of one joint
tenant by the other joint tenant did not forfeit wrongdoer's own
half-interest, but merely transformed the joint tenancy into a
i
i
t

tenancy in common.

{

!

NEW YORK 2001

[

In the Matter of the Estates of Kathleen L. Covert and
Another, Deceased,

97 N.Y.2d 68; 761 N.E.2d 571;

735 N.Y.S.2d

879; 2001 LEXIS 3426, the Court of Appeals of New York resolved
the probate issue in a murder/suicide case involving a jointly
executed will of the spouses.

The will designated the jointly

held property to be divided into three equal shares — one-third
to the killer's parents, one-third to the victim's parents and
the remaining one-third to the decedents' siblings. Id. at 73.
The Court stated:

12

[

\»

The • Higgs [infra] rule prevents wrongdoers from
acquiring a property interest, or otherwise prdfiting
However, we have never
from their own wrongdoing.
applied the doctrine to cause a wrongdoer's forfeiture
of a vested property interest. Indeed, public policy,
as embodied in Civil Rights Law § 79-b, militates
against application of Riggs as a means of effecting a
proprietary forfeiture._____________
Section 79-b provides, in
pertinent part, that n [a] conviction of a person for
any crime, does not work a forfeiture of any property,
real or personal, or any right or interest therein"
(Civil Rights Law § 79-b). Id. at 74.
* * * *

The individual assets owned outright, other than the
specific bequest.. • f must pass through the decedents'
Similarly,
respective wills, and into the residuary.
[the slayer's] individual property owned outright
passes through his will... .
★

ir

"k

★

In contrast to individual property, a joint tenant is
entitled to an immediate one-half interest in the joint
This interest is immediately vested.
property.
entitling either tenant to a half portion, even though
only one tenant may have established and contributed to
the asset. Thus, before their deaths, [the slayer and
victim] each owned an undivided one-half interest, with
a right of survivorship, in their joint property.
Allowing [the slayer] the one-half interest in that
property would not afford him any benefit from his
Consistent with the public policy
wrongdoing.
articulated in Civil Rights Law S 79-b, his one-half
interest is not forfeited. Id. at 75-76.
Riggs, however, prevents [the slayer] from profiting
from his own wrongdoing.
Because [he killed her], he
cannot succeed to the survivorship interest that' would
ordinarily arise on the death of his joint tenant.
Therefore, the joint property should be divided evenly,
half passing through [the slayer’s] estate and half
through [the victim's]. Id. at 76.

n

\ ♦

NEW YORK 2000

i

In the Matter of the Estate of Mary Mathew, 270 A.D.2d 416;
706 N.Y.S.2d 432; 2000 N.Y. App. Div. LEXIS 2968 where the New
York Supreme Court Appellate Division reversed the lower court
ruling by holding that:
Thus, it is well settled that an individual who kills
his or her spouse is not entitled to succeed to sole
ownership of real property as a surviving tenant by the
entirety. ..." [A] conviction of a person for any crime
does not work a forfeiture of any property, real or
therein".
interest
or
personal,
or
any right
Accordingly, the slayer does not forfeit his or her own
undivided interest in property which the couple held as
[and the slayer] is entitled
tenants by the entirety
to the commuted value of a life estate in one-half of
the property or the proceeds from its .sale • • * [T]he
slayer may not be completely deprived of all interest
in property which the couple held as tenants by the
entirety, and it has been held that the surviving
tenant, whose property rights may not be diminished by
reason of a criminal act, is entitled to the commuted
value of a life estate in one-half of the property or
the proceeds from its sale. Id. at 417.
* * * *
[T]he prevailing view in most jurisdictions which have
considered this issue, [is] that the slayer may not be
completely deprived of all interest in property which
the couple held as tenants by the entirety. Ibid.
• • « ■

NEW YORK 1992
In Community National Bank and Trust Company of New York v.
Wisan,

185 A.D.2d 870; 586 N.Y.S.2d 1000; 1992 N.Y. App. Div.

LEXIS 10005 where a wife [the accused] was implicated in the
death

of

her husband,

the New York Supreme Court Appellate

Division held that the wife does not forfeit her own undivided

14

I
I
sa

\*

interest in the property, which was subject to a mortgage lien
1

she obtained after the date of her husband's death.

s

fj

NEW YORK 1988

8

X

In the Matter of the Estate of Diane Brown,

141 Misc. 2d

572; 533 N.Y.S.2d 823; 1988 N.Y. Misc. LEXIS 840 the Surrogate's
Court suggested that the interest of the killer would be limited
to a life estate in one half of the property.

NEW YORK 1980
2

In the Matter of the Estate of Irene Nicpon,
619;

424 N.Y.S.2d 100;

1980 N.Y. Misc.

102 Misc. 2d

LEXIS 1994,

where the

husband pleaded guilty to manslaughter in the first-degree of his
wife, the Surrogate's Court noted that: "To convert the husband’s
life tenancy with the possibility of ownership to a tenancy in
common would improperly elevate the nature of his ownership,
wrongful misconduct contrary,
wrongful act.

Id. at 620.

and therefore benefit

from his

The Court thus ordered the title to

be subject to a life estate in the [slayer] . Id. at 621.
Court,

however,

stated

that:

"Although

the

law

is

The
well

established thfit one may not benefit by his act, it is also well
settled

that

diminished.

the

interest

of

the wrongful party

cannot be

Inasmuch as the [slayer] possessed an undivided one-

1 This case was clarified or reversed by In the Matter of the
Estate of Mary Mathew, supra.
2 See Footnote #1

15
l

*

*•
half

life interest in the premises,

this interest cannot be

extinguished. Ibid.

NEW YORK 1980
In

the Matter

of

the

Estate

of

Florence

Busacca,

3

102

i

Misc.2d 567; 423 N.Y.S.2d 622; 1980 N.Y. Misc. LEXIS 1988, where
the husband was convicted for murdering his wife, the Surrogate's
Court previously "approved the sale of the real property and
directed the proceeds to be placed in escrow pending the proper
distribution of assets.

Now the [reviewing]

court determines

that in accordance with the views heretofore mentioned,

[the

slayer] is entitled to the computed value of a life estate in
one-half of the proceeds based on his life expectancy." Id. at
569.

1
5

NEW YORK 1975
In the Matter of the Estates of Granville Pinnock and Enid
Pinnock,i 83 Misc.2d 233; 371 N.Y.S.2d 797; 1975 N.Y.Misc. LEXIS
2884 in a murder/suicide, the Surrogate's Court noted that:
It is well established that one may not inherit or
succeed to property as a result of his own wrongful
act.
Likewise, a wrongdoer's estate may not profit
from the wrongful act. Id. at 237.
3 See Footnote #1
4 See Footnote #1

16

‘■J

s*

★ * * *

The nature of the tenancy is pertinent since while one may
not suffer a forfeiture of his own property as a result of
a criminal act, it must be determined whether the wrongful
act of the malfeasor has altered his property rights so as
to improve his position as a result of the wrongful
conduct. Ibid.
* * * *

[BJut [the slayer] could not be deprived of his one half
of the [joint bank] account without such a deprivation
constituting a forfeiture of his own property.
While a
wrongdoer may not benefit from his wrong, the law does not
contemplate the forfeiture of that which is his unrelated
to his wrongful act. Id. at 239.
* * * *

[The slayer] still had the right to one half the proceeds
of the
[joint bank]
account that belonged to him
independent of the death of his wife, His estate has the
same right. Ibid.

s
NORTH CAROLINA 1999
i

Woolbert v.

I%

54 F.Supp.2d 539? 1999 U.S.Dist. LEXIS 1711,

1

the Western District of North Carolina Court upheld the lower

I

Considering
Kimble Glass, Inc •

the appeal
t

in a murder/suicide,

court findings that:
[T]he rulings of the North Carolina courts that the
slayer statute only serves to exclude a slayer from his
victim's estate, and not to alter the actual time of
death of any decedent. Id. at 541-542.
* * * *

The Statute deems the slayer to have predeceased his
victim only for the purposes of excluding the slayer
from his victim's estate...The Statute does not indulge
the fiction that the slayer's date if death is other
than the actual date of death, but merely establishes a
presumption to exclude the Blayer • # • « It does not act to
include the victim in the slayer's estate due to the
slayer's crime. Id. at 542.
* * * *

17

♦

[T]he statute the Plaintiff's seek to apply does not,
and cannot, produce the result the Plaintiffs seek,
that is, the inclusion of the Estate of [the victim]
in that of her slayer/husband's estate. Ibid.
*

*

it

it

[T]he denial of a slayer’s heirs from taking their
share of the estate of the slayer is not the common law
in this country, and is unconstitutional. Id. at 542543.

NORTH CAROLINA 1992
Ih Mothershed v. Schrimsher,

105 N.C.App. 209; 412 S.E.2d

123; 1992 N.C.App. LEXIS 30, a son murdered his mother and then
kills

himself.

The

court

was

asked

to

determine

if

the

mother/victim's estate would benefit from the son/killer's estate
through the Slayer Statute.

The North Carolina Appellate Court

said:
The Statute deems the slayer to have predeceased the
victim only for purposes of excluding the slayer from
his victim's estate....The Statute’s plain language
clearly bars the slayer from participating in the
victim’s estate.
Nowhere does the Statute authorize
the victim to participate in the slayer's estate. ..The
Statute is one of exclusion, not of inclusion.
When
applicable
it acts
to exclude a
slayer
from
participation in the victim's estate. It does not act
to include the victim in the slayer's estate due to the
slayer's crime. Id, at 212-213.
.

NORTH DAKOTA 1981
In the Matter of the Estate of Snortland,

311 N.W.2d 36

(N.D.1981)—and in Montana—In Re Estate of Matye, 645 P.2d 955
(Mont.1982),

the highest appellate courts have held that the

wrongdoer, tinder the statute, retains the benefit of a one-half
18

*
»

interest in the property formerly held by the entireties,
must be noted,

however,

states had so held.

that even under the common law,

It
some

[See In the Matter of the Estate of Karas,

192 N.J. Super. 107, 111-12, 469 A.2d 99 (Law.Div. 1983); Neiman
v. Hurff, 11 N.J. 55, 60, 93 A.2d 345 (1952).]

I
PENNSYLVANIA 2003
In the Estate of Romeo A, Luongo, 823 A.2d 942 (Pa.Super.
2003), the Superior Court of Pennsylvania considered the contest

s

I
*

of

a

probated will,

Because

the

long-time

girlfriend and

I

companion of the decedent was implicated in the decedent’s death,
the

Court

discussed

the

Pennsylvania

distribution of the decedent's estate.

Slayer's

Act

bar

The Court held that:

Any person "who participates, either as a principal or
as an accessory before the fact, in the willful and
unlawful killing of another person" is statutorily
barred from acquiring or receiving any property or
benefit arising from the death of that person. 20
Pa.C.S.A §§ 8801, 8802. Any property which would have
passed to or for the benefit of the slayer by devise or
legacy from the decedent shall be distributed as if the
slayer predeceased the decedent. 20. Pa.C.S.A. § 8803.
Id. at 962.

to
i

\

The Court further declared that:
Even a felonious killing will not act to bar the slayer
of property to which she is otherwise entitled and over
which the felonious killing had no effect. Ibid.
* * * *
The Slayer's Act also identifies contests regarding the
continuation or forfeiture of rights by devise or
legacy from the decedent to a slayer as generally
the
distribution
stage
of
the
matters
for
estate....[T]he Slayer's Act [acts] as a- bar to

19
’i

«> \

distribution in the event of appropriate proof. Id^ at
963.

I
I
{

1
PENNSYLVANIA 1992
Where property was held by the entireties and the husband
was convicted of voluntary manslaughter of his wife, the Superior
Court of Pennsylvania, In re Estate of Bartolovich, 420 Pa.Super.
419, 422, 616 A.2d 1043, 1045 (1993), commented:
I
In addition, "[t]he principal focus of the [Slayer's]
Act is not ... one of balancing the slayer's interests
against the interests of his victim's estate nor does
the act reflect a legislative intent to profit the
decedent1s estate by diminishing any property right
held by the slayer...." Drumheller v. Marcello, 516 Pa.
428, 433, 532 A. 2d 807, 809 (1987) (quoting In re
Estate of Larendon, 439 Pa. 535, 539, 266 A.2d 763,
765-66 (1970)).

|

I
i

TENNESSEE 1993
In Hicks, Chadwell, Reed and Ashbury v. Boshears, 846 S.W.2d
812; 1993 Tenn. LEXIS 27, the Supreme Court of Tennessee reversed
the trial and appellate courts' rulings which awarded the entire
estate to the slayer, and held that:
Accordingly, in the case before the Court, the statute
prohibits the defendant from gaining the conversion
. ,
. . of
his tenancy by the entirety into a fee simple estate.
Instead, the tenancy by the entirety is converted into
a tenancy in common by the defendant's act
feloniously killing the other tenant, The result is
that an undivided one-half interest in the property is
owned by the defendant, and an undivided one-half
interest descends [to the decedent's estate] by " the
laws of descent and distribution, or by will, deed, or
other conveyance" as the case may be. Chapter 11,
Public Acts of 1905.
90

Ig

V \

The conversion of a tenancy by the entirety into a
tenancy in common at the time of the felonious murder
of a spouse, prevents a person from turning an
expectant interest into a vested interest by "killing,
or conspiring with another to kill, or procuring to be
killed, any other person." This conclusion accommodates
the two historic legal principles at issue: the
equitable maxim that one should not be allowed to
profit by wrongdoing, codified in the statutory
prohibition against a killer taking or inheriting
property from his victim, and the ownership of property
31-1-106, 108
as tenants by the entirety. T.C.A. §§
<1984).
This ’interpretation does not, as contended by the
defendant, violate Article 1, Section 12 of the state
constitution by allowing a forfeiture of vested
interest in land. As discussed above, the defendant's
interest in the property at the time of the murder was
not a fee simple estate. He has no constitutional right
to have the tenancy by the entirety converted into a
fee simple by his felonious act. T.C.A. § 31-1-106 only
prohibits the conversion of a tenancy by the entirety
into a fee simple estate by his criminal act to his
benefit. The interest that he already possessed, an
undivided interest in the property equally shared with
his wife, is preserved and converted into a noncontingent estate.
This conclusion also is consistent with the treatment
of tenancies by the entirety in other areas of the law.
[i.e • t as in divorce proceedings, the inheritance tax
statute, and simultaneous death cases].
Id. at 818.

VERMONT 1980
In Chabot v. Chabot,

138 Vt. 170? 412 A.2d 930; 1980 Vt.

LEXIS 1053, a husband pleaded guilty to the second-degree murder
of his wife,
entirety.

with whom he owned property as

tenants by the

After his release from prison, the widower remarried

21

I

3

v*

and purportedly conveyed title in the above property

to his

second wife as tenancy by the entirety and executed a new will
leaving the majority of his estate to his second wife,

Upon his

subsequent death, the children of the first marriage sought their
mother's share in the property.
Relying

on

Mahoney,

infra,

the

Vermont

Supreme

Court

affirmed the lower court's order for the second wife to hold onehalf of the property in a constructive trust for the benefits of
the first wife's heirs and the second wife to receive the other
one-half interest in the property. Id. at 173.

[It is unclear

from the opinion whether the second wife inherited the one-half
share via deed or will,

Whichever method, the slayer's property

II
l

i
I

!

remained in his estate and was not forfeited.]
The

Supreme

Court determined

the

trial

court

correctly

1

indicated that:
[I]t would be unconscionable for [the slayer], after
murdering his wife and cotenant by the entirety, to
retain the entire interest in the property and then
pass title to his second wife as a successor tenant by
A husband who murders his wife should
the entirety.
not be better off propertywise merely because he holds
property by the entireties rather than some other way.
Therefore, to avoid this unconscionable result, the
trial court imposed a constructive trust on one-half of
the subject property for benefit of [the victim's
heirs] .
The trial court found, and we think correctly, that the
most equitable and appropriate method of distribution
for resolving the instant case is one which recognizes
that the estate was severed by the unlawful killing,
and that • • • his estate is required to hold one-half of
the property in constructive trust for tthe decedent's]
heirs, the plaintiffs. The trial court analogized the
22

!

¥

*

present situation to a divorce, which under Vermont law
destroys the tenancy by the entirety and creates by
operation of law a tenancy in common among the parties.
This position has been taken by other jurisdictions to
prevent the "unconscionable mode" of acquiring full
legal title by the husband's survival of his murdered
wife.
This result works no forfeiture to [the slayer’s estate
and his heirs] as they receive what [the slayer] was
entitled to. Nor, however, do [the slayer’s estate and
his heirs] profit, as they are prevented from acquiring
Death
any additional benefits from the murder....
severed the tenancy by the entirety and created a
tenancy in common between the parties • • • •
Id. at 174-175.

VERMONT 1966
In re Estate of Mahoney, 126 Vt. 31, 220 A.2d 475 (1966) the
Court reasoned that where a killer acquired the victim’s property
as a result of the killing, the slayer should not be permitted to
improve his position by the killing, but should not be compelled
to lose property that he had a vested interest in had there been
no killing. Id. at 34, 220 A.2d at 478.

VIRGINIA 1980
In Sundin v. Klein, 221 Va. 232; 269 S.E.2d 787; 1980 Va.
LEXIS 240 where a husband murdered his wife,

the executrices

sought a declaratory judgment from the trial court to “adjudicate
and determine the rights of the parties in and to" property held
as tenants by the entirety.

The Virginia Supreme Court, as a

matter of first impression,

reversed the trial court’s ruling

23

i3

I!

I8

I

f
•*

that the surviving slayer was the sole owner in fee simple, and
entered a final decree.

The Court noted:

For this court to provide a remedy here, however, would
not require the reversal of any established rule, but,
instead, would permit the full play of a common law
maxim of ancient vintage, viz. that no person should be
permitted to profit by his own wrong. Id. at 236.
[W]e need not linger over the question whether all the
property should be subject to a constructive; we have
indicated earlier that [the victim's) estate seeks the
imposition of a trust upon only a one-half interest in
the land, and [the slayer] does not challenge this
division as unreasonable, if a division is made. Id. at
237.
* * * *

[T]o divest the [slayer] of property he had acquired
from someone other than his murder victim would work an
unlawful forfeiture. Id. at 238.
Furthermore, if an unlawful forfeiture is caused by a
judicial decision limiting the interest of the murderer
of a cotenant in entirety, then obviously, [the no
corruption of blood statute] would cause an illegal
forfeiture as well.But similar statutes uniformly
have been upheld on the ground that they do not deprive
the murderer of any property rights, but prevent his
acquisition of additional rights by unlawful and
unauthorized means. Id. at 240.
it

ie

it

it

We conclude that the soundest and most equitable course
to follow in this case is to impress a constructive
trust upon a one-half undivided interest in the
property in dispute for the benefit of [the victim's]
estate, to be disposed of according to the terms of her
will, with [the slayer] holding the other undivided
Under this
one-half interest free of any trust,
disposition, [the victim's] estate receives all it
asks, and [the slayer] keeps all he is due. Id. at 241.
See also note 5 for numerous secondary authorities.

24

r

i

#
T»

i

WISCONSIN 1999
In the Estate of Diane L. Hackl v. Cody Hackl, 231 Wis.2d
43; 604 N.W.2d 579; 1999 Wisc.App. LEXIS 1124 where the Appellate
Court decided in a pension dispute owned by a husband who killed
his wife.

The Court stated that:

[T]his court has recognized a distinction between
property acquired by a murderer as a consequence of a
wrongful act and property lawfully acquired by the
murderer prior to such an act. ... [Although a] murderer
is not permitted to keep property which he acquires by
the murder, he will not be deprived of property which
[A] murderer
he does not acquire through the murder
is not deprived of property lawfully acquired by him
but is merely prevented from acquiring [a] beneficial
interest in property through his unlawful act. Id. at
55.
* * * *
[W]here two persons have an interest in property and
the interest of one of them is enlarged by his murder
of the other, the extent to which it is enlarged he
holds it upon a constructive trust for the estate of
the other. Ibid.
• • « t

25

?.

I

l

